  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



      An Assessment of the Proposal to
     Merge Customs and Border Protection
        with Immigration and Customs
                Enforcement




     Office of Inspections and Special Reviews

OIG-06-04                          November 2005
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

Our review examined the operations and functions of Customs and Border Protection and
Immigration and Customs Enforcement and the role of the Border and Transportation Security
Directorate with regard to those entities. This review was conducted in response to a request from
the Chairman, Senate Committee on Homeland Security and Governmental Affairs, to study the
merits of merging the bureaus of Customs and Border Protection and Immigration and Customs
Enforcement. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents. We have made
recommedations for improvement that we hope will result in more effective, efficient, and
economical operations. To all who contributed to this report, we express our appreciation.




                                             Richard L. Skinner
                                             Inspector General
Contents

Executive Summary ..................................................................................................................... 1

Background ................................................................................................................................... 10
          Overview................................................................................................................................ 10
          Organization of the Report..................................................................................................... 12

Establishment of Customs and Border Protection / Immigration and Customs
Enforcement Structures ........................................................................................................... 14
          Early Considerations for Structuring Border Security Operations ........................................                                14
          Homeland Security Act of 2002 ............................................................................................              16
          Structural Recommendations Made by Transition Teams.....................................................                                17
          Opposition to a Single Border Security Agency....................................................................                       20
          Announcement of Customs and Border Protection /
          Immigration and Customs Enforcement Structures...............................................................                           20
          Recent Discussions Concerning Customs and Border Protection /
          Immigration and Customs Enforcement Structures...............................................................                           21

Customs and Immigration Enforcement Continuums .................................................. 22
          The Continuums with Immigration and Naturalization Service /
          United States Customs Service .............................................................................................. 22
          The Continuums with Customs and Border Protection /
          Immigration and Customs Enforcement ............................................................................... 23

Coordination of Apprehension and Detention and Removal Operations .............. 25
          Operational Environment.......................................................................................................          26
          Problems with National Coordination ...................................................................................                 27
          Problems with Field Coordination .........................................................................................              30
          Consequences.........................................................................................................................   37

Coordination of Investigative Operations .......................................................................... 38
          Operational Environment....................................................................................................... 38
          Problems with Field Coordination ......................................................................................... 40
          Consequences......................................................................................................................... 46



                                                An Assessment of the Proposal to Merge CBP and ICE
Contents


Coordination of Intelligence Activities ................................................................................ 54
         Operational Environment.......................................................................................................          55
         Problems with National Coordination ...................................................................................                 56
         Problems with Field Coordination .........................................................................................              57
         Overreliance on the Treasury Enforcement Communication System to Share Intelligence .                                                   59
         Lack of Collaboration to Produce Intelligence Reports.........................................................                          60
         Consequences.........................................................................................................................   61

Role of the Directorate of Border and Transportation Security ............................... 62
         Inadequate Resources to Perform Mission ............................................................................ 62
         Roles and Responsibilities Not Defined ................................................................................ 63
         Consequences......................................................................................................................... 64

Other Organizational Structure Concerns ........................................................................ 66
         Federal Protective Service ..................................................................................................... 66
         Federal Air Marshal Service .................................................................................................. 67
         Forensic Documents Laboratory............................................................................................ 68

Organizational Options ............................................................................................................ 70

         Option 1: Customs and Border Protection / Immigration and Customs Enforcement
         Report to the Deputy Secretary ......................................................................                                   72
         Option 2: Create More Effective Coordination Mechanisms ...............................................                                 73
         Option 3: Merge Customs and Border Protection /
         Immigration and Customs Enforcement ................................................................................                    74
         Other Suggested Organizational Changes .............................................................................                    76

Recommendations for DHS Second Stage Review Implementation......................... 76

Management Comments and OIG Analysis ...................................................................... 82
         Overview of Management Comments ................................................................................... 82
         Detailed Analysis of Management Comments ...................................................................... 85




                                               An Assessment of the Proposal to Merge CBP and ICE
Contents

Appendices
     Appendix A   Organizational Overview of the Immigration and Naturalization Service ..                                          100
     Appendix B   Organizational Overview of the United States Customs Service ................                                     105
     Appendix C   Organizational Overview of the Border and Transportation Security
                  Directorate....................................................................................................   109
     Appendix D   Organizational Overview of Customs and Border Protection .....................                                    114
     Appendix E   Organizational Overview of Immigration and Customs Enforcement ........                                           119
     Appendix F   Operational Scenarios Illustrating the Interconnectedness of Customs and
                  Border Protection / Immigration and Customs Enforcement ......................                                    124
     Appendix G   Purpose, Scope, and Methodology...............................................................                    134
     Appendix H   Management Response to the Draft Report .................................................                         136
     Appendix I   Major Contributors to This Report ..............................................................                  160
     Appendix J   Report Distribution ......................................................................................        162

Abbreviations
     ABCI         Arizona Border Control Initiative
     ACAP         Alien Criminal Apprehension Program
     ACS          Automated Case Support System
     ADIS         Arrival Departure Information System
     AMO          Air and Marine Operations
     APHIS        Animal and Plant Health Inspection Service
     ASU          Anti Smuggling Unit
     BORFIC       Border Patrol Field Intelligence Center
     BTS          Border and Transportation Security Directorate
     CAP          Criminal Alien Program
     CBP          Customs and Border Protection
     CCICC        Command and Control Intelligence Coordination Center
     CD           Controlled Delivery
     CFR          Code of Federal Regulations
     CIA          Central Intelligence Agency
     CIS          Citizenship and Immigration Services
     CMC          Customs Management Center
     CPA          Chief Patrol Agent
     CSIS         Center for Strategic and International Studies
     C-TPAT       Customs-Trade Partnership Against Terrorism
     DACS         Deportable Alien Control System
     DEA          Drug Enforcement Administration
     DHS          Department of Homeland Security


                                  An Assessment of the Proposal to Merge CBP and ICE
Contents

   DOJ       Department of Justice
   DRO       Office of Detention and Removal
   ENFORCE   Enforcement Case Tracking System
   EOIR      Executive Office of Immigration Review
   ER        Expedited Removal
   FAMS      Federal Air Marshal Service
   FBI       Federal Bureau of Investigation
   FDAU      Fraudulent Document Analysis Unit
   FDL       Forensic Document Laboratory
   FEMA      Federal Emergency Management Agency
   FIU       Field Intelligence Unit
   FLETC     Federal Law Enforcement Training Center
   FPS       Federal Protective Service
   FTE       Full-Time Equivalent
   FY        Fiscal Year
   GAO       Government Accountability Office
   GS        General Schedule
   GSA       General Services Administration
   HSA       Homeland Security Act of 2002
   HSIR      Homeland Security Information Reports
   IAFIS     Integrated Automated Fingerprint Identification System
   IAIP      Information Analysis and Infrastructure Protection
   IBIS      Interagency Border Inspection System
   ICAT      Intelligence Collection and Analysis Team
   ICE       Immigration and Customs Enforcement
   IDENT     Automated Biometric Identification System
   IEA       Immigration Enforcement Agent
   IG        Inspector General
   IHP       Institutional Hearing Program
   IIR       Intelligence Information Report
   IIRIRA    Illegal Immigration Reform and Immigration Responsibility Act of 1996
   INS       Immigration and Naturalization Service
   IRP       Institutional Removal Program
   ISI       Immigration Security Initiative
   ISRS      Image Storage and Retrieval System
   JTTF      Joint Terrorism Task Force
   MOU       Memorandum of Understanding
   NCIC      National Crime Information Center
   NTA       Notice To Appear
   NTC       National Targeting Center



                       An Assessment of the Proposal to Merge CBP and ICE
Contents

   ODP        Office for Domestic Preparedness
   OFO        Office of Field Operations
   OI         Office of Investigations
   OIG        Office of Inspector General
   OMB        Office of Management and Budget
   OPLA       Office of the Principal Legal Advisor
   OPR        Office of Professional Responsibility
   OTM        Other Than Mexican
   POE        Port of Entry
   ROI        Report of Investigation
   SAC        Special Agent in Charge
   SOP        Standard Operating Procedure
   TECS       Treasury Enforcement Communication System
   TSA        Transportation Security Administration
   USC        United States Code
   USCG       United States Coast Guard
   USCS       United States Customs Service
   USDA       United States Department of Agriculture
   USMS       United States Marshals Service
   USSS       United States Secret Service
   US-VISIT   United States Visitor and Immigrant Status Indicator Technology
   2SR        Second Stage Review




                        An Assessment of the Proposal to Merge CBP and ICE
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                           President George W. Bush signed the Homeland Security Act of 2002 (HSA)
                           into law on November 25, 2002, thereby establishing the Department of
                           Homeland Security (DHS). In addition to creating DHS, the HSA created
                           within DHS a Border and Transportation Security (BTS) directorate charged
                           with customs and immigration enforcement. Initial plans for DHS outlined in
                           the HSA assigned customs enforcement responsibilities to the Customs
                           Service and immigration enforcement responsibilities to the Bureau of Border
                           Security, both of which were to report to BTS.

                           In January 2003, the President modified the initial Reorganization Plan
                           submitted to Congress pursuant to HSA, restructuring these BTS components.
                           Under the modified structure, customs and immigration enforcement
                           responsibilities were distributed across two new BTS organizations, Customs
                           and Border Protection (CBP) and Immigration and Customs Enforcement
                           (ICE). CBP’s inspectors and Border Patrol agents offered “One Face at the
                           Border” for customs and immigration activities, while ICE investigators
                           performed investigations on both customs and immigration enforcement
                           cases. In addition to investigators, the ICE organization included employees
                           responsible for the detention and removal of illegal aliens, the protection of
                           federal buildings, and, later, federal air marshals responsible for civil aviation
                           security.

                           The current organizational structure has been the subject of persistent
                           criticism. Among those calling for change are the Heritage Foundation and
                           the Center for Strategic and International Studies (CSIS). In December 2004,
                           the Heritage Foundation and CSIS released a report entitled, DHS 2.0:
                           Rethinking the Department of Homeland Security, which recommended the
                           elimination of BTS and the merger of CBP and ICE.1 The Heritage
                           Foundation recommendations were points of focus during the first hearing of
                           the newly formed Senate Committee on Homeland Security and
                           Governmental Affairs in January 2005. During the hearing, the Committee




1
    Heritage Foundation and CSIS, DHS 2.0: Rethinking the Department of Homeland Security, December 13, 2004, p. 16.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 1
                           Chairman asked the DHS Office of Inspector General (OIG) to assess the
                           merits of merging CBP and ICE as well as the role of BTS.

                           In response, we undertook a review of the merits of merging CBP and ICE
                           and the related role of BTS. In support of this review, we conducted more
                           than 300 interviews with over 600 individuals drawn from the public, private,
                           and non-profit sectors. We traveled to ten major cities and visited more than
                           63 CBP and ICE sites in the field. We met with senior leadership, program
                           managers, field staff, and stakeholders. We reviewed budget plans,
                           performance statistics, operating procedures, and a large volume of other
                           information pertaining to BTS, CBP, and ICE. In so doing, we examined
                           whether the difficulties we discovered arose with the implementation of the
                           new organizational structure, or whether they were pre-existing conditions
                           carried over from the former INS and USCS and inherited by the new
                           organization.2 Also, we considered other factors that may have contributed,
                           such as funding and accounting system difficulties.3 After weeding out such
                           issues, we found that the current organizational arrangement contributed to
                           challenges in at least three major areas: coordination between apprehension
                           and detention and removal efforts, coordination between interdiction and
                           investigative efforts, and coordination of intelligence activities.

                           Before BTS assumed responsibility for immigration and customs
                           enforcement, related enforcement responsibilities were performed by two
                           different agencies with authority over virtually all related functions. The
                           Department of Justice’s (DOJ) Immigration and Naturalization Service (INS)
                           was responsible for the bulk of immigration enforcement activities. It
                           performed a wide range of related functions, including apprehension, border
                           inspection, investigation, and prosecution of violations of immigration law.
                           Concurrently, United States Customs Service (USCS), within the Department
                           of the Treasury, bore responsibility for customs enforcement activities,
                           including the targeting, inspection, regulation, and investigation of all cross-
                           border traffic in goods.


2
  An early challenge in undertaking this review was to separate operational problems and deficiencies historic to the
former agencies from those arising in the current DHS environment from the structure of BTS. Our first effort was a
survey of legacy OIG and Government Accountability Office (GAO) reports and other products to identify pre-existing
vulnerabilities, such as INS’ historic problems with databases and software or its connectivity problems related to
fingerprint biometrics, for example, so as not to confuse them with matters stemming from the structures of BTS, CBP,
and ICE.
3
  ICE suffered over the past two years from funding shortfalls, resulting in training, travel, recruitment, pay, and awards
shortages. In this report, we did not comment on or consider complaints and problems that appeared to be solely
attributable to ICE’s financial condition. However, we currently have an audit underway to identify causes of ICE's
budget problems and anticipate issuing a report on this subject later in 2005.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                                Page 2
With the formation of CBP and ICE, the responsibility for customs and
immigration enforcement was divided between the two agencies, such that
each agency shouldered responsibility for aspects of both customs and
immigration enforcement. By the same token, neither agency was given
responsibility for the full scope of customs or immigration enforcement
activities. CBP received INS and USCS inspections functions and the Border
Patrol. ICE received INS and USCS investigations and intelligence functions
and INS detention and removal staff and resources.

CBP and ICE depended heavily on each other’s assistance. The new
arrangement meant that enforcement efforts that were initiated by CBP, for
example, now had to be completed by ICE. ICE now depended on case
referrals from CBP inspectors. For their part, CBP Border Patrol agents now
relied on ICE detention and removal resources to deport the aliens who they
apprehended.

Under the current organizational arrangement, the role of integrating CBP and
ICE activities was the responsibility of BTS. BTS’ ability to serve in this
capacity, however, was hampered by a lack of adequate staffing and
authorities over CBP and ICE. Consequently, BTS leadership often failed to
prevent CBP and ICE from working at cross-purposes, did not intervene to
effectively synchronize CBP’s and ICE’s operations, and was slow to resolve
conflicts. Our observations indicate that, as a result, CBP and ICE have not
successfully coordinated efforts. Each organization engages in discrete
planning and strategy development processes, and field staff are accountable
to separate chains of command.

The division between CBP and ICE is marked by a clear institutional barrier.
Shortfalls in operational coordination and information sharing have fostered
an environment of uncertainty and mistrust between CBP and ICE personnel.
Where collegial interactions should characterize relations between employees
of the two organizations, we have been told of competition and, sometimes,
interference. These organizational conditions have led to the articulation of
mismatched priorities, competition, and, at times, operational inflexibility.

       Coordination of Apprehension and Detention and Removal Operations

These adverse organizational conditions have undercut coordination between
CBP’s alien apprehension and ICE’s detention and removal efforts. Coupled
with ICE’s funding and accounting difficulties, the failure to coordinate
interagency planning and budgeting processes has contributed to a resource
imbalance as CBP’s front-end apprehension capabilities grew and ICE’s
downstream detention and removal did not. This imbalance has placed

          An Assessment of the Proposal to Merge CBP and ICE

                               Page 3
                          increasing strain on ICE detention and removal resources as well as reduced
                          the impact of CBP’s alien apprehensions. Improved coordination between
                          CBP and ICE could have reduced the negative impact of this resource
                          imbalance.

                          Without effective, coordinated detention and removal support, the impact of
                          CBP’s apprehension efforts may be reduced.4 For deterrence to work, aliens
                          considering illegal entry into the United States must fear the prospect of actual
                          apprehension and removal. Instead, the immigration absconder backlog is
                          continuing to grow and stood at more than 465,000 at the end of fiscal year
                          (FY) 2004. A drop in the proportion of illegal aliens who are removed may
                          inspire more aliens to seek illicit entry into the United States and, in turn,
                          cause removal rates to spiral downward.

                          In the past, INS detention and removal resources were detailed to support
                          apprehending components by providing transportation, guard duty, and basic
                          processing of aliens. At BTS’ instruction, some of this support continues.
                          According to senior CBP staff, however, the level and quality of support has
                          declined. This declining support in some areas, combined with ICE’s
                          withdrawal of support in other areas, has prompted CBP to divert staff and
                          resources from the functions they are best suited to perform – inspections and
                          patrol work.

                          Ultimately, the Office of Detention and Removal’s (DRO) detention and
                          removal functions are governed by appropriations. Better ICE and CBP
                          coordination can improve the way these resources are allocated, but the total
                          deterrence obtainable from their combined efforts is still limited by the funds
                          available to buy bed space and support removal costs.5

                                  Coordination of Investigative Operations

                          The current organizational structure has also hampered coordination of
                          interdiction and investigation efforts. In the past, investigators belonged to
                          the same organizations as inspectors and Border Patrol agents. Now, many
                          CBP employees report that ICE no longer accepts as many case referrals from
                          CBP inspectors and Border Patrol agents. Some attribute ICE investigators’
                          declining acceptance rate of CBP case referrals to the separate chains of
4
  The increase in the number of mandatory detainees, who consume approximately 87 percent of available detention bed
space, has put a premium on coordinating the way the remaining available bed space is used. In effect, bed space has
become scarce and tension over alternative uses is greater.
5
  The OIG is currently conducting an audit of ICE’s program for detaining and removing illegal aliens. Among other
topics, the resulting audit report will address the impact of ICE’s budget constraints on DRO’s detention and removal
mission.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 4
command. In the past, when investigators did not respond to a referral,
inspectors and Border Patrol agents had recourse to appeal for investigative
support in important cases; this recourse is no longer easily available.

Additionally, many ICE investigators reported that investigative coordination
between CBP and ICE is declining because CBP increasingly refers cases to
other investigative agencies. In the past, USCS and INS investigators had first
right of refusal for cases uncovered by inspectors. Due to ICE’s less frequent
acceptance of case referrals, interagency competition, growing mistrust, and
an interest in receiving detailed feedback on case progress, CBP is referring
more cases to the Federal Bureau of Investigation (FBI), Drug Enforcement
Administration (DEA), and local law enforcement authorities for investigation
without first notifying ICE.

CBP is now developing its own investigative capabilities. In October 2004,
CBP announced a pilot program to increase the number of CBP enforcement
officers – a group that, in the INS, investigated some immigration cases, but
was restricted to the ports of entry (POEs). This pilot program would broaden
the scope of these CBP enforcement officers’ authority to include criminal
violations of the federal customs and drug statutes, and expand their
jurisdiction outside the POEs. Along the same lines, the Border Patrol has
taken some steps to reconstitute its investigative capabilities in alien
smuggling cases.

In addition to the referral of cases to outside law enforcement agencies, the
development of an internal CBP investigative capability may adversely impact
ICE investigations. ICE staff told us that some of its investigations have been
compromised by CBP due to what it characterized as inexperienced CBP
investigative work. Without a sound mechanism for deconflicting cases,
duplicative investigations could ensue.

A large number of CBP employees and ICE investigators expressed concern
about growing antagonism between the two organizations. They told us that
they fear that, as legacy employees retire or resign, pre-DHS working
relationships will lapse and coordination will further deteriorate.

       Coordination of Intelligence Activities

Coordination of intelligence activities between CBP and ICE has also
suffered. CBP and ICE intelligence requirements overlap to a large extent.
Both CBP and ICE require intelligence regarding illegal aliens, criminal
aliens, alien smuggling, drug trafficking, fraudulent travel documents, and
import and export violations.

          An Assessment of the Proposal to Merge CBP and ICE

                               Page 5
Despite their shared intelligence needs, the two organizations have separate
intelligence structures and products. Intelligence coordination between CBP
and ICE at both the headquarters and field levels needs improvement. At the
headquarters level, the only significant intelligence coordination effort we
could identify between the two organizations relates to intelligence received
from outside agencies. Meanwhile, CBP has withdrawn from ICE field
intelligence elements as ICE has from CBP’s. Consequently, separate CBP
and ICE field intelligence structures have emerged.

The organizations’ primary means of sharing intelligence is the Treasury
Enforcement Communications System (TECS), which was not designed for
this purpose. Most CBP personnel lack the required level of access to retrieve
critical information entered into TECS by ICE. As a result, valuable ICE
information about criminal trends and threats is effectively withheld from
most CBP employees, especially from those in the field. Furthermore,
because the data system was not designed as an intelligence tool and does not
highlight trends or detect anomalies, intelligence analysts often are unaware of
the information it contains and must hunt through the entire system to retrieve
information needed to “connect the dots.”

As a result, CBP and ICE work independently of one another to develop
intelligence products. CBP and ICE intelligence analysts told us that the two
organizations have never co-authored any major intelligence products. The
intelligence products each generates serve their respective needs and may not
present a comprehensive picture of border security.

Improved efforts to eliminate intelligence stovepipes are needed. Intelligence
and other information CBP and ICE could use to enhance their operations and
improve overall border security is sometimes retained on the other side of the
interagency wall. As a result, neither agency has all of the information it
needs from the other. We were told that the failure of CBP and ICE to
collaborate has led to at least a few cases in which CBP or ICE operations
were hampered for an unnecessarily extended period because one did not
know about important intelligence that the other had obtained.

      Conclusions

It has been said that a merger or acquisition of the magnitude of DHS’
establishment will take five years or more to settle into a satisfactory
condition of operations. The programmatic issues reported here are evidence
that integration is not proceeding as well as required. We encountered
concerns that institutional rivalries, duplication of functions, and insularity of

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 6
                          view were tending in a negative direction. More broadly, we encountered
                          bitter and vocal frustration from many DHS employees over basic questions,
                          such as mission confusion, operational frustration at dependency on now
                          remote bureaucracies for services and cooperation they once were able to take
                          for granted, and a skepticism over whether DHS leadership was attentively
                          engaged in finding answers for them.

                          The costs associated with another upheaval may not be as expensive as it
                          might seem, largely because much of the physical integration has not been
                          accomplished and therefore will not require funding to undo.6 Moreover,
                          there is some good will and expertise within the two workforces that, though
                          perishable, remains available to assist in this turn around. The greater cost
                          will be in a loss of productivity and institutional and employee engagement
                          during the hiatus until the dust again settles. A strong argument has been
                          made to us that it is cheaper to retrench now than it would be later. There is
                          validity in this contention. It is not simply a case of veterans wishing to return
                          to the old way of doing things. We do not contemplate returning to separate
                          USCS and INS operations; rather, we contemplate the union of USCS and
                          INS functions, resulting in a stronger and more complete border security
                          program.

                          The current organizational structure resulted in inefficiencies in the customs
                          and immigration enforcement processes. These inefficiencies are apparent in
                          breakdowns in: coordination between apprehension and detention and
                          removal efforts, coordination between interdiction and investigative efforts,
                          and coordination of intelligence activities.

                          Duplication has emerged in new areas, as redundant capabilities are being
                          developed by CBP and ICE in response to deficiencies in resource sharing.
                          And rather than improving, information and intelligence sharing has been
                          undermined through the development of new stovepipes.

                          Three primary options for structural change have been raised. The first option
                          is to eliminate BTS and have CBP and ICE report directly to the DHS Deputy
                          Secretary. This option would not eliminate the emerging operational and
                          informational stovepipes between CBP and ICE. Elevating the interagency
                          coordination role to the Deputy Secretary would further remove the ultimate
                          arbiter from the agencies’ day-to-day operations.



6
 We tried to ascertain the original cost of BTS’ reorganization of the customs and immigration functions as a means of
estimating possible costs to reverse it, but did not receive useful responses.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 7
The second option for change involves strengthening mechanisms for
coordination between CBP and ICE. This option would not require major
changes to the current organizational framework but would necessitate the
enlargement and strengthening of BTS to include clear budget formulation
and execution authority over CBP and ICE, and increased staffing. We regard
this second alternative as a less than optimal solution to the current challenges
faced by CBP and ICE. Enlarging and further empowering BTS would likely
add costs and remove budget powers from those responsible for operational
management. Finally, these changes would maintain an institutional barrier
between CBP and ICE and permit information and operational stovepipes to
persist.

We suggest a third option – merging the two organizations. The resulting
consolidated border security agency with a single chain-of-command would
be better positioned to coordinate mission, priorities, and resources to
guarantee a comprehensive border security program. We believe that this
structural alternative would provide the best opportunity for strong, effective
day-to-day coordination of interconnected operations and interdependent
functions. If CBP and ICE are integrated and merged into one organization,
the role of integrator, adjudicator, and enforcer would shift to the new agency
head. Under this arrangement, BTS would become superfluous with respect
to border enforcement and we recommend that it be disbanded.

Lastly, we make one final observation regarding CBP and ICE operations.
When we met with CBP and ICE headquarters officials to discuss our
observations from our extensive field work, we noted an apparent disconnect
between headquarters’ perceptions of what was occurring and what we
observed. CBP and ICE officials noted that some of what we observed was in
contravention to official policy. CBP and ICE headquarters officials provided
us with numerous policy memoranda and other correspondence to
demonstrate that what the field employees told us was happening was wrong.
We suggest that part of the problem rests with the enormous challenge of
creating and managing the new organizations. These discussions strongly
suggest that communication and policy implementation need much
improvement. Effective policy implementation requires constant monitoring
by headquarters and that field managers be held accountable when those
policies are violated.

       DHS Second Stage Review

Our review effort identified a number of concerns in the relationship of CBP
and ICE that we believe are linked to the current organizational structure. We
concluded that the best means to address the issues described in our report

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 8
was to merge CBP and ICE. On July 13, 2005, the Secretary announced the
results of his Second Stage Review (2SR) review. He decided not to merge
ICE and CBP, but to place them in a direct reporting relationship to the
Deputy Secretary. Other 2SR decisions – to eliminate BTS as an intervening
directorate and return the Federal Air Marshal Service (FAMS) to the
Transportation Security Administration (TSA) – are actions that are consistent
with our views.

Our report has not been rendered moot by the Secretary’s decision not to
merge ICE and CBP. Rather, we encountered issues in the course of our
review that require attention by DHS leadership whether or not there is a
merger. We urge that each of these issues be considered carefully and
addressed promptly. We conclude our report with a discussion of a number of
recommendations for implementation within the 2SR framework. These
recommendations are designed to help management overcome the interagency
coordination and integration challenges confronting CBP and ICE.




          An Assessment of the Proposal to Merge CBP and ICE

                               Page 9
Background
    Overview
               The Office of Inspector General was asked by the Chairman of the Senate
               Homeland Security and Governmental Affairs Committee to assess a proposal
               to merge CBP and ICE. A realignment of the various agencies and functions
               associated with border security has historically intrigued government
               managers. The most recent proposal, which generated the Chairman’s
               request, proposed that CBP and ICE be merged and that its parent
               organization, BTS, be eliminated.

               In our judgment, there are significant shortcomings in CBP’s and ICE’s ability
               to coordinate inspection, apprehension, detention, and investigative
               operations. These shortcomings are linked to the implementation of the
               current organizational structure. The current structure creates new stovepipes,
               which are inhibiting operational coordination and information sharing.
               Further, as both organizations seek to overcome the shortcomings of the
               current structure, they are building redundant capabilities to replace those they
               no longer control.

               This report is based largely on testimonial evidence. CBP inspectors, CBP
               Border Patrol agents, ICE investigators, and DRO officers at all the locations
               that we visited expressed the view that the organizations’ current structure is
               problematic. CBP and ICE field staff who we interviewed included senior
               managers. Both CBP and ICE field employees and both former INS and
               USCS employees communicated a high degree of frustration with the current
               structure. We observed antagonism between CBP and ICE that appears to be
               increasing and solidifying. Almost universally, the field employees perceive
               the current problems between CBP and ICE as unresolvable under the current
               structure because of the “unnatural separation” of the interdependent functions
               that were once part of the immigration and customs enforcement continuums.
               The intelligence collection and analysis activities of CBP and ICE are
               uncoordinated, making it difficult for the intelligence analysts to “connect the
               dots” to create a comprehensive threat assessment for border security.

               Our findings are based on evidence we collected from over 300 interview
               sessions with over 600 individuals. Our interviews included BTS, CBP, and
               ICE frontline employees in the field, as well as senior leadership and program
               managers at headquarters in Washington, DC. We traveled to Buffalo,
               Chicago, El Paso, Miami, Newark, New York City, Phoenix, San Diego, San
               Francisco, and Tucson to observe air, land, and seaport border security

                          An Assessment of the Proposal to Merge CBP and ICE

                                               Page 10
operations. We visited more than 63 different CBP and ICE sites in the field.
We interviewed congressional staff; personnel from other federal agencies,
including the Executive Office for the United States Attorneys and some
United States Attorneys; knowledgeable individuals from the Brookings
Institute, Council on Foreign Relations, Heritage Foundation, and the Rand
Corporation; and union leadership – representing employees in CBP and ICE
– from the American Federation of Government Employees, National
Treasury Employees Union, and National Border Patrol Council. We
reviewed standard operating procedures and other procedure manuals, budget
plans, and, where available, performance statistics from the legacy INS and
USCS organizations as well as similar information pertaining to BTS, CBP,
and ICE.

While we found significant problems coordinating operations between CBP
and ICE, we would be remiss if we did not acknowledge the tremendous
accomplishments made by DHS since its inception. DHS was conceptualized
in a little more than a year and was established just 60 days after its enabling
statue became law. The standup of DHS represented the largest
reorganization of government since the establishment of the Department of
Defense following World War II. It combined 22 different agencies from the
Federal Emergency Management Agency, Department of Agriculture,
Department of Transportation, Department of Justice, Department of the
Treasury, and elsewhere across the Executive branch.

These agencies brought their respective operational resources, skills, and
missions together to secure the United States from terrorist attacks.
Furthering the challenge for DHS was the requirement to orchestrate the
blending of the multitude of differing policies, procedures, systems, and
cultures of these agencies to form a single, cohesive DHS vision and mission.
To that end, DHS has made significant progress since March 1, 2003. It
should also be pointed out that all this work was accomplished while
maintaining critical operations to protect the United States seven days a week,
24 hours a day. Further, DHS did not have the luxury of extensive time to
plan and execute an administrative transition program, which may have
resulted in a smoother and more effective transition process. DHS’ efforts in
this context have often been described as “learning how to fly an airplane
while you are still building the airplane.”

Much of the critical groundwork for establishing the new department has been
laid for the future. However, DHS is still very much a work in progress.
Indeed, the Secretary’s 2SR initiative is an acknowledgment that the
department still has much work to do to fully achieve its mission. The
significant issues that we identified that relate to CBP and ICE will likely be

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 11
           some of the most challenging for DHS to overcome. This is partly because
           these two agencies account for approximately 60,000 of DHS’ 180,000
           employees. Further, these two organizations are on the frontline of defense
           for the United States. Their collective success is essential. In addition, DHS
           faces additional management challenges with these two agencies because they
           are new organizations, rather than pre-existing organizations brought together
           under new management. They are comprised of pieces of two legacy
           organizations, INS and USCS, recast as CBP and ICE. It is not surprising,
           therefore, that many of DHS’ most significant coordination and integration
           problems exist between CBP and ICE.


Organization of the Report
           This report is organized into 11 sections. The first section contains the
           overview.

           In the second section, Establishment of Customs and Border Protection /
           Immigration and Customs Enforcement Structures, we describe the formation
           of the current organization. We provide background on early considerations
           for structuring border security operations. We discuss the HSA as it pertains
           to structuring CBP, ICE, and BTS. We examine the structural
           recommendations made by transition teams formed to assist management with
           the establishment of DHS. We examine the establishment of CBP’s and
           ICE’s current structures. Finally, we introduce more recent discussions
           regarding the structures of CBP and ICE.

           The third section, Customs and Immigration Enforcement Continuums,
           presents a framework for understanding interdependencies of the immigration
           and customs functions and how the current organizational structure has
           disrupted these relationships.

           In the fourth section, Coordination of Apprehension and Detention and
           Removal Operations, we describe how the current organizational structure has
           created growing resource imbalances between the detention and apprehension
           functions, fostered the development of plans to direct traditional detention and
           removal resources toward interior enforcement, facilitated the development of
           detention practices that are not closely aligned with CBP border enforcement
           priorities, and impaired effective coordination.

           In the fifth section, Coordination of Investigative Operations, we describe
           how the current organizational structure has led to a decline of coordination
           and information sharing between CBP and ICE that has reduced ICE’s

                      An Assessment of the Proposal to Merge CBP and ICE

                                           Page 12
responsiveness to CBP’s investigative referrals. ICE’s unresponsiveness,
among other factors, has prompted CBP to refer more cases to other law
enforcement agencies. We discuss the possibility that the current
organizational structure has degraded the border enforcement mission.
Further, because CBP’s investigative needs are not being met, we discuss the
emergence of new CBP investigative capabilities.

The sixth section, Coordination of Intelligence Activities, examines how the
current organizational structure has separated CBP’s and ICE’s intelligence
functions, creating problems coordinating intelligence activities, and reducing
CBP’s and ICE’s ability to collaborate on intelligence reports. Also, we
describe how overreliance on TECS to share information is inhibiting timely
and effective intelligence exchange.

We discuss BTS’ inability to overcome the management hurdles created by
the current organizational structure in the seventh section, Role of the
Directorate of Border and Transportation Security. We describe how BTS
was inadequately resourced to perform its mission and that organizational
roles and responsibilities were never clearly defined. We identify some of the
consequences of BTS’ coordination problems.

In the eighth section, we consider streamlining ICE, whether as a stand-alone
component or after a merger with CBP. We examine three organizations
within ICE (FPS, FAMS, and FDL) that should be realigned either within
DHS or with some other department.

The ninth section discusses possible options for reorganizing DHS. We
explore three organizational options to overcome the coordination issues
between CBP and ICE.

In the tenth section, we discuss a number of substantive issues and make
recommendations to address them through the Secretary’s 2SR program to
overcome the CBP and ICE’s interagency coordination and integration
challenges.

In the final section, we discuss DHS management’s response and comments to
our draft report.




          An Assessment of the Proposal to Merge CBP and ICE

                               Page 13
Establishment of Customs and Border Protection / Immigration and
Customs Enforcement Structures

        Early Considerations for Structuring Border Security Operations
                        The enigma of how to structure the nation’s border apparatus is not new. Past
                        administrations have changed its structure and there have been many
                        unimplemented proposals to reshape it, as well. The immigration function
                        was established formally as the Office of the Superintendent of Immigration
                        in the Department of the Treasury in 1891, transferred thereafter to the
                        Departments of Commerce and Labor, then in 1940 to the DOJ, and now
                        DHS. In 1924, the Border Patrol was added to the immigration agency. The
                        customs function has been more stable, dating back to 1789 as part of the
                        Department of the Treasury. For approximately 12 years, both the customs
                        and immigration functions were co-located in the Department of the Treasury.

                        General Accounting Office Study

                        In 1993, Congress asked the General Accounting Office (GAO)7 to evaluate a
                        possible merger of the inspections function of the USCS and INS at POEs.
                        GAO reported, “Customs and INS have a long history of interagency rivalry
                        coupled with ineffective cooperation and coordination pertaining to border
                        crossing operations…. [T]hese unproductive conditions are deeply ingrained
                        in the management cultures of these agencies.”8

                        GAO recommended that:

                                On the basis of historical evidence as well as our current
                                review of Customs’ and INS’ operations, we believe that the
                                coordination problems at the land border crossings will not be
                                resolved until the current dual management structure is ended
                                …. Our panel of current and former officials experienced with
                                customs and immigration issues reached consensus that a
                                single independent agency that would combine the functions of
                                Customs and INS presented the most viable option for
                                preparing the government to meet the broader challenges posed


7
 In 2004, the General Accounting Office was renamed the Government Accountability Office.
8
 GAO, Customs Service and INS: Dual Management Structure for Border Inspections Should Be Ended, GAO
GGD-93-111, June 30, 1993, pp. 1-2.

                                   An Assessment of the Proposal to Merge CBP and ICE

                                                        Page 14
                                by changing international business competition and increasing
                                international migration flows.9

                        The Jordan Commission

                        On September 30, 1997, the U.S. Commission on Immigration Reform issued
                        a report to Congress, Becoming an American: Immigration and Immigrant
                        Policy. Addressing structural reform, the Commission (often referred to as
                        the Jordan Commission in memory of its first chair) stated:

                                The immigration system is one of the most complicated in the
                                federal government bureaucracy. In some cases, one agency
                                has multiple, and sometimes conflicting, operational
                                responsibilities. In other cases, multiple agencies have
                                responsibility for elements of the same functions. Both
                                situations create problems.10

                        The Jordan Commission recommended creating a Bureau for Immigration
                        Enforcement for border and interior enforcement within the Department of
                        Justice. Under this realignment scheme, most immigration benefit
                        determinations were to be transferred to the Department of State, while other
                        responsibilities were to be transferred to the Department of Labor. INS
                        inspectors, Border Patrol agents, and detention officers were to be combined
                        into one unit within the new Bureau for Immigration Enforcement, the
                        Immigration Uniformed Service Branch. In addition, to integrate the
                        apprehension and removal functions, the Bureau for Immigration Enforcement
                        was to include investigators and deportation officers in another unit.

                        The Gilmore Commission

                        The Advisory Panel to Assess Domestic Response Capabilities for Terrorism
                        Involving Weapons of Mass Destruction (Gilmore Commission) in its third
                        annual report published December 15, 2001, did not make recommendations
                        about the structure of the border security elements within DHS. However, the
                        Gilmore Commission identified the need, at the operational level, for all
                        agencies to act collectively and share critical information including
                        intelligence on all aspects of immigration and border control. Further, it
                        recommended the creation of an interactive and fully integrated “Border


9
 Ibid., p. 2.
10
  U.S. Commission on Immigration Reform, Becoming an American: Immigration and Immigrant Policy,
September 30, 1997, p. 148.

                                   An Assessment of the Proposal to Merge CBP and ICE

                                                        Page 15
                          Security Awareness” database to collect and disseminate information about all
                          border security matters.


        The Homeland Security Act of 2002
                          On November 25, 2002, President George W. Bush signed into law the
                          Homeland Security Act of 2002. The HSA established BTS, which included
                          two bureaus – the Customs Service and the Bureau of Border Security. The
                          Customs Service was to include the legacy USCS organization except for
                          some revenue collection functions that would remain at the Department of the
                          Treasury.

                          The second element in BTS was the Bureau of Border Security. The HSA
                          transferred to the Under Secretary for BTS the programs and personnel of the
                          Border Patrol, and INS’ detention and removal, intelligence, investigations,
                          and inspections programs. The Assistant Secretary of the Bureau was
                          authorized to establish policy relating to Bureau of Border Security and
                          administer its implementation.

                          In addition, the HSA added the Department of Agriculture’s (USDA) animal
                          and plant import and entry inspection function to BTS, along with TSA, FPS,
                          FLETC (Federal Law Enforcement Training Center), and the Office for
                          Domestic Preparedness (ODP).11 Significantly, HSA also ended the long-
                          debated separation of INS’ service and enforcement functions through the
                          establishment of an independent Citizenship and Immigration Services (CIS)
                          agency within DHS to provide immigration benefits.12

                          On November 25, 2002, almost immediately after the HSA was enacted, the
                          President transmitted his "Department of Homeland Security Reorganization
                          Plan," to Congress. With respect to the organization of border security
                          functions and entities, the plan mirrored the HSA. However, the plan also
                          stated that it was subject to later modification.13


11
   ODP was transferred out of BTS and has since become part of the DHS Office of State and Local Government
Coordination and Preparedness.
12
   The challenges of establishing BTS, and its subordinate components, are viewed as merger issues. Less appreciated
were the separation issues associated with spinning INS services off, which because of the many interdependencies
existent in the legacy INS, also proved to be great challenges.
13
   The HSA gave the Executive Branch latitude to reorganize the new department. Section 1502 allows the President to
modify his reorganization plan. Section 872 provides that the Secretary may “relocate functions among the officers of
the Department, and may establish, coordinate, alter, or discontinue organizational units within the Department,” after
providing 60 days notice to Congress.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 16
                             On January 30, 2003, the current BTS organization was announced. This was
                             the first public announcement of the current DHS border security structure
                             and the departure from the original statutory plan. Under the modified
                             organizational structure, USCS and INS inspections and Border Patrol
                             operations were consolidated within CBP as One Face at the Border, while the
                             interior enforcement functions of USCS and INS investigators along with the
                             detention and removal functions of INS were shifted to ICE. There would be
                             no Bureau of Border Security or Customs Service designated in the new
                             structure. On February 4, 2003, the President transmitted his Reorganization
                             Plan Modification for the Department of Homeland Security to Congress.


           Structural Recommendations Made by Transition Teams
                             Several transition teams were established at times during the formation of
                             DHS. The first transition team was established shortly after the President
                             announced his support for the formation of DHS in June 2002 and was
                             managed by Office of Management and Budget (OMB) and the White House
                             Office of Homeland Security.14 Another transition team was established in
                             December 2002 after the nominations of Tom Ridge as Secretary of DHS and
                             Asa Hutchinson as Under Secretary of BTS. Senior managers and experts
                             from INS, USCS, TSA, USDA, and United States Coast Guard (USCG)
                             staffed the transition teams.

                             Rationale for Customs and Border Protection Structure

                             The decision to merge the immigration and customs inspections functions into
                             a single organization to create “One Face at the Border” may have been made
                             early in the transition process, as early as the summer of 2002. There was
                             very little discussion and even less dissension, on this structural proposal. To
                             have customs, immigration, and agriculture inspectors at POEs operating
                             under a single chain of command was an effort to integrate the seemingly
                             common functions divided at the time among three departments. The Border
                             Patrol was added somewhat later in the process.

                             Rationale for Immigration and Customs Enforcement Structure

                                  Separation of Inspection from Investigation Functions

                             The rationale for the decision to create ICE by separating the inspection
                             function from the investigation function was much more difficult to discern.
14
     We sought but were unable to obtain interviews with several of the most senior participants in the planning effort.

                                           An Assessment of the Proposal to Merge CBP and ICE

                                                                 Page 17
Most CBP and ICE officials told us that they are still puzzled over the
decision-making concerning ICE’s structure. According to them, to this day,
no one has been able to articulate the rationale for the current structure. All of
the members of the transition team associated with border security advocated
keeping the investigative and inspection functions unified. Samples of
reoccurring themes from the transition team’s position papers concerning this
subject include:

       “…splitting them [investigators from inspectors] would be unwise and
       not recommended.”

       “Removal of [investigators] to a separate agency would interfere with
       the close working relationship and ‘feedback loop’ of information
       between inspectors and [investigators]….”

       “…create new stovepipes between newly created border enforcement
       agencies where none currently exist.”

       “…such a split would fragment responsibility and accountability for
       border enforcement….”

       “[The establishment of a separate investigative organization] … would
       require the creation of a separate support bureaucracy….”

       “Information concerning both areas [inspections and investigations]
       should not have to travel circuitous routes to arrive at the level of
       implementation.”

       “…risks disrupting the model for immigration enforcement.”

       “The best way to ensure a strong relationship between inspectors and
       investigators is by leaving both within the single border agency, under
       the management of a single agency head.”

A team formed by the Commissioner, USCS, produced a white paper,
Creating a Single Border Agency Under the Homeland Security Act of 2002,
in December 2002. The white paper proposed merging USCS, the
enforcement functions of INS, and USDA border inspections functions into a
single border security agency. The white paper envisioned that a single
border security agency would “break down the stovepipes, inefficiencies, and
interagency dysfunctions that currently exist with regard to border security
and enforcement” and “ensure the critical flow of information and
coordination of operations.” The white paper called for a single chain of

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 18
command to align missions, priorities, and resources within the new agency to
ensure mission accomplishment. The paper suggested that the proposed
agency would have allowed investigators to work “seamlessly with inspectors
and Border Patrol agents.” According to the white paper, moving USCS and
INS investigators to an agency separate from inspections and the Border
Patrol would fragment responsibility and accountability for border
enforcement and would create new stovepipes between the new agencies.

   Determining the Composition of Immigration and Customs Enforcement

Once the decision to create an investigative organization was made, other
decisions followed that shaped the final composition of ICE. We could not
find any documentation that fully explains the rationale and purpose
underlying ICE’s composition. One senior official offered the following
explanation described below. According to this portrayal, ICE was
established not with a focus on supporting a particular mission but rather on
building an institutional foundation large enough to justify a new
organization.

The official said that while the decision to merge the inspections functions and
the Border Patrol into a single organization was made early, the question of
what to do with the remaining elements of the former INS was more
problematic. Early in the planning, there was discussion of forming an
interior immigration enforcement organization. While many immigration and
customs professionals rankle at the notion that there is a distinct interior
enforcement mission, the proposal contemplated an organization that would
consist of some DRO elements to locate and remove illegal aliens in the
interior and immigration investigators to pursue employer sanctions and
immigration fraud cases.

However, he continued, the trouble with this proposal was that this
organization would be too small to attain bureaucratic “critical mass.” That is,
the relative degree of support required to maintain this organization would be
expensive and disproportional to the size of the operational element of the
organization. The organization needed to be larger.

The “sizing up” process focused on creating an organization composed of the
General Schedule (GS) -1811 criminal investigator job series and some other
activities. All DRO resources were added to this interior enforcement
organization. Next came the addition of all immigration investigators.
Finally, the customs investigators were added. Also included in this new
organization were the attorneys that comprise the Office of Principal Legal
Advisor (OPLA) and the FDL.

          An Assessment of the Proposal to Merge CBP and ICE

                               Page 19
                          Since the entire GS-1811 job series was being moved to ICE, USCS’ Office of
                          Professional Responsibility (OPR), which is composed of GS-1811s, moved
                          to ICE. USCS’ Air and Marine Operations (AMO) and the Office of
                          Intelligence, which were organized under USCS’ Office of Investigations for
                          administrative purposes, moved to ICE with the Office of Investigations
                          (OI).15 The USCS AMO and Office of Intelligence had provided assistance to
                          both inspectors and investigators in the past. The decision to place the two
                          entities in ICE appears to have hinged on their former organizational position
                          within OI at USCS.

                          Finally, FPS and FAMS, two organizations from outside of the former INS
                          and USCS, were added to round out ICE’s structure.16 There was now the
                          necessary critical mass to justify a separate law enforcement agency within
                          BTS.


        Opposition to a Single Border Security Agency
                          Some planners involved in the transition process said that they were
                          concerned that a single organization would be too large. Combining the
                          designated entities from USCS, INS, and the USDA’s Animal and Plant
                          Health Inspection Service (APHIS) would result in a total workforce of
                          46,885 full-time equivalents (FTEs), 5,624 of whom would be investigators.
                          We were told that the thinking at the time was that a single organization
                          would be too unwieldy; its span of control too large. Coupled with INS’
                          historic management deficiencies, a single agency might have been doomed to
                          failure. Breaking these challenges into more manageable sizes seemed like a
                          better solution. We also heard rumors that other agencies within the
                          government opposed a single border security agency because they feared that
                          it would become a dominant player in the law enforcement community
                          because of its size and massive resources.


        Announcement of Customs and Border Protection / Immigration and
        Customs Enforcement Structures

15
   While AMO has a law enforcement support mission, AMO’s primary mission is border interdiction, which aligns very
well with CBP’s border interdiction mission. On November 2, 2004, the BTS Under Secretary “corrected” the initial
misalignment of AMO with ICE and transferred the organization to CBP.
16
   FAMS was initially was part of TSA. On November 25, 2003, the DHS Secretary transferred FAMS to ICE to
“establish an integrated law enforcement presence in the aviation sector.” (Remarks of the Assistant Secretary for ICE,
November 2003).

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 20
                         According to senior CBP and ICE officials and members of the transition
                         teams, the final decision on BTS’ structure and composition came as a
                         surprise. While some may have had an inkling of the direction that the
                         planning was headed, we were told that senior ICE and CBP officials learned
                         of the final decision about BTS’ structure while on travel to a DHS
                         management meeting on January 29, 2003. Most of the rank and file CBP and
                         ICE employees learned of the decision through a press release issued on
                         January 30, 2003.


        Recent Discussions Concerning Customs and Border Protection /
        Immigration and Customs Enforcement Organizational Structures

                         Heritage Foundation and the Center for Strategic and International
                         Studies Report

                         In December 2004, the Heritage Foundation and the Center for Strategic and
                         International Studies released the report, DHS 2.0: Rethinking the
                         Department of Homeland Security. One of the report’s conclusions was that
                         DHS’ structure had complicated accountability for the border security mission
                         because it failed to clearly delineate the mission of DHS’ components. The
                         report said that it could find no compelling reason for splitting the customs
                         and immigration enforcement functions between two agencies - CBP and ICE.
                         There was scant discussion and the report was silent on any evidence of
                         mission degradation. The report recommended:

                                 Rationalize border security and immigration enforcement by
                                 merging the CBP and ICE…. BTS has neither the staff nor the
                                 infrastructure to integrate the operations of the CBP and
                                 ICE…. Merging the CBP and ICE will bring together under
                                 one roof all of the tools of effective border and immigration
                                 enforcement – Inspectors, Border Patrol Agents, Special
                                 Agents, Detention and Removal Officers, and Intelligence
                                 Analysts – and realize the objective of creating a single border
                                 and immigration enforcement agency.17

                         The report further recommended:



17
  Heritage Foundation and CSIS, DHS 2.0: Rethinking the Department of Homeland Security, December 13, 2004,
pp. 15-16.

                                     An Assessment of the Proposal to Merge CBP and ICE

                                                          Page 21
                                  Eliminate the BTS. With the merger of CBP and ICE into a
                                  single agency, there is no need for the BTS middle-
                                  management layer.18

                          Homeland Security and Governmental Affairs Committee Hearing

                          On January 26, 2005, the Homeland Security and Governmental Affairs
                          Committee held a hearing, “The Department of Homeland Security: The
                          Road Ahead.” In her opening remarks, the Committee Chairman
                          acknowledged the Heritage Foundation’s report and recommendations.
                          During the testimony of the DHS Inspector General (IG), she asked him for
                          his opinion regarding the proposed merging of CBP and ICE. The IG
                          responded that the OIG had not studied this issue and had no opinion. She
                          subsequently asked the IG to conduct a study to assess the proposal to merge
                          CBP and ICE.19


Customs and Immigration Enforcement Continuums
                          This section introduces the customs and immigration enforcement
                          continuums. The continuums provide a framework for understanding the
                          interconnectedness and interdependencies of the immigration and customs
                          functions and how the current organizational structure has disrupted the
                          relationships between these functions. In subsequent sections of the report,
                          we will discuss the impact of the disruptions created by the current
                          organizational structure.


        The Continuums with Immigration and Naturalization Service /
        United States Customs Service
                          Prior to DHS, USCS managed the customs enforcement continuum – ensuring
                          the legitimate flow of goods and materials entering the country. INS managed
                          the immigration enforcement continuum – ensuring the legitimate flow of
                          foreign visitors and immigrants entering the country. The continuums
                          constituted a system of interconnected and interdependent functions
                          constructed to interdict, apprehend, and prosecute customs and immigration
                          law violators. The USCS and INS organizational structures were based on

18
  Ibid., p. 16.
19
  On April 6, 2005, Senator F. James Sensenbrenner, Jr., chairman of the House Committee on the Judiciary wrote to the
OIG to ask that we examine the possibility of removing immigration enforcement functions from CBP and ICE and
organizing them into a separate agency.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 22
                         these functions.20 Apprehensions, inspections, investigations, detention,
                         prosecutions, and removals were just some of those functions. To illustrate,
                         we have divided the continuums into their key functions.




20
  See Appendix A, Organizational Overview of the Immigration and Naturalization Service, and Appendix B,
Organizational Overview of the United States Customs Service.

                                     An Assessment of the Proposal to Merge CBP and ICE

                                                          Page 23
                        Customs and Immigration Enforcement Continuums

                                                  Intelligence

                                          Inspection/                                          Property
              USCS                        Interdiction
                                                           Investigation      Prosecution
                                                                                              Management

                                                 Apprehension/
                                                   Seizure


                                             Customs Enforcement Continuum



                                                 Intelligence

                            Visa        Inspection/                          Detention/     Prosecution/
              INS         Application   Interdiction
                                                         Investigation
                                                                           Transportation     Hearing
                                                                                                           Removal


                                                Apprehension



                                           Immigration Enforcement Continuum




        The Continuums with Customs and Border Protection / Immigration and
        Customs Enforcement
                        The new DHS organizational structure imposed nearly insurmountable
                        management challenges for CBP, ICE, and BTS. The long-standing customs
                        and immigration enforcement continuums were broken. The organizational
                        structure had the unintended consequence of creating an institutional barrier
                        between what once were interconnected and interdependent functions by
                        placing some of the functions within CBP and others within ICE.21 The
                        institutional barrier created significant coordination and communication
                        problems between CBP and ICE that affect operations and information
                        sharing.




21
 See Appendix D, Organizational Overview of Customs and Border Protection and Appendix E, Organizational
Overview of Immigration and Customs Enforcement.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                                    Page 24
                          Customs and Immigration Enforcement Continuums Interrupted

                                                                        Agency Boundary

                          CBP                                                                                    ICE
                                       Intelligence                                         Intelligence

                               Inspection/
                                                              Prosecution                           Investigation     Prosecution
                               Interdiction

                                     Apprehension/                                         Apprehension/
                                       Seizure                                               Seizure
                   Property
                  Management
                                        Customs Enforcement                         Continuum



                                                       Intelligence                       Intelligence

                           Visa               Inspection/                                                          Detention/       Prosecution/
                                                                                                 Investigation                                     Removal
                         Application          Interdiction                                                       Transportation       Hearing

                                                      Apprehension



                                   Immigration Enforcement                          Continuum




                          In order to maintain operational efficiency and effectiveness within the
                          customs and immigration enforcement continuums, it was vital for CBP and
                          ICE to coordinate operations and share information.22 Unfortunately, CBP
                          and ICE did not always coordinate operations or share information. BTS
                          leadership was assigned the responsibility to integrate CBP and ICE functions.
                          However, BTS was hindered by a lack of staff resources to monitor CBP and
                          ICE operations and the necessary authorities to enforce accountability. BTS
                          was not always successful in ensuring coordination between CBP and ICE.

                          During the course of our review, we were mindful of the budget problems that
                          ICE has experienced since its formation. Almost all of the ICE managers and
                          employees with whom we spoke said that they were frustrated with the
                          problems caused by inadequate and uncertain funding, and the apparent
                          inability to resolve the issues. ICE’s funding difficulties, however, do not


22
  See Appendix F, Operational Scenarios Illustrating the Interconnectedness of Customs and Border Protection and
Immigration and Customs Enforcement.

                                                  An Assessment of the Proposal to Merge CBP and ICE

                                                                              Page 25
              account for all of the problems facing CBP and ICE. Our report focuses on
              the issues that are related to the current organizational structure.

              While it is too early to determine with any certainty whether the current
              organizational structure has, by itself, contributed to a degradation of mission,
              the issues we describe in our report are significant and will require leadership
              intervention to resolve. Now is the time to make needed changes, before
              current practices become entrenched in the bureaucracy and, more
              importantly, before there is significant degradation in DHS’ ability to
              accomplish its border security mission.

              In the following sections we discuss the issues and significant management
              challenges faced by CBP, ICE, and BTS. Specifically, we describe the lack of
              coordination between ICE’s detention operations and CBP’s apprehension
              operations. We also discuss the problems created with the separation of the
              inspection and interdiction function from the investigation function and how
              that action has led to a lack of coordination and cooperation between CBP and
              ICE. We discuss significant problems with coordinating intelligence
              activities, including collaboration to produce intelligence reports between
              CBP and ICE. Finally, we describe BTS’ difficulties coordinating CBP and
              ICE operations.


Coordination of Apprehension and Detention and Removal Operations
              The interdependency of CBP and ICE within the immigration enforcement
              continuum is apparent in the apprehension and detention arena. The
              interconnectedness of CBP’s apprehension efforts and ICE’s detention and
              removal activities demands intensive coordination. Under the current
              organizational arrangement, coordination has suffered at both the national and
              field levels.

              In this section we discuss the operational environment in which ICE performs
              its detention and removal functions and CBP performs its alien arrest and
              apprehension function. We identify problems with the coordination of the two
              functions at the national and field levels. We describe how the current
              organizational structure contributed to growing resource imbalances between
              the two functions, fostered the development of plans to direct traditional
              detention and removal resources toward interior enforcement, and facilitated
              the development of detention practices that are not closely aligned with CBP
              border enforcement priorities. We also discuss how the current organizational
              structure has inhibited effective coordination, and claims that the current


                         An Assessment of the Proposal to Merge CBP and ICE

                                              Page 26
                           structure has led to a reduction in DRO functional support of CBP. Finally,
                           we discuss the consequences of the lapses in coordination of apprehension,
                           and detention and removal resources and operations.


         Operational Environment
                           CBP components are responsible for the vast majority of arrests and
                           apprehensions for immigration violations, while ICE’s DRO is responsible for
                           the detention and removal of those apprehended. DRO’s workload is
                           determined to a great extent by the volume and character of CBP’s
                           apprehension efforts, and the effectiveness of CBP’s apprehension efforts is,
                           in turn, dependent in large measure on DRO’s downstream detention and
                           removal of those CBP apprehends.

                           Aliens entering the United States illegally may be arrested by one of two CBP
                           organizations.23 CBP inspectors arrest aliens attempting to illegally enter the
                           United States at POEs. CBP Border Patrol agents apprehend aliens attempting
                           to illegally enter the United States between the POEs. Most illegal aliens
                           agree to a voluntary departure24 from the United States or withdraw their entry
                           applications25 and immediately return to their country of origin. However, a
                           large number remain in the United States pending return travel arrangements,
                           a removal order, or an immigration hearing.26 Aliens in this category may be
                           paroled27 into the United States, released on their own recognizance, released
                           on bond, or detained. Whether released or detained, many aliens remaining in
                           the United States pending an immigration action become the responsibility of
                           DRO.28

23
   Two organizations in ICE, OI and DRO, also apprehend aliens who are in the United States illegally.
24
   In many cases, apprehended aliens are given the opportunity to voluntarily depart from the United States under
supervision. Before being escorted to a point of departure, aliens voluntarily departing the United States must agree that
their entry was illegal and waive their right to an immigration hearing. Aliens who consent to a voluntary departure are
permitted to apply for legal entry to the United States in the future.
25
   CBP inspectors permit some aliens who illegally attempt to enter the United States through a POE to withdraw their
application for admission and return to their point of origin. Like the voluntarily departure process, the withdrawal of an
entry application does not result in any future restrictions on legal entry to the United States.
26
   As described earlier, under some circumstances, aliens apprehended in the process of attempting an illegal entry into
the United States may elect to voluntarily depart or withdraw their application for entry. Aliens who are not offered
these options or who request a hearing on their immigration status are placed in removal proceedings. With some
exceptions, these removal proceedings require a hearing before an immigration judge in the DOJ’s Executive Office of
Immigration Review (EOIR). When, after reviewing the case, an immigration judge issues an order of removal, DRO
assumes responsibility for taking the alien into custody and removing him from the country.
27
   CBP inspectors at POEs have the authority to parole aliens into the United States pending future immigration action.
This parole status is granted under terms and conditions set by CBP.
28
   As of September 30, 2004, 496,983 aliens were in the United States pending an immigration action.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 27
                          DRO assumes responsibility for aliens pending an immigration action in three
                          ways. First, in virtually all cases, DRO is responsible for the custodial
                          management of aliens held in a detention setting.29 Second, DRO is
                          responsible for apprehending aliens released into the community on bond or
                          on their own recognizance who have been issued removal orders but fail to
                          comply with them, as well as those who fail to appear for their removal
                          hearing. Third, DRO is responsible for effecting the removal of aliens who
                          are issued final orders of removal – a process that sometimes involves
                          escorting aliens back to their countries of origin.30

                          In this context, CBP inspectors and Border Patrol agents can be considered
                          front-end contributors to the immigration enforcement continuum. And, for
                          its part, DRO can be regarded as the downstream component of the same
                          immigration enforcement continuum. The maximum efficiency and
                          effectiveness of these parts of the immigration enforcement continuum can
                          only be achieved through close coordination at the national and field levels.31


        Problems with National Coordination
                          The separation of CBP’s apprehension components from DRO has created
                          challenges in national coordination. Because they are part of two different
                          agencies pursuing different sets of priorities, they pursue discrete strategic
                          planning processes. CBP and DRO formulated budgets independently,
                          without communication or coordination regarding mission or priorities. DRO
                          prepared detention bed space and staff needs projections without the benefit of
                          CBP apprehension and arrest projections; CBP developed its future
                          apprehension initiatives without the benefit of insight into DRO’s future
                          capability for downstream processing.32


29
   Due to the limitations of its Deportable Alien Control System (DACS), DRO is unable to determine definitively what
proportion of its detainees were apprehended by CBP. DRO is currently pursuing a system development effort to replace
DACS with an automated data collection and analysis system with greater analytical capabilities.
30
   See Appendix F for more detail on the apprehension, detention and removal process.
31
   Ultimately, DRO’s detention and removal functions are governed by appropriations. Better ICE and CBP
coordination can improve the way these resources are allocated but the total deterrence obtainable from their combined
efforts is still limited by the funds available to buy bed space and support removal costs.
32
   DRO recognized the need for greater coordination in this area in 2003. In its Strategic Plan, DRO noted that DHS,
“does not yet have, in place, a tool, method or process to ensure that strategies, budgets and operations planned for and
executed by other enforcement programs consider the impact to DRO and the ensuing operational implications and
resource requirements.” (DRO, Endgame: Office of Detention and Removal Strategic Plan, 2003-2012, p. 2-6, June 27,
2003.)

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 28
                          The shortfall in national coordination between CBP and DRO has adversely
                          affected operations in two important ways. First, it has contributed to
                          imbalances between CBP’s front-end apprehension capabilities and DRO’s
                          downstream detention and removal capacity. Second, it has facilitated ICE’s
                          plans to focus an increasing share of DRO resources on interior enforcement
                          activities – a process that, if it is not carefully managed, may undermine
                          traditional detention and removal operations that support CBP.

                          Growing Resource Imbalances

                          Currently, management of detention and removal operations is separate from
                          management of most apprehension efforts.33 Coupled with ICE’s recent
                          funding and accounting difficulties, the resulting lack of coordination at the
                          national level has fostered a growing imbalance between ICE’s detention and
                          CBP’s apprehension capabilities.

                          CBP has expanded its apprehension capabilities significantly over the last two
                          and a half years.34 Its expanded capabilities have, in turn, contributed to a rise
                          in apprehensions. Total Border Patrol apprehensions climbed 25 percent to
                          1.16 million between FY 2003 and FY 2004. Meanwhile, the Border Patrol’s
                          apprehensions of other than Mexicans (OTMs), who remain in the United
                          States pending an immigration action more frequently than do Mexican
                          nationals and therefore more often become the responsibility of DRO, have
                          risen even more substantially. In FY 2003, the Border Patrol apprehended
                          49,545 OTMs, whereas in FY 2004 it apprehended 75,389 OTMs, a 52
                          percent increase.35 Strikingly, FY 2005 Border Patrol apprehensions of OTMs
                          through April were 127 percent higher than for the same period in FY 2004.

                          While CBP apprehension capabilities climbed, DRO’s detention and removal
                          capacity did not. In the midst of rising apprehensions and referrals, DRO was
                          subject to a hiring freeze starting in March 2004. Due to workforce attrition,
                          DRO lost two percent of its overall workforce since the hiring freeze took
33
   In the past, leadership at INS headquarters oversaw the Border Patrol, inspectors, and detention and removal
operations for the entire nation. This organizational arrangement provided INS leadership with the opportunity to
coordinate detention and removal efforts with apprehension operations. INS leadership, nonetheless, sometimes failed to
plan for increases in downstream resources to manage the increased volume of detention, processing, and removal
requirements associated with planned apprehension resource expansions. According to some former INS managers, even
when INS leadership attempted to balance front-end and downstream resources in its planning and budgeting efforts,
detention and removal resources were often diverted to support inspectors and the Border Patrol by regional and district-
level INS managers. This resulted in an imbalance of front-end and downstream immigration enforcement resources.
34
   In FY 2004, CBP increased the number of CBP officers and Border Patrol agents by over 300, and a supplemental
appropriation for FY 2005 (Pub. Law No. 109-13) provides funding for an additional 500 Border Patrol agents.
35
   OTMs are apprehended by ICE OI and DRO, as well as CBP. In FY 2004, a total of 145,367 OTMs were
apprehended by ICE and CBP combined.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 29
                           effect.36 Further complicating matters, over the fiscal 2002 to 2004 interval,
                           funding for detention beds remained constant, but DRO’s average daily
                           population of detainees grew. More stringent enforcement of caps on bed
                           space utilization brought DRO’s average daily population down from 21,898
                           in FY 2004 to 19,644 in March 2005, a ten percent decrease. Dedicated funds
                           in the May 2005 emergency supplemental appropriation will help DRO make
                           up some of the lost ground by funding detention space for a daily average of
                           1,950 additional detainees.37

                           This imbalance has implications at the local and national levels. The local
                           level impact is apparent in DRO’s support of the Arizona Border Control
                           Initiative (ABCI). ABCI is a BTS-wide initiative to stem the tide of aliens
                           and contraband flowing across the Arizona border with Mexico. Before it was
                           inaugurated in the spring of 2004, planning efforts for ABCI identified a need
                           for 100 additional DRO officers in Arizona. Due to DRO’s nationwide
                           staffing limitations, however, no additional DRO officers were hired to
                           support ABCI, and only 13 DRO officers were detailed to Arizona from other
                           parts of the country. This variance between staff support needs and actual
                           staff allocation limited DRO’s ability to support fully ABCI apprehension
                           efforts.

                           At the national level, DRO detention space limitations have resulted in the
                           release of increased numbers of apprehended aliens into the community.
                           About 39 percent of aliens who are released into the community with an order
                           to appear do not appear for their removal hearings. Overall, about 85 percent
                           of non-detained aliens with removal orders abscond. The immigration system
                           absconder backlog stood at 465,353 at the end of FY 2004 and continues to
                           grow.

                           Increased Focus on Interior Enforcement Has Potential to Displace
                           DRO Support for CBP

                           Despite indications that enhancements to CBP’s front-end apprehension
                           efforts are at the point of outstripping DRO’s downstream detention and
                           removal capabilities, ICE has plans to direct an increasing share of DRO
                           resources to locating deportable aliens in the nation’s interior. This shift in
                           DRO’s focus was described by its June 2003 Strategic Plan, which envisioned
                           a greater future interior enforcement role for DRO.38 Current plans call for an
36
   DRO’s workforce declined from 3,736 on March 20, 2004 to 3,655 on April 2, 2005.
37
   Pub. Law No. 109-13.
38
   Plans for DRO to focus its resources to a greater extent on interior enforcement also were discussed prior to the
formation of ICE and CBP. DRO, Endgame: Office of Detention and Removal Strategic Plan, 2003-2012,
June 27, 2003. p. 4-4.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 30
                          increase DRO’s “fugitive operations” in search of alien absconders and
                          transfer control of the Criminal Alien Program (CAP) from ICE’s Office of
                          Investigations to DRO.39 The CAP program is directed at identifying criminal
                          aliens under federal, state, and local supervision and ensuring that these aliens
                          are taken into ICE custody for deportation upon completing their sentences.
                          To support this new role, DRO reclassified and retrained a substantial portion
                          of its workforce to perform more complex alien processing and interior
                          enforcement functions, such as absconder apprehensions.40

                          Increased emphasis on interior enforcement is an important initiative. If it is
                          not carefully managed and closely monitored, however, this increased
                          emphasis may adversely affect CBP’s border enforcement efforts. Without
                          appropriate steps to ensure that the traditional detention and removal efforts of
                          reclassified staff continue to be performed, the reorientation of these
                          employees away from traditional detention and removal efforts will result in
                          the attenuation of aliens’ processing and removal times. If, as a result, DRO
                          is unable to sustain its current throughput, it will not be able to maintain
                          processing and removal capacity for the volume of aliens apprehended by
                          CBP.

                          Without effective budgeting to support the downstream processing, detention,
                          and removal of those apprehended in DRO’s interior enforcement efforts,
                          DRO’s expanded interior enforcement role will place additional strain on its
                          detention and removal resources. Just like aliens apprehended by CBP, aliens
                          arrested by DRO during the course of its interior enforcement activities will
                          require downstream processing, detention, and removal efforts. In this regard,
                          they will be competing for resources with aliens apprehended by CBP.
                          Moreover, because aliens apprehended through CAP have criminal records,
                          their detention and removal are likely to be prioritized ahead of aliens
                          apprehended by CBP, who typically do not have criminal records. As a result,
                          DRO’s expanded work in CAP may erode the likelihood that aliens
                          apprehended by CBP will be detained or removed.


        Problems with Field Coordination



39
   Plans for the CAP program call for it to bring together elements of three pre-existing programs managed by ICE – the
Alien Criminal Apprehension Program (ACAP), the Institutional Hearing Program (IHP), and the Institutional Removal
Program (IRP). (Testimony of Victor Cerda, Acting DRO Director, before the Subcommittee on Immigration, Border
Security and Citizenship of the Senate Committee on the Judiciary, April 14, 2005.)
40
   DRO, Endgame: Office of Detention and Removal Strategic Plan, 2003-2012, June 27, 2003, pp. 2-8 & 4-5.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 31
                          In the INS, field-level coordination between apprehension efforts and
                          detention and removal activities occurred at the district, regional, and
                          headquarters levels. INS headquarters leadership oversaw all Border Patrol,
                          inspection, and detention and removal operations. Regional Directors
                          provided the first layer of oversight of all three components, providing
                          management over both INS district and Border Patrol sector activities. At the
                          local level, INS District Directors combined authorities over inspection and
                          detention operations and provided operational coordination between the two.

                          With the abolition of INS, consolidated oversight of CBP apprehension efforts
                          and detention and removal activities first occurs at the BTS directorate level.
                          Within DHS, DRO’s field management structure is no longer consolidated
                          with that of CBP’s field offices. DRO field units now report directly to DRO
                          headquarters. Its leadership in Washington, DC, in turn, reports to the
                          Assistant Secretary for ICE. CBP inspectors and Border Patrol agents report
                          through a separate chain of command to the CBP Commissioner. While
                          coordination within INS was not always ideal, the separation of CBP’s
                          apprehending components from ICE’s DRO creates an opening for more
                          difficulties in this area.

                          At the agency level, CBP and DRO communicate through a few interagency
                          liaison staff and convene joint working groups.41 There are, however, few
                          formal, permanent mechanisms for direct operational coordination between
                          CBP’s apprehending components and DRO. Senior managers from CBP and
                          DRO reported that they did not know of any formal, permanent operational
                          coordination mechanism between CBP and DRO at the national level. Nor
                          are there any nationwide requirements that CBP apprehending components
                          coordinate their efforts with DRO at the local level. Under the current
                          organizational structure, CBP Border Patrol sectors and OFO field offices are
                          under no obligation to collaborate, coordinate, or advise DRO of their
                          apprehension initiatives and requirements for DRO resources. Similarly,
                          DRO field offices are not required to notify Border Patrol or OFO of ICE
                          apprehension and removal efforts that are likely to impact the availability of
                          detention space and removal resources. Productive operational coordination
                          between DRO and CBP occurs in several localities,42 but the conditions giving
                          rise to this coordination are often local in nature. A number of officials in

41
   CBP and DRO staff have participated in several working groups. Some of these working groups, such as the U.S.-
Mexico Repatriation Technical Working Group and Expedited Removal Working Group, are broad-based, multi-agency
efforts. Others, such as the working group on Border Patrol’s use of expedited removal, represent efforts to address
more narrowly defined issues confronting the two organizations.
42
   Several notable cooperative efforts between DRO and CBP have arisen in Arizona where CBP’s local Chief Patrol
Agent is the designated lead Integrator for ABCI, and DRO’s Field Office Director serves as the Deputy Integrator for
the initiative.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 32
both CBP and DRO noted that the quality and extent of coordination between
CBP and DRO currently depends on the level of good will the people in one
organization feel toward the other.

The lack of full operational coordination across agency lines has undercut
overall immigration enforcement in three significant areas. First, DRO’s
detention practices are not aligned with CBP’s border enforcement priorities
as closely as in the past. Second, when operational coordination between CBP
and DRO has occurred, its effectiveness has been hampered by institutional
barriers. Finally, CBP has had difficulty ensuring adequate performance in
areas where in the past it depended on DRO. As a consequence, CBP has
been required to divert employees from core inspection and patrol work to
duties previously conducted by DRO.

Detention Practices Not Always Aligned with Border Enforcement
Priorities

Effective border enforcement depends on the removal of aliens apprehended
in the process of unlawfully entering the United States. Without the prospect
of removal, the deterrent effect of an initial apprehension is significantly
weakened. The likelihood of removal, in turn, is influenced to a large extent
by the detention status of an illegal entrant. Only about 18 percent of all
aliens who are released into the community and subsequently receive removal
orders are ultimately removed from the United States. In sharp contrast to the
low removal rate for aliens released into the community, individuals who are
held by DRO at the time of their removal order are removed from the country
97 percent of the time. Consequently, arresting agencies have a compelling
interest in ensuring that apprehended immigration violators are detained
pending their immigration proceedings.

Because funding for detention space is limited, only a fraction of illegal
entrants pending an immigration action may be detained. In light of the
impact detention status has on the likelihood of removal from the United
States, decisions on which aliens to detain also bear on the broader success of
border enforcement efforts. At some level, then, if border enforcement efforts
are to be successful, detention practices must reflect border enforcement
priorities. Under the current organizational structure, however, DRO is only
accountable for CBP’s border enforcement priorities through its interpretation
of BTS guidance on detention priorities.

For detention purposes, there are two primary classes of aliens – “mandatory”
and “non-mandatory” detainees. By law, mandatory detainees must be


          An Assessment of the Proposal to Merge CBP and ICE

                               Page 33
                          detained.43 The detention of non-mandatory detainees, on the other hand, is
                          discretionary. Under the INS, the allocation of detention beds to non-
                          mandatory detainees occurred at the discretion of regional directors, Border
                          Patrol Chief Patrol Agents (CPA), and District Directors with responsibility
                          for immigration processing at POEs and detention and removal operations.
                          INS regional directors were required to ensure that basic detention support
                          was provided to the full spectrum of INS enforcement objectives, including
                          those of the Border Patrol and POE inspectors.44

                          Now, however, sole discretion over the detention of non-mandatory detainees
                          rests with DRO.45 In addition to the authority to deviate from BTS guidelines
                          on detainee prioritization, DRO is now assigned the responsibility of
                          determining whether particular cases meet the standards for “high,”
                          “medium,” or “low” detention priority set out in these guidelines. The
                          authority to make determinations as to whether an individual meets criteria for
                          a given detention priority category is important because some of the
                          categories of alien described in BTS’ guidelines are subject to varied
                          interpretation.46

                          In practice, these changes have implications for immigration enforcement.
                          Under the INS, apprehending components were able to pursue apprehension
                          efforts with the knowledge that aliens apprehended during the course of those
                          efforts would be accorded the detention priority that the apprehending entity
                          thought appropriate. This direct input into the downstream processing of
                          apprehended aliens provided immigration inspectors and the Border Patrol
                          with greater operational flexibility and facilitated planning.




43
   Such mandatory detainees currently include: aliens who are suspected terrorists; aliens who have engaged in or are
likely to engage in terrorist activity; aliens who have incited terrorist activity; criminal aliens who have committed
offenses involving moral turpitude, controlled substances, or firearms; aliens who have expressed the intent to cause
death or serious bodily harm; and aliens in expedited removal proceedings, with limited exceptions.
44
   Memorandum from Michael A. Pearson, INS Executive Associate Commissioner of Field Operations, to INS Regional
Directors, “Detention Guidelines Effective October 9, 1998,” October 7, 1998.
45
   Memorandum from Asa Hutchinson, Under Secretary for BTS, to Robert Bonner and Michael Garcia, “Detention
Prioritization and Notice to Appear Documentary Requirements,” October 18, 2004.
46
   Determinations as to whether a particular alien is a “high” priority detainee or not, for example, sometimes rest on a
judgment as to the “significance” of a related investigation.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 34
                           Current CBP border enforcement priorities are not reflected in DRO’s
                           detention practices to the extent they were in the past.47 Senior CBP officials,
                           both at headquarters and in the field, assert that some mission-critical CBP
                           detention priorities aimed at creating a deterrent to illegal immigration and
                           protecting national security are not reflected in DRO’s detention practices.48
                           Border Patrol concerns about detention priorities are chiefly concentrated
                           around the apprehension of illegal aliens from countries other than Mexico.
                           Unlike Mexican nationals, who may elect to be voluntarily returned to
                           Mexico, OTMs for the most part cannot be repatriated immediately. In
                           contrast to Mexican nationals, OTMs apprehended by the Border Patrol
                           crossing the southern border cannot simply be turned over to Mexican
                           immigration authorities and, instead, require the preparation of travel
                           arrangements, notification of their home country’s consular officials, and
                           preparation of travel documents (i.e., passports and visas).

                           More than 70 percent of OTMs apprehended by the Border Patrol are released
                           on their own recognizance. Because DRO detention priorities do not single
                           out OTMs apprehended by the Border Patrol, other characteristics within
                           OTM subgroups (e.g., the proportion with a criminal history), DRO’s regional
                           apportionment of detention space funding, and DRO field offices’ discretion
                           tend to dictate the percentage of OTMs detained in a given part of the country.
                           Consequently, OTM detention rates vary substantially from one area to the
                           next. Along the Texas-Mexico border, for example, OTM detention rates
                           ranged from about 40 percent in El Paso, to about 60 percent in Marfa, to
                           about 10 percent in Del Rio. Variations such as these may effect changes in
                           how alien smuggling organizations operate and can drive immigration trends.
                           Changes in these trends, in turn, directly affect the Border Patrol’s operations
                           and deployments.

                           Impediments to Effective Coordination



47
   DHS points to the fact that CBP was represented in discussions surrounding the development of BTS’ detention
prioritization guidelines as evidence that its border enforcement priorities are reflected in DRO’s detention practices.
We do not contest the fact that CBP was present for the development of BTS detention prioritization guidelines, but
instead highlight a significant change with respect to who interprets and implements this guidance. DRO’s new and
exclusive authority to interpret guidelines on detention prioritization is not inconsequential – several people we spoke
with in both CBP and ICE indicated that DRO has significant flexibility in apportioning bed space.
48
   DRO staff stress that its financial constraints have forced the organization to release aliens it would rather detain and
point to ICE’s financial challenges as a reason why DRO is unable to accommodate all of CBP’s detention priorities.
DRO officials also indicate that the organization’s ability to apply discretion in detention placements has been restricted
increasingly by the growth of its mandatory detainee population, which stood at 87 percent in June 2005. We believe
that, whatever DRO’s margin for discretion, DRO’s application of that discretion will be the source of some interagency
tension if its detention practices are not coordinated with CBP.

                                         An Assessment of the Proposal to Merge CBP and ICE

                                                                Page 35
In the INS, the necessary institutional supports were in place to facilitate
operational coordination between apprehending components and detention
operations. Because INS’ detention and apprehending components were
accountable to a single chain of command, appropriate adjustments were
easier to implement. This arrangement also enabled lower level managers to
monitor implementation and ensure compliance with plans for coordination.

By contrast, coordination between CBP and ICE now occurs across a
significant institutional boundary. Significant coordination efforts require the
support of the leadership in both agencies and, at times, BTS. When a
decision must be obtained at these senior levels, the field managers
responsible for implementing the coordination effort are sometimes unable to
make effective or timely operational adjustments in response to changing
conditions.

DRO’s use of bed space to support BTS’ ABCI illustrates the
counterproductive inflexibility sometimes imposed by coordination across
agency lines. DRO leases bed space at a correctional facility at Otay Mesa,
CA. To ensure the availability of sufficient bed space to support the detention
of aliens apprehended in ABCI, DRO’s field office overseeing operations at
the Otay Mesa facility was instructed to reserve 250 beds there for ABCI.
However, this reserved bed space has rarely been fully used. According to the
Otay Mesa field office director, ABCI’s use of the bed space had not exceeded
150 beds during the four-month span prior to our visit. Rather than using this
available bed space to fulfill local detention needs, the field office director
was told to continue to preserve this additional space because it supported a
BTS initiative.

In other cases, the senior managers behind efforts at interagency coordination
are either too far removed to note failures to comply with plans or lack an
effective mechanism to arbitrate differences and enforce compliance. Senior
CBP and ICE managers recently described coordination between the two
organizations on the Border Patrol’s use of expedited removal (ER) to be
positive. However positive coordination efforts may be overall, Border
Patrol’s expanding use of ER also provides a valuable case example of the
challenge in coordinating across agency lines.




           An Assessment of the Proposal to Merge CBP and ICE

                                Page 36
                           Expedited removal is a procedure whereby authorized CBP staff may issue a
                           removal order without presenting the case to an immigration judge.49 Unlike
                           aliens in other removal proceedings, most aliens in the ER process must be
                           detained pending removal to their home country.50 After DHS extended the
                           authority for expedited removals to the Border Patrol in August 2004, the
                           Border Patrol held discussions with DRO on its capacity to process and detain
                           new ER cases and agreed to limit Border Patrol ER case referrals to DRO to
                           30 per day.51

                           Without an arbiter to ensure compliance with the terms of the arrangement,
                           the Border Patrol exceeded its agreed upon 30 per day limit.52 Reports from
                           DRO’s field offices serving Border Patrol’s Laredo and Tucson sectors
                           indicate that the Border Patrol regularly referred more than 30 ER cases a day
                           to DRO at those locations through May 2005. Annualized, Border Patrol’s
                           excess OTM ER case referrals to DRO over the September 2004 to May 2005
                           interval would have exceeded Border Patrol’s ER quota by more than 1,800
                           referrals and cost DRO approximately $9 million more in bed space costs than
                           it agreed to support.

                           Decline of Traditional Detention and Removal Support Activities

                           Under the INS, regional and district-level managers often detailed detention
                           officers to specific POEs or Border Patrol sectors to provide dedicated support
                           on a daily basis. Detention funds were used to provide meals, guard support,
                           and supplies for the Border Patrol and POE operations.

                           The basis for this staff and resource sharing arrangement disappeared with the
                           division of the INS’ immigration enforcement units into CBP and ICE.
                           Fourteen months after DHS was established, BTS’ Under Secretary
                           determined that DRO’s functional support of CBP would continue at “current”
                           or “historic levels” in some important areas. Consequently, at points, DRO


49
   The authority to perform ERs was a direct outgrowth of the Illegal Immigration Reform and Immigrant Responsibility
Act of 1996 (IIRIRA). The INS began performing ERs on a limited scale at POEs on April 1, 1997. Persons removed
from the United States through the ER process are barred from returning to the United States for a period of at least five
years, though they may apply for a waiver to return sooner.
50
   By law, aliens in the ER process must be detained until they are removed, unless they have been determined to have a
credible fear of prosecution upon return to their country of origin. (8 USC §1225(b)(1)(B)(iii)(IV))
51
   In the past, OFO had the sole authority to pursue the expedited removal of aliens. (69 Fed. Reg. 48877,
August 11, 2004)
52
   CBP and DRO have had subsequent discussions on the allocation of bed space in support of the Border Patrol’s use of
ER. As of September 2005, DHS reported that DRO was accepting approximately 50 ER referrals a day from the Border
Patrol and dedicating close to 1,000 beds to Border Patrol ER referrals. Also in September 2005, DHS extended Border
Patrol’s authority to use ER to the entire Southwest border region.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 37
                          units are still responsible for the transport and care of aliens who are in the
                          custody of CBP.53

                          CBP officials maintain that DRO is not contributing the level of transportation
                          support required. CBP inspectors in all but one location we visited reported
                          that DRO’s level of service and responsiveness has declined. The Border
                          Patrol expressed similar concerns with the level of transportation support
                          DRO is providing. According to Border Patrol managers, the Border Patrol
                          has had to assume a growing share of initial transportation responsibilities.
                          These expanded transportation duties have prompted Border Patrol agents to
                          obtain commercial drivers’ licenses in order to drive buses to transport aliens
                          historically driven by DRO officers.

                          Some DRO units previously assigned to Border Patrol stations remain.54
                          However, under the current organizational structure, these DRO units have
                          been caught in an organizational “no man’s land.” Most are managed on a
                          day-to-day basis by the Border Patrol, but receive training and promotions
                          from DRO, which is also responsible for disciplinary action. Without clear
                          lines of accountability, performance has reportedly suffered in some areas
                          along with morale.55

                          Overall, areas of continued DRO functional support to CBP are a source of
                          conflict between the organizations. Disagreements over precisely what levels
                          of support DRO is to provide CBP are common. Disputes sometimes arise
                          from different understandings of what levels of support DRO provided in the
                          past. In other cases, contradictory interpretations of how to apply historic
                          levels of support in a new operating environment with evolving CBP support
                          requirements have fed interagency tensions.

                          While DRO continues to provide functional support to CBP in some areas, in
                          other areas, BTS asked CBP to perform functions previously handled by
                          DRO. Whether in response to BTS’ order or to cover for a reduced level of
                          service from DRO, CBP has developed its own capability to perform new
                          functions. Because the CBP employees and resources performing functions
                          previously handled by DRO were removed from inspections and patrol
                          functions, the resources allotted to these functions have been reduced.
                          Meanwhile, because the staff and resources CBP has had to redeploy to
53
   Memorandum from Asa Hutchinson, Undersecretary for BTS, to Robert Bonner and Michael Garcia,
“Costs Associated with the Care and Custody of Aliens,” July 20, 2004.
54
   The aforementioned memorandum declares that, “ICE will continue to supply, at current levels, Immigration
Enforcement Agents (IEAs) to the Border Patrol to assist with transportation operations. ICE will continue to pay
overtime at historic levels as needed for IEA’s assigned to the Border Patrol.”
55
   Refer to DHS OIG letter report, “Immigration Enforcement Agent Position,” June 2005.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 38
          support these new functions are not specially equipped to handle them, the
          performance of these new functions likely has deteriorated.


Consequences
          ICE's funding and accounting system difficulties have affected DRO's ability
          to perform its detention and removal functions and contributed to
          inefficiencies in processing apprehended aliens. While ICE financial situation
          may improve, in the long term DRO’s ability to meet all demands will
          nonetheless continue to be limited by the appropriations available for
          detention bed space, removal costs, and related expenditures. When resources
          are scarce, as here, they must be allotted carefully to fill to the extent possible
          the competing needs of each agency. Achieving this goal is more difficult
          when only one of the two parties may participate in the decision-making.
          Consequently, though there are a number of pressures that influence the
          department's ability to fully meet its detention and removal needs, we remain
          concerned that the present relationship leaves CBP under represented in
          planning and apportioning bed space.

          Shortcomings in national coordination between CBP and ICE have
          contributed to imbalances between CBP’s apprehension efforts and ICE’s
          detention and removal activities. DRO’s strategic planning and heightened
          focus on interior enforcement is at variance with CBP’s emphasis on
          increasing border apprehensions. Without the support of increased
          transportation, detention space, and detention and removal staff, increases in
          apprehensions make little sense.

          Further, with diminished coordination between CBP detention priorities and
          DRO’s detention practice, an important tool for deterring illegal immigration
          has been undermined. CBP is unable to direct ICE’s detention resources to
          emerging cross-border illegal immigration trends and high priority aliens
          apprehended by the Border Patrol. As a result, illegal aliens CBP considers
          priority detainees are released into the community with little expectation of
          removal. We found that the morale of CBP’s apprehending units has suffered
          as they increasingly regard their alien apprehension efforts to be hollow
          victories.

          For deterrence to work, aliens considering illegal entry into the United States
          must expect a very real prospect of apprehension, detention, and removal.
          With diminished CBP influence on which aliens are detained and a lessened
          threat of detention and removal, the deterrent effect of CBP’s alien
          apprehension efforts has been weakened.

                     An Assessment of the Proposal to Merge CBP and ICE

                                          Page 39
Coordination of Investigative Operations
                           During our review, ICE and CBP employees spoke compellingly of the need
                           for close communication and coordination for effective enforcement of
                           customs and immigration laws. However, CBP inspectors and Border Patrol
                           agents perceive ICE as unresponsive to their investigative needs; CBP
                           inspectors and Border Patrol agents have begun referring more cases to other
                           investigative agencies according to ICE and CBP employees. In addition,
                           CBP is developing internal investigation capabilities. Further, they said, the
                           overall level of cooperation between CBP and ICE investigators has declined.

                           In this section we discuss the environment in which ICE’s investigation
                           function and CBP’s inspection function operates. We describe how the
                           current organizational structure has led to a decline of coordination and
                           information sharing between CBP and ICE and to ICE’s reduced
                           responsiveness to CBP’s investigative referrals. We discuss the consequences
                           of CBP’s and ICE’s inability to coordinate the investigation and inspection
                           functions. We conclude this section with a case study illustrating the impact
                           of this coordination problem on border security operations.


         Operational Environment
                           CBP inspectors screen visitors and goods at the POEs to determine their
                           admissibility and apprehend violators. Border Patrol agents apprehend aliens
                           and interdict goods that have illegally entered the United States between the
                           POEs.56 ICE investigators investigate suspected cases of immigration and
                           customs law violations, collect evidence, and prepare the cases for prosecution
                           by ICE or by the United States Attorney.57 Many of ICE’s investigations are




56
   See Appendix D, Organizational Overview of Customs and Border Protection.
57
   The merging of customs and immigration authorities into one investigative body created a potentially powerful
enforcement mechanism. ICE investigators have authority under Title 19, United States Code, which permits them to
pursue complex banking and financial misconduct cases, conduct searches without first obtaining a warrant, and seize
assets of criminal enterprises engaged in customs violations. In addition, ICE investigators have Title 8 authority to
make arrests without a warrant for immigration violations. The melding of these customs and immigration law
authorities allows ICE investigators to pursue both avenues with unique efficiency and thoroughness, making cases
stronger and more likely to be accepted for prosecution with more significant penalties. For more on ICE, see
Appendix E, Organizational Overview of Immigration and Customs Enforcement.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 40
                           initiated as a result of information obtained from CBP apprehensions.58 CBP
                           is often dependent on ICE for the investigation and prosecution of crimes
                           occurring at the POEs or between the POEs.59

                           CBP inspectors, Border Patrol agents, and ICE investigators can improve their
                           effectiveness by exchanging information that they obtain during their
                           respective operations. For example, the Border Patrol may detect the repeated
                           use of a smuggling route or other pattern that could indicate that there is a
                           larger criminal enterprise that ICE should investigate. Alternatively, an ICE
                           informant may relate information to CBP inspectors about a planned delivery
                           of narcotics through a POE checkpoint. ICE’s FDL may discover a new way
                           for CBP to detect counterfeit immigration documents, and ICE investigators
                           sometimes require CBP’s alien entry and travel records.60

                           In recognition of these interdependencies, INS and USCS investigators were
                           assigned to POEs and Border Patrol stations in the past. They worked with
                           inspectors and Border Patrol agents on common task forces and policy
                           working groups. These interactions bred relatively collegial communications
                           and meetings, coupled with easy avenues by which to express displeasure
                           when cooperation was not forthcoming or timely.61

                           The maximum efficiency and effectiveness of the inspection and investigation
                           functions of the immigration enforcement continuum can only be achieved
                           through close coordination at all levels. For this reason, CBP and ICE have
                           realized a need to formalize procedures between one another. In November
                           2004, they established an MOU to govern the interactions between Border



58
   In FY 2004, ICE initiated 11,065 investigations in response to CBP referrals. CBP referrals accounted for 23 percent
of all criminal cases initiated by ICE. See Appendix F, Operational Scenarios Illustrating Interconnectedness Between
CBP and ICE.
59
   See Appendix F, Operational Scenarios Illustrating the Interconnectedness of Customs and Border Protection and
Immigration and Customs Enforcement.
60
   Proponents of merger told us that all customs and immigration enforcement stems from a person or thing crossing the
border and that this common origin warranted reunion of the separated functions. The argument is partially valid but has
to be discounted. ICE fugitive task forces, investigations of child pornography, alien slavery and sweatshops, intellectual
property rights cases, and employer sanctions, to list a few examples, do not appear to require close coordination with
CBP personnel. While we agree that there are areas in which interaction between border personnel and ICE investigators
is vital, the dependency is not as comprehensive as some proponents of merger argued. Refer to Appendix F,
Operational Scenarios Illustrating Interconnectedness Between CBP and ICE for a description of these interactions.
61
   Legacy USCS employees said that the relationships between inspectors and investigators in the USCS were especially
good, describing a synergy that improved the performance of both. Former INS inspectors and investigators said that
their relationship was not as close, due in part to the presence of senior inspectors who investigated some immigration
violations at the POEs. The relationship of Border Patrol agents and its ASU investigators was reported to be stronger.
The two worked together on alien-smuggling cases and developed a friendly and cooperative rapport.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 41
                          Patrol agents and ICE investigators.62 CBP and ICE are negotiating a similar
                          MOU to govern interactions between CBP inspectors and ICE investigators.

                          However, as we discuss in the next section, the ability of MOUs to effectively
                          coordinate CBP and ICE operations is doubtful. MOUs are valuable tools for
                          establishing protocols for managing national level programs between two
                          organizations. They may also be useful for managing more local or regional
                          programs for special purposes or of short duration. MOUs are not effective as
                          tools for managing day-to-day operations that involve complex interactions
                          between two organizations. They are not comprehensive or flexible enough to
                          adjust to the changing environmental dynamics that are inherent to border
                          security operations.


        Problems with Field Coordination
                          Many CBP employees reported that ICE no longer accepts as many case
                          referrals from CBP inspectors and Border Patrol agents. Senior CBP and ICE
                          field staff said that CBP inspectors and Border Patrol agents no longer refer as
                          many cases to ICE, but refer them to other law enforcement agencies instead.
                          In addition, ICE investigators and senior field staff complained that CBP is
                          expanding its own investigative authority to retain and investigate cases.
                          Employees of both organizations also complained of a decline in overall
                          cooperation between CBP and ICE.63 A number of employees expressed
                          concern that as legacy employees retire or resign, pre-DHS working
                          relationships will lapse and coordination will decline further.

                          Reduced Responsiveness

                          Many CBP inspectors and Border Patrol agents, as well as some ICE
                          investigators, reported that ICE investigators’ acceptance rate of CBP case
                          referrals has declined significantly. Some attributed this decline to the ICE
                          hiring freeze and investigator attrition. Even with a hiring freeze in place for

62
   Earlier, in April 2004, CBP and ICE entered into an initial MOU establishing basic guidelines for interactions between
Border Patrol agents and ICE investigators with regard to alien smuggling cases. In November 2004, CBP and ICE
entered into an MOU establishing protocols for all interactions between Border Patrol and ICE Office of Investigations.
This MOU, entitled, “Guidelines Governing Interaction between ICE’s Office of Investigations and CBP’s Office of
Border Patrol,” dictates methods of information sharing, case deconfliction, and other cooperation, such as controlled
deliveries. The MOU also requires a six-month review and a one-year review to be succeeded by reviews every two
years, or at any time upon request by either party. The six-month review is underway.
63
   Many indicated that the MOUs governing Border Patrol and ICE investigator interactions are not effective at
establishing good working relationships because the MOUs are not enforced and cannot address all the situations that
arise.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 42
                          part of the period, however, the number of ICE investigators increased from
                          5,749 in October 2003 to 6,037 in February 2005.64

                          Some ICE investigators said that turf battles and competition between CBP
                          and ICE accounted for the change. For example, we were told of a situation
                          in which ICE elected not to open an investigation into a possible financial
                          crimes case because CBP had already taken credit for the money that was
                          seized.

                          According to a CBP supervisory inspector, the decline in ICE investigators’
                          response is due in part to having dual chains of command. In the INS, when
                          investigators would not respond to inspector referrals, the inspectors could
                          request assistance through INS’ single chain of command. The supervisory
                          inspector said that because of the dual chains of command, there is no
                          recourse to induce the investigators to respond.

                          Many Border Patrol agents attributed the decline to mismatched agency
                          priorities. They contend that ICE is not focused on alien smuggling to the
                          extent that it should be and that ICE refuses too many smuggling cases.65

                          One factor that may be contributing to CBP’s perception that ICE
                          investigators are not responsive to CBP investigative requirements may be a
                          training issue. ICE has not fully implemented a program to provide training
                          for legacy INS investigators in customs matters and for legacy USCS
                          investigators in immigration matters. While ICE has conducted a two-week
                          training session to cross train legacy investigators in immigration and customs
                          matters, this training by itself is not adequate. In May 2005, ICE officials
                          acknowledged this to us and indicated that they were beginning to develop
                          plans for a more comprehensive cross training program.

                          CBP officials recognized very early the significant training issues associated
                          with its “One Face at the Border” program. CBP officials also conducted the
                          two-week orientation training for all CBP inspectors. But they recognized
                          that this effort fell well short of fully integrating customs and immigration
                          inspection programs. They developed comprehensive long-range training
                          plans that will be rolled out in increments over the next several years. While
                          it is too early to evaluate the effectiveness of the training program, it is clear
                          that CBP management understood and acknowledged the challenges and took

64
   From DHS Tri Bureau On-Board by Occupation Analysis, prepared by CBP Human Resources Management
Personnel Systems staff, February 24, 2005.
65
   In the INS, smuggling cases uncovered by Border Patrol agents were referred to the Border Patrol’s anti-smuggling
unit (ASU) investigators.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 43
                          steps to facilitate the integration of the customs and immigration inspection
                          programs.

                          In May 2005, more than two years after DHS was created, ICE was just
                          beginning to address the significant challenges of integrating customs and
                          immigration investigation programs. Information we received from CBP
                          inspectors regarding the responsiveness of ICE investigators suggested that it
                          was not always so much the investigator’s unwillingness to respond but an
                          uncertainty on the part of the investigator on how to respond. For example,
                          when a legacy USCS investigator is asked to respond to a CBP referral
                          pertaining to an immigration issue, it was suggested to us that if the
                          investigator was uncertain of the investigative value of the referral as an
                          immigration matter, the investigator may be less likely to accept and respond
                          to the referral. Many Border Patrol agents claimed that this dynamic was
                          occurring. While the purported decline in ICE referral acceptance rates may
                          be attributed to poor coordination between CBP and ICE, it may also have
                          genesis in the inadequate training provided to ICE investigators.

                          Cases Referred to Other Law Enforcement Agencies

                          CBP inspectors and Border Patrol agents said they increasingly refer cases to
                          other law enforcement agencies. A few CBP inspectors and Border Patrol
                          agents said that they will not refer cases to ICE because they believe that the
                          current organizational structure limits ICE’s jurisdiction only to interior
                          enforcement.66 One Border Patrol agent said that competition for credit
                          motivates Border Patrol supervisors to discourage Border Patrol agents from
                          referring cases to ICE investigators. Others said that they refuse to refer cases
                          to ICE investigators because they do not trust ICE investigators to conduct the
                          investigation thoroughly.67 A Border Patrol manager said that he would never
                          refer anything to ICE, but would refer cases to DEA and FBI because he
                          believed that the FBI and DEA would conduct a better investigation than
                          would ICE.

                          Further, CBP inspectors and Border Patrol agents said that they chose not to
                          refer some cases to ICE because ICE investigators do not provide feedback on

66
   See “Reorganization Plan Modification for the Department of Homeland Security,” January 30, 2003, U.S. Congress,
House of Rep., 108th Congress. First Session, House Doc. 108-32. The President’s modification granted ICE authority
“to enforce the full range of customs and immigration laws within the interior of the United States.” It granted CBP the
immigration and customs missions related to borders and POEs.
67
   The competency concern appears limited to instances where a former customs agent is assigned to an immigration
matter (or presumably also when an immigration agent is assigned to a customs matter.) While this may explain some of
the reluctance to refer cases to ICE investigators, it is an issue related to ICE’s management of the cross-training
problem and is not relevant to the scope of this review.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 44
the cases the inspectors and Border Patrol agents refer. Feedback is important
because it provides CBP inspectors and Border Patrol agents a measure of
satisfaction of knowing that their apprehensions resulted in successful
prosecutions. More importantly, information uncovered during an
investigation can assist CBP inspectors and Border Patrol agents to better
identify trends and emerging threats. Some CBP officials said the feedback
problem has deteriorated under the current organizational structure. Others
said that it has remained the same but that the dual chains of command
interfere with their ability to seek redress if they do not receive feedback.

To illustrate, an ICE investigator said that an inspector at a land POE
discovered vehicles attempting to enter the country with illegal narcotics. The
illegal narcotics and the vehicles were seized, and several aliens were arrested.
The CBP inspectors did not refer the case to ICE investigators for federal
prosecution. Rather, they contacted the local law enforcement agency to
investigate and prosecute the case under state law. The port director knew of
and approved the inspectors’ actions because he believed that ICE was
ineffectual, and he was annoyed that ICE investigators had not provided
feedback on cases that inspectors had referred in the past.

According to a senior ICE manager, in order to avoid referring financial crime
cases to ICE investigators, some Border Patrol agents have intentionally
classified cases as narcotics cases so that they could refer them to DEA. He
cited an example of Border Patrol agents referring a case to DEA that
involved an illegal alien crossing the border with an amount of currency in
excess of that allowed by customs law. The justification for the referral to
DEA was that the alien was also found with the remains of a marijuana
cigarette. While the MOU between the Border Patrol and DEA requires that
the Border Patrol refer narcotics cases to DEA, this example suggests that the
narcotics classification was made to avoid referring the case to ICE.

DHS and CBP headquarters managers asserted that the policy is to refer all
cases to ICE for investigation. The exceptions are narcotics interdictions by
the Border Patrol, which are referred to DEA in accordance with a long-
standing MOU, and terrorist-related cases that are referred to the FBI. They
said our conclusions were based on the opinions of a few CBP inspectors and
Border Patrol agents. While it is true that the numbers of CBP and ICE
employees reporting this situation to us were not large, many of those were
senior CBP and ICE field managers including Border Patrol Chief Patrol
Agents, ICE supervisory special agents, and senior CBP managers. Further,
the reporting was not confined to a particular location or region. CBP and
ICE employees stationed across the country from New York to Tucson
provided this information to us. We could not determine why senior field

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 45
managers were not in compliance with stated CBP and ICE policy nor could
we reconcile the differences in perceptions in the current operating
environment between CBP and ICE field operations and headquarters staffs.
In fact, ICE officials said that they were unaware of the situations that we
described.

CBP Customs Referrals

A complete picture of the number of ICE investigations opened in response to
CBP referrals is not available for the full period since the formation of CBP
and ICE. Due to issues arising from the transition from one data system to
another, ICE immigration case data is not complete for the first several
quarters after ICE was formed. As a result, we were unable to apply this data
in our analysis. Nevertheless, ICE customs case initiation data for the period
is considered complete and reliable, and we have presented it below. It is
worth noting, however, that this case data does not reflect the full scope of
ICE investigative casework pursuant to CBP referrals. During the first quarter
of FY 2005, about 17 percent of all criminal cases ICE initiated in response to
a CBP referral were immigration cases. Trends within this subset of cases are
not reflected in the chart below.


                         Number of OI Customs Cases Initiated
                            In Response to a CBP Referral

              3,000
                         2,868
              2,500

              2,000
                                                               2,070
              1,500

              1,000

                500

                  0
                   Q2      Q3     Q4     Q1     Q2     Q3     Q4     Q1
                  FY03    FY03   FY03   FY04   FY04   FY04   FY04   FY05




The number of customs cases that ICE opened as a result of CBP referrals has
declined, indicating that either ICE investigators are not accepting as many


          An Assessment of the Proposal to Merge CBP and ICE

                                 Page 46
                                  CBP customs case referrals, that CBP inspectors and Border Patrol agents are
                                  not referring as many cases to ICE, or both. Between the second quarter of
                                  FY 2003 and the first quarter of FY 2005, the percentage of ICE customs
                                  cases arising from CBP referrals has declined from 41 percent to 34 percent.
                                  While other factors may have contributed to this decline, the large volume of
                                  testimonial evidence from CBP and ICE employees strongly suggests that this
                                  data reflects a degradation of the coordination of investigations between CBP
                                  and ICE.68


                                             ICE OI Customs Cases Initiated by Referral Source*
                                                     FY 2003                                                     FY 2004                              FY 2005
       Referral Source
                                    2nd Qtr           3rd Qtr          4th Qtr          1st Qtr          2nd Qtr          3rd Qtr          4th Qtr    1st Qtr

     CBP Referrals**                  2,868            2,447             2,334            2,323            2,529            2,249            2,225     2,070

     Total Referrals                  6,918            6,284             6,424            6,856            7,219            6,383            6,802     6,120


     CBP Share of Total                41%              39%              36%              34%              35%              35%               33%      34%

     *ICE OI receives referrals in response to which it does not open a case. Referrals such as these are not reflected in this table.
     Customs cases include the following case categories: drug smuggling; general smuggling; financial investigations; regulatory compliance; fraud;
     illegal exports; customshouse licenses and identity cards; foreign/domestic cooperation; munitions control; navigation; other criminal;
     and theft, loss, damage and shortage.
     **For comparative purposes CBP referrals for the full period include those from AMO, which was not initally part of CBP.
     Because ICE does not maintain discrete referral statistics for CBP's international referrals, these referrals are not reflected in this table.




                                  Decline in Cooperation Between CBP and ICE

                                  CBP requires that all visitors to the POEs, including ICE investigators, check
                                  in before being admitted to the POEs. In some cases, CBP inspectors must
                                  escort ICE investigators during their visits. In the past, investigators were
                                  permitted unrestricted access to a POE. CBP inspectors and ICE investigators
                                  said that this rule has served to amplify tensions between the two groups and
                                  degrade their willingness to cooperate with each other.

                                  CBP headquarters officials said that the POE visitation policy had not
                                  changed. This is true in that it has always required that visitors sign in and be
                                  escorted while at the POE. What has apparently changed is the application of
                                  this policy to ICE investigators. ICE investigators said that they were not



68
  Other factors contributing to the change might include a change in the threshold standards U.S. Attorneys use for
accepting cases.

                                                    An Assessment of the Proposal to Merge CBP and ICE

                                                                                   Page 47
                           considered visitors when the inspectors and investigators were part of the
                           same organization.

                           In addition, ICE investigators complained that what used to be routine
                           requests for assistance in USCS and INS are no longer honored by CBP. For
                           example, if an inspector was fluent in an unusual language, or had expertise in
                           a particular area of customs regulations, investigators could request to have
                           those individuals detailed to them to assist with an investigation. According
                           to ICE investigators, now some CBP managers routinely deny such requests.


         Consequences
                           The coordination issues raised regarding investigative activities between CBP
                           and ICE have significant ramifications. Some ICE investigations may have
                           been impeded because of the lack of coordination and cooperation between
                           ICE and CBP. In addition ICE’s unresponsiveness may have prompted CBP
                           to expand its own internal investigative capability, creating even more
                           coordination problems.

                           Decline in Narcotics Arrests, Convictions, and Seizures

                           A decline in the number of CBP referrals and the acceptance of them by ICE
                           may have contributed to a decline in overall ICE investigative outputs in
                           certain case categories. In FY 2003, more than six in ten drug smuggling
                           investigations opened by ICE were opened in response to a CBP referral.
                           When the number of investigations opened in response to a CBP referral fell
                           in subsequent years, so did ICE’s narcotics arrests, indictments, convictions,
                           and seizures. Between FY 2003 and FY 2005, as the number of CBP referrals
                           of this type declined, the number of arrests decreased by 24 percent,
                           convictions by 51 percent, and seizures by 23 percent. While there may be
                           many factors influencing this decline, this data combined with the volume of
                           testimonial evidence suggests that degradation of border enforcement
                           operations has occurred, in part, due to the ineffective coordination between
                           CBP and ICE.69




69
  There is no evidence that the flow of illegal narcotics has slowed, and trends in CBP drug seizures do not appear to
correspond with trends in the number of drug smuggling cases ICE has opened in response to CBP referrals.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 48
                                              Reduced Number of Referrals Leads to a Decline in
                                                     Arrests, Convictions, and Seizures


                                                  ICE OI Drug Smuggling Case Outputs

                                           Outputs                 FY 2003            FY 2004             FY 2005*

                                      CBP Referrals**                7,140             6,392                5,698
                                                                                                -10%                -11%

                                      Total Referrals**             11,814            10,799                9,833
                                                                                                 -9%                    -9%

                                      Arrests                       11,441            10,543                7,975
                                                                                                 -8%                -24%

                                      Indictments                    7,929             6,940                3,540
                                                                                                -12%                -49%

                                      Convictions                    8,103             7,221                3,527
                                                                                                -11%                -51%

                                      Seizures                       6,809             6,172                4,733
                                                                                                 -9%                -23%
                                    *FY 2005 statistics are annualized totals based on referral data through 03/04/05
                                     and arrest, indictment, conviction and seizure data through 02/23/05.
                                    **Referrals in response to which ICE OI initiated a case.



                             ICE Investigations Compromised

                             Some cases may be impeded if they are not referred to ICE for proper
                             investigation, resulting in suspected criminals not being prosecuted. An ICE
                             investigator told us how CBP inspectors not referring a case to ICE
                             compromised his case. The investigator was conducting a financial crimes
                             and money laundering investigation. He created a TECS lookout for a suspect
                             requesting that, upon contact with the suspect, the inspectors contact the
                             investigator immediately so that he could question the suspect and examine
                             his documents. When the suspect arrived at the POE, three CBP inspectors
                             examined the lookout record.70 They copied the suspect’s travel documents
                             but, rather than contacting the investigator, the inspectors referred the case,
                             along with the copied documents, to the FBI. Because the investigator was




70
     TECS notifies the owners of records, in this case the investigator, when the record has been read.

                                            An Assessment of the Proposal to Merge CBP and ICE

                                                                      Page 49
                           not contacted when the suspect arrived at the POE, he missed the opportunity
                           to question the suspect about the suspect’s financial dealings.71

                           CBP Is Expanding Its Internal Investigation Capability

                           CBP is expanding its internal investigation capabilities to investigate cases
                           identified by CBP inspectors and Border Patrol agents. This action
                           complicates coordination efforts. Further, it creates opportunities for both
                           agencies to unknowingly conduct simultaneous investigations on the same
                           criminal activity and potentially compromise cases.

                               CBP Enforcement Officers

                           CBP plans to expand the number, authority, and jurisdiction of CBP
                           enforcement officers. These positions were called “senior inspectors” in the
                           INS and were responsible for investigating certain immigration cases at
                           POEs.72 In October 2004, CBP announced a pilot program to increase the
                           number of CBP enforcement officer positions and to broaden the scope of
                           their authority to include criminal violations of the federal customs and drug
                           statutes.73 Additionally, the CBP enforcement officers’ jurisdiction would
                           extend beyond the POE.

                           ICE investigators and senior managers expressed concern about the planned
                           expansion of CBP enforcement officers, citing the lack of investigative
                           training of CBP enforcement officers as one of their concerns. One
                           investigator told us of a case in which an alien arrived at a POE with illegal
                           narcotics. The CBP enforcement officer interviewed the suspect and obtained
                           a description of a second suspect waiting in the airport to whom the suspect
                           was to deliver the narcotics. Instead of immediately referring the case to ICE,
                           the CBP enforcement officer intercepted the second suspect, who was
                           carrying a large amount of cash. Because no transfer of narcotics and cash
                           took place between the two suspects, the case against the second suspect was
                           compromised.74



71
   The case was referred to an FBI special agent who worked closely with the ICE investigator. The investigator was
able to obtain the copies of the documents from the FBI special agent. Among those documents, the investigator found
financial records that were important to his case.
72
   Senior Inspectors investigated cases involving certain alien smuggling, document fraud, and attempted illegal entry for
criminal prosecution by United States Attorneys.
73
   Currently, there are 238 CBP enforcement officers nationwide.
74
   An ICE investigator told us that, in this case, the evidence of a person meeting the physical description given and
carrying a large amount of cash is insufficient to meet criminal prosecution standards.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 50
                          CBP officials acknowledged our concerns with this potential duplication of
                          investigative activity and compromise of cases. To reduce the likelihood of
                          these occurrences, they plan to convene working groups involving CBP and
                          ICE officials to develop processes and protocols to avoid interference with
                          ICE investigations. They also stated that the CBP investigators will only,
                          “pursue cases that are short term in nature with low to moderate complexity.”
                          However, according to the position description for these officers, their
                          responsibilities will include conducting investigations pertaining to the
                          smuggling of instruments of terror. We doubt that this type of case could be
                          either short term or of moderate complexity.

                               Border Patrol Smuggling Investigations

                          CBP has reconstituted the Border Patrol’s smuggling investigative capability,
                          allowing Border Patrol agents to investigate some alien smuggling cases.75
                          The MOU, which established procedures for coordinating investigations
                          between Border Patrol agents and ICE investigators, gives ICE investigators
                          primary responsibility for most smuggling investigations but allows that
                          Border Patrol agents investigate some alien smuggling cases.76

                          Despite the implementation of an MOU, significant problems have occurred
                          in coordinating Border Patrol and ICE investigations. An example involved
                          suspected alien smugglers operating out of a hotel room. When a joint ICE -
                          Border Patrol team arrived at the hotel room and knocked on the door, no one
                          answered, but team members could hear people inside. The ICE investigator
                          told the Border Patrol agents that the team would have to get a search warrant,
                          but the Border Patrol agents wanted to have the hotel manager open the door
                          with management’s key. The ICE investigators explained that the evidence
                          from such a search would be inadmissible in court. The Border Patrol agents
                          stated that they were under a different chain of command and did not have to
                          obey the investigator’s instructions. Subsequently, the Border Patrol agents
                          had the hotel manager open the room. Inside they discovered smuggled
                          aliens, but the case was never prosecuted because the evidence was not
                          admissible.

                          During another joint investigation, Border Patrol agents and ICE investigators
                          wanted to examine the trash at a residence that they suspected was used to

75
   In the former INS, Border Patrol had investigators assigned to its ASUs. The ASUs investigated alien smuggling
activities. The ASU investigators were transferred to ICE when ICE and CBP were established. The reformed ASUs do
not have trained investigators assigned to them.
76
   According to the MOU, Border Patrol must notify ICE investigators of the investigation and must transfer the case to
ICE investigators if the SAC so requests.


                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 51
house smuggled aliens. ICE investigators made arrangements to covertly
examine the trash. Without first coordinating with the ICE investigators as
required by the MOU, Border Patrol agents went to the residence and
examined the trash on the street in front of the residence. Subsequently, the
smugglers vacated the residence – and, as a result, the case was closed.

Even though an MOU exists, Border Patrol and ICE have opened duplicate
investigations on the same case, sometimes resulting in compromises. In one
such case, ICE was investigating a nation-wide narcotics smuggling ring. ICE
was relying on information from an informant associated with a group that
was using a “stash house” to hold illegal narcotics before shipping them to
other locations. To further the investigation, ICE investigators waited for
narcotics shipments to leave the stash house before seizing them. ICE
anticipated eventually being able to uncover the entire criminal enterprise.
However, unknown to the ICE investigators, Border Patrol agents initiated
their own investigation of the stash house. The Border Patrol agents went to
the stash house and seized the illegal narcotics that they found. The
smugglers subsequently discontinued using the residence, and ICE had to
close the case because it lost its source of information. The current
operational status of the criminal enterprise is unknown.

Decreasing Cooperation Reduces Effectiveness

The current organizational structure has apparently created barriers to
cooperation that once existed between inspectors and investigators and is
reducing operational effectiveness. To illustrate, one ICE investigator was
investigating an alien suspected of terrorist financing and illegal weapons
shipments. The investigator learned that the suspect would enter the United
States for the first time in years. The investigator asked CBP inspectors at the
POE to allow him to question the suspect upon his arrival to the United States.
The inspectors told the investigator that he would be allowed to question the
suspect at the POE only if a CBP inspector attended the interview. The
investigator objected because some of the discussion would involve classified
information and none of the inspectors had the necessary security clearances.
Despite the investigator’s objections, the inspectors refused to allow the
investigator to question the suspect alone. As a result, the investigator
interviewed the suspect with an inspector present and was not able to ask all
of the questions necessary to develop his case.

The current situation has also brought about a decline in mutual support
between CBP and ICE. For example, an ICE investigator required the
assistance of a translator. The investigator asked a CBP manager to allow a
particular inspector who was fluent in that language to assist him. However,

          An Assessment of the Proposal to Merge CBP and ICE

                               Page 52
                          the CBP manager denied the request, stating that ICE should have its own
                          translation staff. As a result, the investigator had an ICE employee travel 250
                          miles to provide the required assistance. The investigator said that CBP has
                          denied such requests so many times that he has stopped asking for help.

                          In another case, one CBP inspector said that, previously, investigators would
                          allow inspectors to view the process of uncovering illegal narcotics hidden in
                          cargo containers. Learning new methods used by criminals to conceal
                          contraband improves the inspectors’ ability to locate contraband during future
                          inspections. However, with the current organizational structure, inspectors
                          have been denied the opportunity to observe break down operations.

                          Case Study: Breakdown in Coordination Between Immigration and
                          Customs Enforcement and Customs and Border Protection

                          The impact on law enforcement operations and border security because of the
                          poor coordination between ICE and CBP is evident in the execution of
                          controlled deliveries. A controlled delivery is a law enforcement operation in
                          which a known contraband shipment is allowed to continue across the border
                          to its final destination while under law enforcement surveillance and control.
                          Controlled deliveries are pre-planned events that require approval by ICE
                          investigations, CBP’s OFO, and the Border Patrol.77 CBP allows the load of
                          illegal contraband to cross the border into the United States; ICE investigators
                          follow the load with the intent of identifying additional members of the
                          criminal enterprise.

                          The success of these operations depends on close coordination between ICE
                          and CBP. Failure to coordinate and cooperate during these types of
                          operations can result in unnecessary danger to the ICE investigators, CBP
                          inspectors, Border Patrol agents, and the general public. It can also mean lost
                          opportunities to identify and arrest additional members of the targeted
                          smuggling enterprise.

                          According to ICE statistics, the number of controlled deliveries involving
                          narcotics has declined significantly in recent years. The number of controlled
                          deliveries we project ICE will execute in FY 2005 based on controlled
                          delivery figures through March 31, 2005 will be 51 percent lower than the
                          number of controlled deliveries conducted in FY 2002. While a number of



77
   Usually, the SAC, Port Director, or CPA designate controlled delivery “coordinators” who are normally supervisory-
level or higher who negotiate, plan, and approve these types of operations.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 53
                           factors may have contributed to this decline,78 the lack of effective
                           coordination between ICE and CBP may have contributed to the decline in
                           this activity.

                           CBP and ICE were conducting a joint investigation by ICE and other law
                           enforcement agencies. During a planning meeting, the Border Patrol CPA
                           disagreed vehemently with allowing a controlled delivery operation to
                           continue beyond a certain distance from the border. The CPA would allow
                           the contraband to enter the United States and to travel only a set distance
                           before he wanted it interdicted.79 Consequently, several planned controlled
                           deliveries to support the investigation were cancelled. ICE investigators
                           arrested the leader of the targeted smuggling enterprise but were unable to
                           identify the other participants in the criminal enterprise.

                           The coordination between ICE and Border Patrol for controlled deliveries
                           operations is governed by an MOU issued on November 16, 2004. The MOU
                           stipulates that Border Patrol can approve or deny ICE requests to coordinate
                           controlled deliveries. The MOU specifically authorizes the Border Patrol
                           sector to make the determination as to whether an ICE-requested controlled
                           delivery should be denied. Border Patrol agents and ICE investigators said
                           that disagreements over what constitutes “appropriate safeguards [against
                           losing loads]” occur regularly between ICE investigators and Border Patrol
                           agents.

                           ICE investigators believed that they had adhered to the conditions of the MOU
                           and blamed the breakdown in cooperation with the Border Patrol. The CPA
                           said that he disallowed the controlled deliveries because he believed that the
                           ICE investigators did not put the appropriate safeguards in place to prevent
                           losing the loads. He further commented that the ICE investigators had a
                           history of losing loads. He said that he did not want to risk having ICE
                           investigators lose a controlled delivery that could potentially contain a weapon
                           of mass destruction.

                           The MOU allows CBP and ICE to treat each other as sovereign agencies. The
                           CPA, who had no resources invested in the investigation and had articulated
                           no concerns related to safety of the Border Patrol agents or the general public
                           vetoed the continuation of the investigation because of his concern that ICE
                           would lose the load. The responsibility for losing the load was ICE’s and
78
   Other factors that could account for a decline in the number of controlled deliveries include: a shift in resources due to
a stronger focus on anti-terrorism, a shift in traffic patterns or smuggling routes, and a decline in major seizures
amenable to controlled deliveries.
79
   This situation was never elevated to the headquarters level. The CPA’s denial, depending on how rigid the
interpretation, was appropriate and within the standards set by the new MOU.

                                         An Assessment of the Proposal to Merge CBP and ICE

                                                                Page 54
therefore, ICE should have made the decision. The CPA’s decision hindered
the investigation, limiting the case resolution to the arrest of an individual
already known to ICE. The decision also may have harmed ICE’s standing
with the other participating law enforcement agencies. Ultimately, it is
difficult to be certain, but the incident as described by some of the participants
raises the question of whether the CPA would have been quite so pre-emptory
had he not been insulated from the investigators by his organizational
separateness.

Moreover, assuming equal merit to both sides’ arguments, the investigation
may have been doomed because ICE had no opportunity for a speedy appeal
of the CPA’s decision. ICE investigators are limited to seeking intervention
by higher-level ICE officials to persuade their CBP counterparts to intervene
and reverse the CPA’s decision. In the meantime, the smugglers may have
completed their delivery while the bureaucracies skirmished.

We cited this case as an example of many operational coordination problems
between CBP and ICE that were a source of frustration among CBP and ICE
employees. These difficulties illustrated the pitfalls of the current
organizational structure. The employees’ dispute was not with the MOU,
although the MOU appears to merit fresh review; rather, their dispute was
with the current institutional barriers to effective coordination to accomplish
the border security mission.

The MOU does not provide for an effective mechanism for resolving related
disputes between ICE investigators and Border Patrol agents. It states that
CBP and ICE will form a working group at the headquarters level to address
issues that cannot be resolved in the field. This mechanism may be effective
for resolving systemic issues and for adjusting policy and procedures on a
national level. However, it is not effective for resolving day-to-day
operational conflicts, such as the one we described in this example.

CBP and ICE officials said that this event was never reported to headquarters
as required by the MOU. We agree that headquarters can do nothing to
resolve conflicts in the field if headquarters is unaware of the problems. In
commenting on why this situation was not reported to headquarters for
resolution, a senior ICE field manager involved with the case stated, “if we
would have elevated it to headquarters, a battle [between CBP and ICE]
would have ensued that we would have lost. This was based on our past
experience with headquarters…. Just think, for this thing to get resolved, it
would have had to be elevated to [the Assistant Secretary] …. And, then [the
Assistant Secretary] … would have to get [the Commissioner] … to agree.
This was not going to happen anytime soon. Probably never.” This statement

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 55
not only highlights the shortcomings of MOUs as a mechanism for resolving
day-to-day operational conflicts, but also serves as an indicator of the
problems that CBP and ICE have coordinating their operations.




          An Assessment of the Proposal to Merge CBP and ICE

                               Page 56
Coordination of Intelligence Activities
                          The current organizational structure has not promoted the coordination of
                          intelligence activities between CBP and ICE. The January 30, 2003,
                          "Reorganization Plan Modification for the Department of Homeland Security”
                          transferred the USCS Office of Intelligence to ICE but was silent on what
                          intelligence structure, resources or capabilities, would support CBP’s
                          operations.80 There is little institutional incentive for CBP and ICE to share
                          and coordinate intelligence. For the most part, CBP and ICE work
                          independently of each other to develop intelligence products that serve their
                          respective needs and do not integrate the products to develop an overall border
                          enforcement strategy.

                          CBP and ICE have developed separate field intelligence structures that have
                          challenged their ability to work together or exchange information. Further,
                          when they do share information, the mechanisms they use are often
                          ineffective. Similarly, intelligence coordination needs to improve at the
                          national level between CBP and ICE headquarters. The failure to collaborate
                          has led to at least a few cases in which CBP and ICE did not know about
                          important intelligence that the other organization had for an extended period
                          of time.

                          In this section we discuss the operational environment in which the
                          intelligence functions of CBP and ICE operate. We describe how the current
                          organizational structure has separated CBP’s and ICE’s intelligence functions,
                          creating challenges in the coordination of intelligence activities at both the
                          national and field levels. We discuss how the current organizational structure
                          reduces CBP’s and ICE’s ability to collaborate to produce intelligence reports.
                          We also describe how overreliance on TECS to share information is inhibiting
                          timely and effective sharing of intelligence. Finally, we identify some of the
                          consequences of failing to share intelligence and other information in a timely
                          manner.




80
  While about 470 intelligence positions were transferred to ICE, CBP negotiated to retain approximately 30 intelligence
positions for its own intelligence needs.



                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 57
        Operational Environment
                          Common Intelligence Requirements

                          CBP and ICE have both shared and independent intelligence requirements to
                          support their interdiction and investigative missions; most of their intelligence
                          requirements overlap. For example, both CBP and ICE require intelligence
                          regarding illegal aliens, criminal aliens, alien smuggling, drug trafficking,
                          fraudulent travel documents, weapons of mass destruction, infrastructure
                          threats, and import and export violations. ICE has a special interest in cyber
                          crime, protection of federal buildings, and illicit financial transactions, while
                          CBP has an interest in information relative to threats to agriculture, border
                          vulnerabilities, and information on shippers, carriers, freight forwarders, and
                          manufacturers. When combined, these intelligence requirements cover the
                          spectrum of potential threats for border security. The maximum efficiency
                          and effectiveness of the intelligence functions, now bifurcated by the current
                          organizational structure, can be achieved only through close coordination at
                          the national and field levels.

                          CBP’s Intelligence Program

                          CBP’s intelligence program involves CBP inspectors and Border Patrol agents
                          in the field, intelligence centers, the National Targeting Center (NTC),81 and
                          Office of Intelligence (CBP-Intel) at CBP headquarters. Intelligence centers
                          include the Border Patrol Field Intelligence Center (BORFIC) in El Paso,
                          Texas, and the Command and Control Intelligence Coordination Center
                          (CCICC) in San Diego, California. Intelligence is disseminated and received
                          through a myriad of systems, but the principal one used to communicate
                          intelligence and other relevant information is TECS. Daily muster briefings
                          and formal written intelligence bulletins are also used to disseminate
                          intelligence.

                          ICE’s Intelligence Program

                          ICE’s intelligence program consists of six Field Intelligence Units (FIUs),82
                          intelligence units at the SAC field offices, and the Office of Intelligence (ICE-
                          Intel). FIUs produce strategic level intelligence for ICE that may be shared
                          with various members of the law enforcement and intelligence communities.

81
   NTC is the coordination point for all anti-terrorism efforts of CBP. It uses sophisticated information-gathering
techniques and intelligence to provide target-specific information to field offices. The NTC also works with CBP-Intel
and ICE agents to share information and issue advisories on more immediate threats to the POEs and border.
82
   FIUs are located in Chicago, New York City, Los Angeles, Tucson, Houston, and Miami.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 58
                           Also, they provide case support on larger and more complex cases for ICE.
                           Intelligence analysts assigned to SAC field offices primarily support
                           investigations. While ICE-Intel exerts direct line-authority over the FIUs, it
                           does not have direct authority over intelligence analysts assigned to SAC field
                           offices. They report to field office supervisors.

                           Communications between ICE-Intel, FIUs, and intelligence analysts assigned
                           to SAC offices is maintained through the same types of systems that CBP-
                           Intel uses to maintain connectivity with its field elements. And, like its
                           counterpart at CBP, ICE-Intel uses TECS as its primary system for
                           communicating intelligence and other information relevant to its investigative
                           mission to its field elements.


         Problems with National Coordination
                           More needs to be done to promote information sharing between CBP and ICE.
                           The only formal document that requires intelligence sharing is a November
                           2004 MOU between ICE and the Border Patrol. However, this MOU is
                           primarily used to guide joint operations against large smuggling operations.

                           The only effort we identified at coordinating intelligence at the national level
                           was through the daily intelligence briefings held at CBP and ICE
                           headquarters. CBP and ICE send intelligence analysts to both briefings.
                           These briefings are focused on intelligence received from the Intelligence
                           Community and do not involve coordinating intelligence with operational
                           planning. Attendees rarely discuss domestic intelligence gathered by ICE and
                           CBP. These intelligence briefings are helpful and important, but they do not
                           result in the direct coordination of joint operations or interagency strategizing.

                           One forum exists that could evolve into an effective collaborative effort to
                           develop a national threat assessment to support border security. The CBP
                           Commissioner hosts a daily Intelligence and Operations Briefing.83 At this
                           meeting, CBP managers coordinate operations at the national level based on
                           intelligence received. On May 6, 2005, an ICE representative first began
                           attending this briefing. CBP and ICE are now working together to define the
                           appropriate attendance level for continued direct exchange at the national
                           level. However, ICE participation at this briefing needs to be more regular,
                           and the MOU approving this level of participation is pending.

83
  Highlighting this specific briefing, as it is currently run and hosted by CBP, is not an endorsement by the OIG that this
briefing should serve ultimately as the mechanism for better coordinating operations between CBP and ICE. We are
merely suggesting the benefits of having such exchanges on a routine basis.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 59
        Problems with Field Coordination
                          Apart from entering intelligence reports and other information into TECS,
                          neither CBP inspectors nor Border Patrol agents effectively coordinate
                          intelligence analysis or production with ICE. In contrast, CBP inspectors and
                          Border Patrol agents exchange intelligence regularly among themselves. This
                          has resulted in well-coordinated operations. One example concerns joint
                          operations along the southwest border, where CBP inspectors coordinate pulse
                          and surge inspection operations at the POEs with increased Border Patrol
                          deployments between the POEs in those areas.84 Another example involves
                          joint operations along the northern border where CBP inspectors support
                          Border Patrol agents with radiation detection equipment and expertise. They
                          share intelligence and coordinate joint operations without a need for
                          comprehensive formal policies and procedures. The routine sharing of
                          information is attributable to CBP inspectors and Border Patrol agents
                          belonging to the same organization.

                          Some of the FIUs do a better job of sharing and coordinating intelligence with
                          CBP field offices than others in that they initiate and maintain face-to-face
                          liaison with their CBP counterparts. Where this occurs it is because of the
                          FIU managers’ long-time working relationships with their CBP counterparts
                          established under the legacy organizational structure. One FIU has made
                          regular contributions to the weekly intelligence briefings authored by one of
                          the POEs within its geographic area of concern. It also has been able to
                          cultivate, analyze, and exploit intelligence supplied to it by its CBP
                          counterparts on a consistent basis. However, even this FIU reported that it has
                          never “co-authored” any intelligence products with its CBP partners. While
                          contributing to an intelligence report is a step in the right direction, it still falls
                          short of a full collaborative effort to produce an overall regional intelligence
                          assessment to support border security. None of the FIUs has CBP intelligence
                          analysts assigned to it. One FIU manager said he would welcome CBP
                          participation, however, CBP-Intel responded that its staff had never been
                          invited to participate.

                          Rather than working more closely together to coordinate CBP and ICE
                          intelligence operations, CBP and ICE field intelligence operations are drifting
                          apart. CBP created CCICC because the ICE-sponsored, San Diego
                          Intelligence Collection and Analysis Team (ICAT) was not meeting CBP’s

84
  Pulse and surge inspection operations are heightened enforcement operations that increase intensity of border security
screening at specified locations in response to threat information or to increase unpredictability.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 60
                         intelligence requirements. CBP was concerned that ICAT operations were too
                         narrowly focused on narcotics investigations. Consequently, CBP withdrew
                         from the San Diego ICAT and channeled its efforts toward its own CCICC.
                         Since its creation in October 2003, the workforce composition of the CCICC
                         has consisted mostly of Border Patrol agents.85

                         DHS officials provided us with extensive examples of how CBP and ICE
                         intelligence activities interact. These examples included teleconferences,
                         scheduled briefings, ad hoc meetings, and direct support for specific
                         operations. While some of these examples could have provided a forum for
                         effective intelligence exchange and collaboration on intelligence products, we
                         are concerned whether this collaboration ultimately materialized. Many of the
                         examples cited by DHS were examples of operational interactions and not
                         collaborative intelligence activities. CBP and ICE intelligence field staffs we
                         spoke with often pointed to a lack of meaningful intelligence collaboration
                         between the two organizations.

                         DHS officials said that intelligence analysis is best conducted at the
                         departmental level or at specialized centers. We agree that regional
                         intelligence centers, focused on the intelligence needs of ICE and CBP field
                         operations within those regions, may be a very effective and efficient means
                         of conducting intelligence analysis and producing intelligence products. They
                         could provide near-real time intelligence support to field operations.
                         However, for such regional intelligence centers to be effective, we
                         recommend CBP and ICE personnel involved in the production of intelligence
                         in the field be co-located and work collaboratively to produce intelligence
                         products. As embodied in the current ICE-led FIU structure, this kind of co-
                         location and collaboration is not occurring.

                         Intelligence analysis at the departmental level is strategic in nature. It should
                         be used by DHS planners to develop long-range enforcement strategies and
                         more narrowly, to support on-going national enforcement operations.
                         Intelligence products produced at the strategic level are heavily filtered.
                         Much of the information that is filtered out, while of minimal use to strategic
                         planners, would be valuable to investigators, inspectors, and Border Patrol
                         agents in the field.

                         In May 2005, a team convened by DHS Secretary as part of his 2SR sought to
                         develop proposals to enhance DHS’ intelligence capabilities. The team
                         characterized the current DHS intelligence situation as “multiple points of

85
  In May 2005, more than 18 months after CCICC’s creation, ICE assigned two investigators to the CCICC. However,
the ICE investigators, even though assigned to CCICC, continue to focus on conducting narcotics investigations.

                                     An Assessment of the Proposal to Merge CBP and ICE

                                                          Page 61
                          collection and gathering but without any unified coordination and
                          intelligence/information standards and processes.” The team also found that
                          “DHS components disseminate numerous reports and finished products…but
                          lack true integration and coordination across DHS components.” These
                          findings are affirmations of our conclusion that intelligence collaboration is
                          lacking within CBP and ICE.


        Overreliance on the Treasury Enforcement Communication System to
        Share Intelligence
                          Many ICE intelligence analysts and investigators believe that entering
                          intelligence reports and other information into TECS equates to effective
                          information sharing with their counterparts at CBP. However, CBP
                          employees have a differing view on the effectiveness of relying on TECS to
                          share intelligence. CBP employees said that they could not access some of the
                          most important ICE intelligence and other information in TECS. Retrieving
                          this information from TECS requires higher-level security access, which the
                          vast majority of CBP employees do not have.86 Some of this information
                          could be potentially valuable to CBP in terms of identifying emerging
                          criminal trends and threats at the borders.

                          For operational purposes and to promote data integrity, we do not advocate
                          unrestricted access to information contained in CBP and ICE databases.
                          Further, we understand that not all CBP and ICE personnel share the same
                          level of need-to-know. Nevertheless, the environment in which inspectors
                          now operate has changed since the events of September 11, 2001. Prior to the
                          terrorist attacks, inspectors needed access to information concerning
                          smugglers, money laundering, fraudulent documents, criminal records, etc.
                          This is sensitive information but usually not classified. Now, with the focus
                          on the counter-terrorism mission, much of the information relating to terrorists
                          and terrorist activities is classified.

                          Even though TECS was never designed to facilitate intelligence analysis, CBP
                          and ICE use it for that purpose. TECS does not provide an effective forum for
86
  TECS access is tiered to restrict access to especially sensitive investigative information, such as the identities of
certain informants, grand jury information, and information that is protected by law from disclosure. Before viewing any
records within these tiers, CBP personnel must first secure the permission of the originating ICE investigator or
intelligence analyst of that record. But, before CBP personnel can secure the originator’s permission, they must first
know which records to request. This highlights the inherent difficulty of a “pull-oriented” system like TECS. It puts
CBP intelligence analysts in the position of having to know which records may be useful to them before requesting
access to them. This can be difficult, if not impossible, to do when they do not have a full understanding of the records
available to them.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                              Page 62
                            intelligence analysts to produce, retrieve, review, or share intelligence.
                            Intelligence analysts are often unaware of what information is contained in
                            TECS and must hunt through the entire system to retrieve bits of needed
                            information in order to “connect the dots.” Indeed, ICE officials have
                            recognized this shortcoming and are piloting a system to more effectively
                            exploit the vast amounts of data contained in TECS.

                            Our concern regarding the overreliance on a computer system that is
                            inadequate for sharing intelligence was highlighted in a recent DOJ OIG
                            report, A Review of the FBI’s Handling of Intelligence Information Related to
                            the September 11 Attacks. The report discussed how the so-called “Phoenix
                            Memorandum” became “lost” in the FBI’s Automated Case Support System
                            (ACS). The Phoenix memorandum contained information collected by an FBI
                            special agent that noticed a large number of persons with suspected terrorist
                            linkages enrolled in aviation related studies in the United States. The FBI
                            special agent sent this information to FBI headquarters, using ACS, for further
                            analysis. However, this information was never acted on until after September
                            11, 2001. According to the OIG report, the information was lost because
                            ACS, like TECS, was not a system designed to “push” information to
                            analysts. More significantly, the analysts had to know that the information
                            existed in order to find it within ACS. Just as in the FBI’s case, CBP’s and
                            ICE’s dependency on TECS could similarly result in lost or undisclosed
                            intelligence.


           Lack of Collaboration to Produce Intelligence Reports
                            CBP and ICE usually produce Homeland Security Information Reports
                            (HSIRs) independent of each other that portray only a partial picture of the
                            threats to border security and risk reporting conflicting information.87 ICE-
                            Intel stated that it rarely worked with CBP-Intel to produce intelligence
                            products and has never “co-authored” an HSIR with CBP. CBP-Intel
                            similarly said that it has never “co-authored” any HSIRs with ICE-Intel, and
                            added that its intelligence products are not passed routinely to ICE.
                            Additionally, CBP-Intel stated that it never “co-authored” trends and analysis
                            type intelligence reports with ICE.

                            ICE produces two other products with intelligence value, neither of which is
                            produced by its CBP counterparts. The Report of Investigation (ROI) is used
                            by ICE-Intel to provide specific case information internally to ICE. However,
                            because ROIs are transmitted only via TECS, and because most CBP
87
     HSIRs are distributed to the law enforcement community.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 63
          employees lack the necessary TECS access, they cannot retrieve them. CBP
          inspectors and Border Patrol agents believe that intelligence contained in the
          ROIs could assist them in identifying emerging criminal trends and threats.

          The other ICE product, the Intelligence Information Report (IIR), is used to
          communicate intelligence and other information to the Intelligence
          Community. However, as is the case with ROIs, most CBP employees cannot
          retrieve IIRs because they lack the necessary security access. Currently, CBP
          intelligence analysts review classified IIRs, remove or “sanitize” the classified
          information, and reissue the IIRs in an unclassified format. While this is an
          acceptable process in light of the lack of inspector security access, potentially
          valuable information is withheld from those responsible for the frontline
          defense of our borders. We suggest the CBP revisit its policy concerning
          security clearances for inspectors in light of the changed environment at
          POEs.


Consequences
          The lack of face-to-face collaboration and the overreliance on TECS as a
          means to share intelligence and coordinate operations has resulted in few
          cases in which CBP and ICE did not know about important intelligence that
          the other organization had for an extended period of time.

          An example of this occurred when CBP interdicted several dozen aliens, over
          a period of several weeks, who were from special interest countries using
          fraudulent documents from a third country. CBP inspectors and Border Patrol
          agents made the apprehensions independent of one another. As a result, the
          initial apprehension reports were individually entered into TECS by the
          arresting CBP inspectors and Border Patrol agents. Through subsequent
          interviews with the apprehended individuals, additional information was
          uncovered that indicated that they all may have been using the same
          smuggling organization and routes. CBP-Intel noticed the trend, and
          “connected the dots” that could have led to a broader investigation. CBP-Intel
          entered this intelligence into TECS. ICE, however, was unaware of this
          intelligence and did not notice it in TECS for several weeks.

          This situation was caused by two problems. The first is the overreliance on
          TECS as a collaborative intelligence-sharing tool, which it is not. This
          example demonstrates that valuable intelligence can go unnoticed because
          TECS does not provide a platform for intelligence analysts to readily retrieve
          and review intelligence reports. The information in TECS appeared as
          disparate data points to ICE investigators for several weeks. The second

                     An Assessment of the Proposal to Merge CBP and ICE

                                          Page 64
                problem is the lack of face-to-face collaboration between CBP and ICE
                intelligence analysts.

                CBP and ICE use TECS for sharing intelligence and other information.
                However, the limitations of TECS warrant closer, frequent, and more
                structured face-to-face interactions among the staff of the two organizations to
                share intelligence and collaborate on joint intelligence products. Moreover,
                the discussion above reflects an insularity of thought regarding what
                intelligence is important and what it may be used for, that can be attributed to
                the existing organizational structure that separates CBP’s and ICE’s
                intelligence activities. The discussion also reflects an unnecessary duplication
                of intelligence activities and a potential need for broader analytical products
                than either agency now produces.


The Role of the Directorate of Border and Transportation Security
                Although BTS leadership characterized its role as that of an integrator for
                CBP and ICE, senior managers at CBP and ICE believe BTS needed to
                provide better assistance in integrating their functions. Further, they maintain
                that BTS did not adequately address and resolve the issues they encountered
                and those that we identified in our report. CBP and ICE managers and
                employees in the field dismissed the value of BTS as an integrator, saying it
                had not resolved their issues.

                There are two principal causes for this concern. The first lies in the way BTS
                was structured. That is, it apparently did not have the authorities or resources
                necessary to integrate CBP and ICE functions. The second is that BTS’ roles
                and responsibilities in relation to CBP and ICE were never clearly articulated.

                In this section we discuss BTS’ inability to overcome the management hurdles
                created by the current organizational structure. We describe how BTS was
                inadequately resourced to perform its mission and that organizational roles
                and responsibilities were never clearly defined. We identify some of the
                consequences of BTS’ coordination problems.


     Inadequate Resources to Perform Mission
                BTS was not empowered with the necessary authorities to manage a
                bureaucracy. It lacked line and budget authorities over CBP and ICE. Neither
                the HSA nor DHS management directives bestow budget authority upon BTS.

                           An Assessment of the Proposal to Merge CBP and ICE

                                                Page 65
                           Without these important tools, BTS could not induce CBP and ICE to
                           coordinate and integrate operations.88 Further, because BTS did not control
                           the budgets of CBP and ICE, it could not synchronize their respective
                           missions and priorities, which led at least indirectly to the issues previously
                           discussed.

                           BTS did not have sufficient staff to adequately oversee the organizations’
                           operations and often did not have staff with the right operational expertise.
                           BTS had a small management staff relative to the size and complexity of the
                           directorate. The staff was inadequate for managing the integration function,
                           strategic planning, policy development, legislative agendas, staffing issues,
                           and budgets. BTS experienced the same challenges that DHS did, trying to
                           establish a brand new organization without the time or resources to conduct a
                           proper transition while simultaneously staying totally focused on the security
                           mission. During the first two years of its existence, BTS was overwhelmed by
                           incessant demands to produce information. BTS’ small management staff
                           spent much of its time “tracking stuff down.”

                           Compounding BTS’ small staff size was a heavy reliance on detailees –
                           employees temporarily assigned to BTS from component agencies for a period
                           of weeks or months. While this frequent rotation of staff brought a field
                           perspective to BTS, it did not support continuity of processes and inhibited
                           development of long-term policies and procedures.

                           Many CBP and ICE managers perceived that part of the problem in obtaining
                           decisions and direction from BTS stemmed from the lack of expertise of the
                           BTS staff. From their viewpoint, the BTS staff did not have sufficient
                           understanding of border enforcement and security operations to formulate
                           policies and render decisions. Some CBP and ICE managers said that BTS
                           seemed to be “off base” with its decisions and attributed this phenomenon to
                           BTS staff not having operational experience.


         Roles and Responsibilities Not Defined
                           CBP and ICE managers complained that BTS never articulated what BTS’
                           roles and responsibilities were in managing the day-to-day and strategic
88
  BTS’ authority over ICE and CBP budgets could be presumed, but was diluted by other currents. The department,
with little time to prepare its first budget, sought to consolidate budget preparation in the Management Directorate,
leaving little time or opportunity for BTS to play a role. Also, BTS lacked the staff to analyze, arbitrate, or challenge the
respective budget proposals. DHS headquarters managers tended to bypass BTS and go directly to ICE or CBP when
they needed quick information or a response, and tended to be lax about back channel communications, which allowed
CBP and ICE to likewise bypass BTS when seeking resources or operational decisions.

                                         An Assessment of the Proposal to Merge CBP and ICE

                                                                Page 66
          operations of CBP and ICE. DHS’ leadership, from the day of its inception,
          was focused on the protection of the United States. Sufficient energy or
          resources to building a department and establishing clear roles and
          responsibilities were not were not delegated to BTS, CBP, and ICE.

          The undefined roles and responsibilities created an environment of
          uncertainty. According to one senior CBP manager, the uncertainty created
          an “ethos of paralysis” to avoid disputes and conflicts over roles and
          responsibilities and creating confrontation.


Consequences
          According to CBP and ICE officials, BTS did not control the competition
          between the two organizations. This environment magnified some of the
          issues that we discussed and reinforced antagonisms. CBP and ICE often
          appeared to work at cross-purposes. Rather than force CBP and ICE to work
          together, BTS led by the maxim “work it out.” BTS was not viewed by its
          leaders as having full responsibility for all of its components’ activities and
          requirements.

          CBP and ICE managers said that issues sent to BTS for action were often
          delayed for months. CBP and ICE managers provided some examples of what
          they deemed slow decision-making by BTS:

               •   CBP developed new rules pertaining to the Arrival Departure
                   Information System (ADIS). CBP worked on the new rules for over
                   one year and sent them to BTS for review in February 2004. BTS
                   subsequently decided to have TSA review the rules. As of March
                   2005, CBP was still waiting for BTS’ comments.

               •   CBP’s Immigration Security Initiative (ISI) is a program to assign
                   CBP inspectors to overseas airports to pre-screen passengers bound for
                   the United States. CBP proposed that it pilot the program in
                   Amsterdam, Netherlands. Again, BTS delayed making a decision,
                   preferring to have it reviewed by other organizations. The proposal
                   remained with BTS for six months pending a decision until it received
                   some unexpected, high-level interest. During a conversation between
                   CBP officials and White House staff concerning an upcoming meeting
                   with President George W. Bush and the President of Poland,
                   Aleksander Kwasniewski, CBP officials suggested that the President
                   propose that the ISI be piloted in Warsaw, Poland. BTS immediately


                      An Assessment of the Proposal to Merge CBP and ICE

                                           Page 67
       approved CBP’s proposal and President Bush announced the
       program’s initiation in Warsaw in a joint statement issued on January
       30, 2004.

   •   BTS did attempt to clarify DRO and CBP responsibilities in regard to
       detention issues. One of the purposes of this action was to provide
       information to legacy USCS managers unfamiliar with immigration
       processes. BTS took a year to develop the memorandum and issued it
       in June 2004. DRO and CBP managers said that as the memorandum
       developed, it became “very watered down.”

   •   CBP needed to define minimum security standards for shippers
       participating in CBP’s Customs-Trade Partnership Against Terrorism
       (C-TPAT) program. C-TPAT identifies high-risk shipping containers
       and targets them for additional inspection when they arrive in the
       United States. CBP made its proposals to BTS. CBP managers feel
       that BTS became focused on complaints and concerns of the shippers
       rather than focusing on the security issues. As of March 2005, the
       proposals had been with BTS pending a decision for 10 months.

CBP and ICE managers also complained that policy decisions were sometimes
made without consulting them or that decisions were made without fully
considering their views. According to CBP and ICE managers, this
sometimes led to less than optimal decisions by BTS. They cited the
following examples:

   •   CBP managers believed that making the United States Visitor and
       Immigrant Status Indicator Technology (US-VISIT) an independent
       entity and not placing it under the control of CBP was a bad decision.
       US-VISIT development and deployment processes were removed from
       the control of the ultimate user – CBP. According to CBP managers,
       CBP now has no control over US-VISIT policy and BTS has done a
       “terrible job” bridging US-VISIT development with CBP operations.
       As a result, they contend that US-VISIT is not fully integrated with
       CBP requirements even though US-VISIT is at the core of CBP
       operations – controlling entry into the United States.

   •   ICE managers complained of one instance where BTS made a decision
       involving DRO operations without first consulting DRO (or ICE). CIS
       was developing new rules concerning security background
       investigations for aliens who have been granted immigration benefits
       by the courts. After discussing the issue with CIS officials, BTS


          An Assessment of the Proposal to Merge CBP and ICE

                               Page 68
                      decided to assign the responsibility for conducting the security
                      background checks to DRO. ICE officials learned of the decision
                      through casual conversation with CIS officials.


Other Organizational Structure Concerns
               In this section we discuss other concerns we have with the current alignments
               of three organizations within ICE. These are FPS, FAMS, and the FDL. The
               missions of two organizations within ICE, FPS and FAMS, do not align at all
               with the customs and immigration enforcement missions of either CBP or
               ICE. In addition, the current alignment of the FDL in ICE does not lend itself
               to providing the full range of fraudulent document analysis needed by DHS
               and will likely lead to the FDL’s loss of capability. Customs and immigration
               enforcement is a critical area of national policy. Leadership needs to be able
               to focus on a coherent unified mission to safeguard the nation’s borders. We
               conclude that the relocation of FPS and FAMS elsewhere in DHS and the
               realignment of the FDL with CBP should be considered.


    Federal Protective Service
               Where to best place FPS has been a topic of discussion for years, long before
               DHS was established. The congressional appropriations committee for the
               General Services Administration (GSA) had given consideration to moving
               FPS out of GSA, noting that FPS, a law enforcement organization, did not
               belong within GSA, a real estate management and logistics support
               organization. Another effort to realign FPS occurred after the Murrah
               Building bombing in Oklahoma City in 1995. At that time, Congress
               considered moving FPS to the United States Marshals Service (USMS).

               FPS’ mission, the protection of federal office buildings, has no association
               with customs and immigration enforcement. Our interviewees were uncertain
               as to why FPS was aligned with ICE except that it appeared to them that
               DHS’ objective was to consolidate law enforcement missions into one
               organization. Interestingly, FPS officials stated that they do far more work
               with other DHS organizations (Federal Emergency Management
               Administration (FEMA), CIS, CBP, United States Secret Service (USSS),
               USCG, and Information Analysis and Infrastructure Protection (IAIP)) than
               they do with ICE. Because of the multiple interactions that FPS has with
               other DHS organizations, some FPS officials believe the organization could
               effectively perform its function elsewhere. FPS’ mission aligns with USSS’

                         An Assessment of the Proposal to Merge CBP and ICE

                                              Page 69
           Uniformed Division and USMS, which perform similar physical security and
           protection functions.

           ICE management faces significant challenges integrating FPS into its
           operations because of FPS’ source of funding. FPS is funded through “rent”
           received from federal organizations that are tenants in GSA buildings and
           through reimbursable agreements. This rent is paid to FPS for security
           services provided to the tenant organization. FPS also receives funds through
           reimbursable agreements, which are contracts between FPS and a GSA tenant
           by which FPS agrees to provide additional services for additional fees. FPS
           can only provide services if those services are paid for through one of these
           mechanisms. This operational limitation reduces ICE’s flexibility and options
           for using FPS to support its immigration and customs enforcement missions.

           FPS officials suggested that the government review some FPS responsibilities
           that have been delegated out to other federal agencies over the years. These
           include the following organizations:

                  •   Pentagon Police
                  •   FBI Police
                  •   U.S. Mint Police
                  •   Central Intelligence Agency Police
                  •   Natural Resources Police
                  •   Mount Weather Police (FEMA)
                  •   National Institutes of Health Police
                  •   Department of Commerce Police
                  •   Bureau of Reclamation Hoover Dam Police
                  •   Department of Justice Guard Authority

           FPS suggested that if all or some of those authorities were returned to FPS,
           that the scope and size of the “new” FPS mission would justify a stand-alone
           organization within DHS or elsewhere in the government. However, the
           examples above also suggest that the FPS function need not be tied to DHS.
           Three possible solutions that would more closely align FPS’ mission with
           those of organizations with like missions are FPS could be transferred to the
           Uniformed Division of the USSS or DOJ’s U.S. Marshals Service, which have
           allied physical security responsibilities, or FPS could be put under the control
           of DHS’ Office of Security.


Federal Air Marshal Service


                      An Assessment of the Proposal to Merge CBP and ICE

                                           Page 70
         FAMS’ mission, the protection of domestic civil aviation, has little association
         with customs and immigration enforcement. One reason cited for moving
         FAMS to ICE was the development of a surge capability during periods of
         heightened threats to the airline industry. The surge capability called for
         training ICE investigators in FAMS operations. Once trained, the ICE
         investigators would be paired with FAMS on flights during periods of
         heightened security. To date, several hundred ICE investigators have been
         cross-trained. This external surge capability has, however, only been
         exercised once during a heightened alert period in January 2004.

         Another motive for moving FAMS to ICE was to create a GS-1811 career
         path for FAMS, but this initiative never came to fruition. The GS-1811
         designation would provide FAMS with periodic ground-based assignments to
         support other DHS law enforcement operations. The BTS Under Secretary
         denied the conversion of the FAMS GS-1801 positions to GS-1811 positions
         because the primary duties of the latter position must involve criminal
         investigations. FAMS positions do not involve a significant amount of
         investigative work.

         There is another curiosity about the current alignment with FAMS in ICE.
         FAMS stills receives its administrative support and funding from TSA. The
         reason for continuing this relationship, according to FAMS officials, has to do
         with the TSA’s and FAMS’ differing pay systems and the expense of
         converting FAMS to the ICE pay schedule. Because of this situation, it is
         somewhat misleading to say that FAMS is part of ICE.

         FAMS officials complained that many of the expectations raised when FAMS
         was moved to ICE have not come to fruition. The surge capability that has
         been developed, and not exercised very often, could just as easily be managed
         elsewhere. The GS-1811 conversion has not occurred and there is no
         imminent prospect for ground-based law enforcement assignments for FAMS
         within ICE. Finally, FAMS is still administratively a component of TSA.
         Returning FAMS to TSA could simplify the management of ICE and move
         FAMS closer to its airline security mission.


Forensic Document Laboratory
         We suggest aligning the FDL with CBP. In the course of enforcing
         immigration and customs laws, inspectors and investigators encounter
         fraudulent documents. INS’ FDL was considered a premier international
         authority on the subject of fraudulent travel documents. Comprised largely of
         former inspectors with years of experience in examining documents, it

                   An Assessment of the Proposal to Merge CBP and ICE

                                        Page 71
serviced INS inspectors and investigators with forensic examination of travel
documents and training. In the past, inspectors, Border Patrol agents and
others in INS would forward seized documents to the FDL for examination.
FDL officials said that 90 percent of the information that they used to develop
their intelligence products and employ in their forensic work came from the
inspectors. Likewise, most of the FDL’s support was provided to inspectors.
The FDL was transferred to ICE during the re-organization that created ICE
and CBP.

In 2004, FDL officials, acknowledging the findings by the National
Commission on Terrorist Attacks Upon the United States (9/11 Commission)
that identified shortcomings in travel document analysis, submitted plans to
ICE management to create a trend analysis capability within FDL. ICE took
no action on FDL’s proposals. In late 2004 and early 2005, CBP, recognizing
the same deficiency, initiated steps to create a trend analysis capability within
CBP. The entity CBP created is called the Fraudulent Document Analysis
Unit (FDAU). During the initial planning for the FDAU, CBP officials began
developing procedures with FDL officials to coordinate operations and to
ensure a seamless process for examining and analyzing fraudulent documents
between the two organizations. Further development stalled when these plans
were presented to ICE management. ICE management wanted to develop a
formal MOU and to negotiate the transfer of staff and funds from CBP to ICE
to support the effort. FDAU and FDL officials realized that developing a
MOU would be a time consuming, if not futile, effort and decided that the two
organizations would work together informally. Interestingly, in a letter from
ICE to Congress, dated May 10, 2005, concerning enhancing FDL’s expertise
to combat the illegal use and proliferation of fraudulent documents, ICE
identified the need for a trend analysis capability within FDL. The letter made
no mention of CBP’s FDAU and no action has been taken to establish a trend
analysis capability within FDL.

ICE officials contend that ICE is FDL’s biggest customer. They cite
completed forensic examination referrals as evidence. During the period
August 1, 2004 through July 31, 2005, FDL completed a total of 4,092
forensic examination services. Of these, 2,238 were completed for ICE and
481 were completed for CBP. These numbers only tell part of the story. First,
some of the forensic exanimation referrals presented by ICE to the FDL
originated as a result of documents seized by CBP inspectors and by CIS
officers. Second, much of the support provided by FDL is through the Image
Storage and Retrieval System (ISRS). ISRS is a database of travel documents
that have been used in the past by aliens to legally enter the United States. In
the past, when inspectors interviewed aliens at POEs that presented suspected
fraudulent documents, the inspectors would contact the FDL via telephone to

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 72
                            verify the authenticity of the travel documents. The FDL would query the
                            ISRS database to determine if the documents had been presented before and
                            whether they were fraudulent. This type of contact between FDL and the
                            POEs was constant and frequent. However, in the last 12-24 months, ISRS
                            workstations have been deployed to most of the POEs. This enables the
                            inspectors to query ISRS directly without involving FDL staff, making the
                            query process more efficient. Now, the ISRS queries are transparent to the
                            FDL. These queries statistics are not captured so the daily support that FDL
                            provides to the CBP inspectors is understated.

                            The FDL’s ability to continue to provide expert service is likely to decline.
                            Much of FDL’s success is due to its recruitment of veteran inspectors with
                            extensive experience in identifying fraudulent documents. However, ICE has
                            changed the FDL’s hiring policy, requiring that the FDL hire only
                            investigators or intelligence analysts. Absent a change in recruiting practices
                            to allow the FDL to hire former inspectors, its ability to continue to provide
                            expert forensic service is likely to erode.

                            FDL and FDAU provide complementary examination and analysis of
                            fraudulent documents. In light of the 9/11 Commission report findings, it is
                            illogical and ill advised to permit these two organizations to operate
                            separately. A far better solution is for both entities to be managed within one
                            organization. Because much of the daily operational support is provided to
                            CBP, FDL and FDAU should reside in CBP. Absent locating the two in one
                            organization, physical collocation is an alternative solution.


Organizational Options
                            According to the announcement issued by DHS on January 30, 2003, the
                            current organizational structures were supposed to:

                                    “…enable Department leadership to establish coherent policies
                                    for the incoming agencies and … provide the opportunity to
                                    reduce duplication of efforts and … ensure improved
                                    information-sharing."89

                            Our review suggests that the organizational structure has not accomplished the
                            goals set forth in DHS’ announcement. Clear policies are still needed and
                            coordination of functions has not been achieved; duplication of effort has not
                            been eliminated, and redundant capabilities are being developed by CBP; and
89
     DHS, “Border Reorganization Fact Sheet,” January 30, 2003.

                                        An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 73
information and intelligence sharing is not as effective as it could be due to
the formation of informational stovepipes.

It is difficult to quantify the extent to which the border security mission has
been impacted as a result of the current organizational structure. Reliable
quantitative data is not available to support this type of analysis in all areas.
Furthermore, because the DHS organization is recent, in many cases there is
insufficient data on the performance of the new organizations to compare
against past performance statistics.

Most of the issues that we discussed were based on anecdotal and testimonial
evidence. However, it bears repeating that we spoke to senior officials, field
supervisors, and field employees from all major skills, operations, and
headquarters and field offices within BTS, on the border and inland, and the
employee unions representing CBP and ICE employees. We conclude that the
preponderance of the information, the breadth of sources of the information,
the common themes across the country and across organizations, and the
emotion with which it was communicated are compelling. We found
confusion or disagreement about mission, conflict about agency relations and
authorities, and institutional insularity, redundancy, and stovepiping that
require corrective action.

Contributing to the frustration is the perception on the part of CBP and ICE
field employees that the two organizations lack clear missions and vision.
While CBP and ICE management have attempted to quell field employees’
concerns by equalizing pay inequities between the INS and USCS
investigators in ICE, for example, they have not made much progress building
strong corporate cultures. Based on what we were told by employees
throughout the BTS, CBP and ICE, we believe that the present organizational
structure has not accomplished what it was tasked to do when it was
established on January 30, 2003.

A number of organizational alternatives to the current structure have been
proposed. One option would be to eliminate BTS and have CBP and ICE
report directly to the DHS Deputy Secretary. In another option, DHS could
create more effective mechanisms to coordinate CBP and ICE functions by
strengthening BTS and crafting more effective MOUs. Finally, DHS could
merge CBP and ICE into one border security agency. We will discuss these
options below. We also will discuss possible changes in the organizational
alignments of FPS, FAMS, and FDL.




           An Assessment of the Proposal to Merge CBP and ICE

                                Page 74
Option 1: Customs and Border Protection and Immigration and Customs
Enforcement Report to the Deputy Secretary
          One option for reorganizing CBP and ICE is the elimination of BTS, with
          CBP and ICE reporting directly to the DHS Deputy Secretary. This option
          would transfer the responsibility for management of CBP and ICE from the
          BTS Under Secretary to the DHS Deputy Secretary. While it would eliminate
          the BTS middle management layer, this option would not address the issues
          that we identified as stemming from the separation of customs and
          immigration enforcement functions.

          Reorganization along these lines would not address the primary source of
          many of CBP’s and ICE’s problems – the separation of the functions of the
          two agencies. This option does not account for the fact that the current
          organizational structures of CBP and ICE are the source of many of the
          coordination problems and the crescendo of frustration emanating from their
          employees during our interviews. Nor would this option restore the customs
          and immigration enforcement continuums with their interconnected and
          interdependent functions. A direct reporting of the two agencies to the
          Deputy Secretary would not resolve the coordination problems between
          CBP’s apprehension function and ICE’s detention function, or CBP’s
          inspections function and ICE’s investigations function; and it would not
          improve coordination of intelligence activities between CBP and ICE.

          In addition, with the integrator function further removed from the two
          agencies’ day-to-day operations, coordination of CBP’s and ICE’s functions
          would not improve. The programs would compete with other DHS programs
          for the time and attention of the Deputy Secretary. The Deputy Secretary
          already has a host of responsibilities with twenty-plus other DHS
          organizations reporting to him along with the “robust dotted line” authority
          over financial management, procurement, and other services. These include
          the Directorates of Management, Information Analysis and Infrastructure
          Protection, Science and Technology; and other agencies with significant
          missions and resources such as CIS, USSS, and USCG. This reporting
          scheme may make CBP and ICE coordination more difficult.




                    An Assessment of the Proposal to Merge CBP and ICE

                                         Page 75
Option 2: Create More Effective Coordination Mechanisms
           Strengthen BTS to Better Integrate Customs and Border Protection and
           Immigration with Customs Enforcement Functions

           Providing BTS clear budget formulation and execution authority over CBP
           and ICE would strengthen one of the significant deficiencies in the
           organization. This would help enable BTS to compel coordination of
           missions, priorities, and resources between the two organizations.

           If BTS is to manage CBP and ICE, it requires more staff. Additional staff is
           needed to provide long-term attention to program evolution and resources, to
           coordinate interdependent functions and relationships among subordinate
           organizations and with outside agencies, to arbitrate disputes and enforce the
           resultant decisions, to develop and implement new policy, and to impose
           accountability. The likely sources for such staffs are managers and personnel
           from CBP and ICE. Moving senior CBP and ICE managers and staff from
           their respective organizations and placing them in BTS would create some
           unnecessary duplications with the current management structures of CBP and
           ICE.

           Logically, BTS’ capability would also be strengthened if its Under Secretary
           could affect the selection, promotion, and performance awards of the program
           managers upon which integration depends. The provision of this authority to
           the BTS Under Secretary, however, would conflict with and dilute that of the
           respective heads of ICE and CBP.

           Giving BTS the additional authorities, increasing the size of its staff, and
           reducing the autonomy of CBP and ICE leadership in a sense creates a merger
           of CBP and ICE under BTS. However, this option would still leave the
           institutional barrier between CBP and ICE in place and facilitate the
           persistence of operational and information stovepipes. We view this course of
           action as less than an ideal solution.

           Develop More Effective Memorandums of Understanding

           We heard some suggestions from CBP and ICE managers that the current
           situation could be corrected with more and stronger MOUs. Other CBP and
           ICE managers view MOUs not as a solution, but as symptomatic of the
           problem. That is, they believe CBP and ICE are unable to cooperate and
           coordinate effectively because of the gaps that separate them and require
           formal treaties to govern their efforts.


                     An Assessment of the Proposal to Merge CBP and ICE

                                          Page 76
           MOUs are time consuming to negotiate and rarely all-inclusive. MOUs
           generally lack the specificity needed to provide the real guidance that is
           needed on a day-to-day basis. They need to be, but rarely are, reviewed
           periodically and updated to reflect the changing operational environment. In
           addition, MOUs must be enforced and disputes arising under them must be
           adjudicated. We previously reported that the lone MOU that does exist has
           not corrected the problems that it was intended to resolve; we are not
           optimistic that MOUs can address the dysfunctions we identified.


Option 3: Merge Customs and Border Protection / Immigration and
Customs Enforcement
           In our judgment, the optimal solution is to remove the institutional barrier
           between CBP and ICE, and consolidate the customs and immigration
           enforcement functions into a single border security agency. The almost
           universal message we heard from inspectors, Border Patrol agents,
           investigators, and DRO officers is that they perceive the current problems
           between CBP and ICE to be unresolvable under the current structure. They
           view the current structure as an “unnatural separation” of the interdependent
           functions that were once part of the immigration and customs enforcement
           continuums.

           Integration efforts like “One Face at the Border” were implemented to set the
           stage for coordination and the elimination of stovepipes. As such, they
           represent steps toward a more cohesive border enforcement environment. By
           contrast, difficulties at the various “touch points” between CBP and ICE –
           apprehension and detention and removal, interdiction and investigation, and
           intelligence – present barriers to more seamless border enforcement. Merging
           these functions would preserve the powerful law enforcement tools originally
           envisioned for ICE and eliminate the source of friction between the two
           organizations. A merged organization, with a single chain of command,
           would coordinate missions, priorities, and resources to ensure a
           comprehensive border security program.




                     An Assessment of the Proposal to Merge CBP and ICE

                                          Page 77
             Proposed Organization for Border Security Agency


                                        Commissioner or
                                        Assistant Secretary


               International                    Deputy                    Intelligence
                  Affairs




 Detention
                               Investigations            Inspections                     Border Patrol
 & Removal




               Air & Marine                                              Forensic
                Operations                                             Document Lab




If CBP and ICE are integrated and merged into one organization, BTS is not
needed. The role of integrator, adjudicator, and enforcer shifts to the new
border security agency head. Other organizations currently under BTS
management would require realignment. FLETC, the organization
responsible for training employees of the new border security agency would
logically be aligned with it. US-VISIT, the program that manages the entry
and exit of foreign visitors to the United States and which has a strong nexus
to the inspections function, would also logically be aligned with the new
border security agency. The placement of TSA is less clear. It could be
aligned under DHS, reporting to the Deputy Secretary. In light of the
disposition of the remaining elements, BTS could be eliminated.

We recognize that a merger will have associated financial and human costs.
However, consideration must also be given to the potential costs of
maintaining the status quo. During a January 2005 Homeland Security and
Governmental Affairs Committee hearing, Senator Susan M. Collins
compared DHS to a road under construction. She said that DHS was
established without mapping out a precise route leading to an organization
that was “sufficient, effective, and durable to protect” the United States.
The Senator specifically mentioned concerns about the efficacy of the current
CBP and ICE structures. Further, she said now was the time to assess DHS’
performance and make changes where needed. Indeed, several significant

              An Assessment of the Proposal to Merge CBP and ICE

                                     Page 78
               changes have already been made to BTS’ structure. AMO was transferred to
               CBP from ICE and ODP was transferred from BTS to the Office of State and
               Local Government Coordination and Preparedness. These structural changes
               indicate an acknowledgement by DHS leadership that the initial structure of
               the organization may not have been optimal and that changes should be made
               when appropriate.

               Within the ranks of CBP and ICE, many legacy employees still maintain good
               relationships with their peers from their former organizations, INS and USCS.
               Those experienced inspectors, Border Patrol agents, and investigators attempt
               to overcome the organizational divide in order to secure the border. Their
               efforts have been described by some employees as the primary means of
               coordination between the organizations. However, under the current structure,
               many of these legacy employees are opting for early retirement or separation.
               Their beneficial relationships and expertise will be lost in their absence. DHS
               has a small window of opportunity to merge the organizations while these
               legacy employees’ expertise and good will can ease the difficulty of the
               transition. We encourage DHS to consolidate CBP and ICE in the near future
               while the legacy employees are available to facilitate the change.


    Other Suggested Organizational Changes
               FAMS and FPS should not be included in the new border security agency.
               We believe that these organizations would be better served if they were
               aligned with organizations with more similar missions. The logical
               realignment for FAMS is with TSA where both organizations have a domestic
               airline security mission. FPS could be aligned with a broader physical
               security mission within DHS, such as the Office of Security or the Uniformed
               Division of the USSS, or perhaps with another department that has similar
               protective functions such as the U.S. Marshals Service. Or, it could be
               returned to GSA. Finally, no matter what decision is made regarding
               reorganizing the CBP-ICE structure, we suggest the realignment of FDL with
               CBP.


Recommendations for DHS Second Stage Review Implementation
               Our review effort identified a number of important concerns in the
               relationship of CBP and ICE that we believe are linked to the current
               organizational structure. We judged that the current organizational structure
               was fostering an environment characterized by conditions DHS was forged to

                         An Assessment of the Proposal to Merge CBP and ICE

                                              Page 79
eliminate, namely: duplication and redundancy, poor coordination, and
limited information sharing. We concluded that the best means to address the
issues described in our report was to merge CBP and ICE.

DHS has elected, however, not to merge the two entities. While we were
conducting our review, the Secretary initiated a review (2SR) of DHS
operations and structure. On July 13, 2005, after conducting a review of the
operational and organizational aspects of the Department, the Secretary made
the considered decision not to merge ICE and CBP. Instead, he placed them
in a direct reporting relationship to the Deputy Secretary.

In light of the Secretary’s decision, we make several recommendations for
implementation within the 2SR framework to help address the issues we
identified. DHS leadership should anticipate the extensive nurturing
requirement associated with these fairly new agencies and expect to devote
significant hands-on attention to their management and coordination needs.
ICE and CBP operations will require intensive monitoring and senior
management will have to be available to address unanticipated issues
requiring immediate attention.

Without BTS to coordinate and integrate CBP and ICE functions, DHS must
intensify its attention and commitment to address interagency concerns
between CBP and ICE. Under the 2SR arrangement, this effort will require
considerably more time and attention from senior leadership, and increased
staffing and resourcing of coordinating bodies.

The Secretary and Deputy Secretary’s staff, and the new Policy and
Operations Coordination Units will require significantly more staff expert in
CBP and ICE operations to manage coordination between CBP and ICE than
were present in BTS. These additional staff should not simply be detailed
from CBP and ICE, but should instead be drawn from newly created positions.

The success of the 2SR alignment will hinge in large part on the resulting
organizations’ ability to craft solutions to CBP and ICE issues in the following
areas:

       •   Defining and communicating roles and responsibilities
       •   Planning and budgeting
       •   Setting and enforcing priorities
       •   Maintaining control, monitoring and arbitrating disputes
       •   Sharing information



           An Assessment of the Proposal to Merge CBP and ICE

                                Page 80
To address concerns in these areas, we recommend that the Deputy Secretary:

   1. Establish that the Under Secretary for Policy and the Director of
      Operations Coordination have authority over CBP and ICE with
      respect to policy and operational coordination. These offices’ purview
      must be re-enforced by the Secretary and Deputy Secretary’s actions.
      Accordingly, it will be essential for the Secretary and Deputy
      Secretary to channel related discussions and decisions with CBP and
      ICE through these offices.

   2. Develop a vision of how ICE and CBP are to work together and
      contribute to the overall DHS mission. Consistent with this vision, the
      Operations Coordination Office and Under Secretary for Policy should
      work with CBP and ICE to define and set their respective roles and
      responsibilities. At minimum, clarification needs to be provided in the
      following areas:

          •   ICE’s role at POEs and the establishment of its jurisdictional
              authorities in consideration of CBP authorities.

          •   CBP’s role in referring case leads to ICE; ICE’s role in
              responding to case referrals from CBP.

          •   ICE DRO’s transportation and CBP support roles.

   3. Communicate roles and responsibilities to all levels of CBP and ICE
      so that they are understood throughout the organizations. It is
      paramount that CBP and ICE employees understand their individual
      and institutional roles and responsibilities and the relationship of these
      to the roles and responsibilities of those of the other agency.

   4. Monitor CBP and ICE field performance to ensure adherence to DHS’
      vision and guidance, and accountability to related goals,. To support
      this accountability, DHS leadership should develop performance
      measures and a reporting mechanism that convey an accurate picture
      of current operations to senior managers. In addition to performance
      metrics to measure internal CBP and ICE operations, a set of joint
      performance metrics should be developed to gauge the extent of
      interaction and coordination between CBP and ICE, as well as the



          An Assessment of the Proposal to Merge CBP and ICE

                               Page 81
                                  level of support each organization extends the other.90 Resulting
                                  metrics should assist the organizations in arriving at shared
                                  expectations about their respective obligations and level of support.

                              5. Develop a formal mechanism to assure that the Under Secretary for
                                 Management and the CFO collaborate with ICE and CBP management
                                 to develop a process for CBP and ICE to increase participation in one
                                 another’s budget formulation and strategic planning processes. This
                                 budgeting and planning interaction should include avenues for CBP
                                 and ICE to comment on and influence one another’s budgets and
                                 strategic plans. These efforts should be pursued with the aim of
                                 achieving an effective balance of resources and ensuring adequate
                                 support for major operational initiatives across institutional
                                 boundaries. In addition, the CFO should track budget execution to
                                 guarantee compliance with agreed-to budget and plans.

                              6. Direct the Operations Coordination Office to undertake an interagency
                                 procedural review process to ensure that ICE and CBP procedures
                                 support agreed upon roles and responsibilities and are compatible with
                                 one another at touch points. Where necessary procedures do not exist,
                                 the Operations Coordination Office should direct development of
                                 needed procedures, and notification and information exchange
                                 protocols.

                              7. Ensure that the Operations Coordination Office closely monitors the
                                 development of redundant capabilities within CBP and ICE as
                                 indications that resource sharing arrangements are not proceeding
                                 smoothly. Attention should be given to:

                                       •   CBP’s plans to expand the number of enforcement officers and
                                           enlarge their jurisdiction.

                                       •   CBP’s use of Border Patrol agents in an investigative capacity.

                                       •   CBP’s fraudulent document analysis capability.

                                       •   CBP’s expanding intelligence apparatus.

                              8. Require that the Policy Office engage in coordination with CBP and
                                 ICE to align priorities with an interagency bearing (e.g., detention bed

90
  One such performance measure could, for example, reflect the average number of beds allocated to aliens apprehended
by CBP per day.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 82
   space, investigative case selection) through a consultative process.
   Pursuant to this process, the Policy Office should monitor
   implementation of these priorities through performance tracking and
   periodic interagency reviews including assessments of related resource
   deployments.

9. Establish a forum for coordinating among staff from the Secretary and
   Deputy Secretary’s Office, Under Secretary for Management, CFO,
   Under Secretary for Policy, Director of Operations Coordination, CBP
   Commissioner, and ICE Assistant Secretary to discuss issues related to
   the ICE-CBP relationship.

10. Create joint CBP-ICE bodies to oversee the implementation of
    interagency coordination efforts and MOUs. These bodies could
    respond to requests to deviate from plans, make adjustments, provide
    clarification, and resolve different interpretations of related guidance.

11. Develop a headquarters-level joint CBP-ICE standing committee to
    manage the relationship between the two. This committee could
    address a revolving agenda on CBP-ICE touch points and develop
    interagency policies and procedures to guide CBP and ICE operations.
    The committee should document and distribute information on dispute
    scenarios and resolutions to help foster greater uniformity in
    interpreting policies and procedures and resolving related disputes. To
    resolve disputes at both the headquarters and field levels, CBP and
    ICE should create a strictly proscribed time standard for disposition, as
    the dynamic nature of the enforcement environment requires swift
    decisions to accomplish the mission.

12. Develop dispute arbitration and resolution mechanisms at the field-
    level. These mechanisms should be available for airing both routine
    and extraordinary interagency operational concerns and recommending
    remedial actions, and they should be designed to minimize the risk of
    retaliation against employees who raise concerns. When the resulting
    field-level arbitration mechanisms result in the resolution of a dispute,
    headquarters should be notified of the issue and resolution.

13. Develop an operating environment that facilitates collaborative
    intelligence activities. Such an environment should promote ICE-CBP
    staff co-location when possible and where appropriate. In addition,
    CBP and ICE should pursue the development of joint intelligence
    products to reflect a more comprehensive picture of border security.
    Finally, CBP and ICE should jointly employ new technology systems

       An Assessment of the Proposal to Merge CBP and ICE

                            Page 83
   for the exchange and analysis of intelligence information that facilitate
   these activities.

14. Address the prevalent and growing contentiousness between CBP and
    ICE. Competition is natural between two groups, but ICE and CBP
    leadership should develop programs and policies to encourage mutual
    respect. Field level activities must be monitored more closely to
    ensure that border security is not compromised by organizational
    antagonisms mentality. Likewise, DHS leadership should take action
    to develop a corporate culture in which all CBP and ICE employees
    believe that they have a vested stake in each other’s mission and in the
    overall DHS mission.




       An Assessment of the Proposal to Merge CBP and ICE

                            Page 84
Management Comments and OIG Analysis
    Overview of Management Comments
              In its comments on this report, DHS management agreed with a number of
              important aspects of the report, while disagreeing with its principal conclusion
              and a number of supporting facts. DHS management agreed that there have
              been difficulties in the relationship between ICE and CBP in the areas that we
              identified, but took a different view on how to address some of those
              difficulties. The Department expressed concern for a protracted period of
              organizational churn that may result from a merger, but does not address how
              it outweighs the organizational churn we encountered in our fieldwork or the
              underlying merits of a merger as a solution.

              In the main, DHS management agreed that there have been significant issues
              in the relationship between CBP and ICE in the areas we discussed –
              coordination of apprehension and detention and removal operations,
              coordination of investigative operations, and coordination of intelligence
              activities. In his comments on this report, the Deputy Secretary wrote that
              DHS management “basically concur[s]” with our assessment of the need for
              improved coordination regarding the apprehension, detention, and removal of
              illegal aliens. Furthermore, even where they raised questions about our
              discussion of coordination between CBP and ICE, the Department’s detailed
              comments on the report expressed an interest in improving coordination in
              this area.

              In his letter, the Deputy Secretary also indicates that DHS management shares
              our concerns on the issues regarding coordination between CBP and ICE in
              investigative operations and intelligence sharing. In its detailed comments,
              however, the Department took issue with a number of our supporting facts in
              these areas. Its comments on these issues place particular emphasis on
              questioning the data we present. We address DHS’ comments in this regard in
              the more detailed discussion in the following pages. In response to our
              discussion of potential remedies to challenges in the CBP-ICE relationship,
              the Department provided a similarly mixed response. DHS management
              pursued some of the structural remedies we endorsed, while determining not
              to proceed with others.

              In moves that coincide with our suggestions, the Secretary decided to seek the
              elimination of BTS and transfer FAMS to TSA. Nonetheless, DHS
              management determined not to move forward with other structural changes
              we suggested. After conducting a Second Stage Review (2SR) of the

                         An Assessment of the Proposal to Merge CBP and ICE

                                              Page 85
Department’s operations, the Secretary selected a reorganization plan that
maintains ICE and CBP as separate entities with a direct reporting relationship
to the Deputy Secretary. The Department believes that this change, in
addition to other adjustments included in the Secretary’s 2SR plans, represent
“management solutions that will strengthen CBP and ICE coordination.” An
examination of the Department’s detailed comments on the report suggests
that the Secretary will depend on the following to improve coordination
between CBP and ICE:

   •   Improved budgeting practices with respect to DRO that account for
       and include the monitoring of trends in CBP apprehensions.

   •   Creation of various working groups at the departmental and field
       levels.

   •   Formation of an Operational Coordination Office at the departmental
       level.

   •   Formation of a discrete Office of Intelligence and Analysis at the
       departmental level.

Because all of the details surrounding 2SR plans have yet to emerge and
because operational relationships in this new organizational arrangement have
not yet been clearly fixed, we are unable to evaluate whether it will strengthen
CBP and ICE coordination as intended.

In his letter, the Deputy Secretary described our report as “tainted by factual
errors.” We disagree with this assertion. First, in the body of the report, as
much as in the following pages, we address all of the Department’s points of
disagreement on matters of fact. Where appropriate, we have made changes
to the report in response to the Department’s observations. We do not believe
these changes represent errors that would affect our conclusions, but they
were edits requested by the Department that we concluded we could or should
accommodate. In many other cases, however, the Department’s concerns on
points of fact were without merit, and we have indicated the basis for our
conclusions to this effect.

Second, the Deputy Secretary asserted that our report lacked “analytical
rigor.” This review effort was of extraordinary scale and executed in a
thoroughly professional manner. We enlisted substantial staff in our review
and executed associated obligations in a manner that cannot be fairly
characterized as lax. Thirty-five OIG staff participated in this review and


           An Assessment of the Proposal to Merge CBP and ICE

                                Page 86
devoted thousands of hours work to the product. Our analysis is the product
of hundreds of interviews with DHS senior managers and experienced
employees in positions of considerable responsibility, as well as outside
observers. Virtually all of the Department’s senior staff in BTS, CBP and ICE
were interviewed. Many, if not most, concurred with our core conclusions.

Given the rarity of available and reliable data relevant to assessing the
effectiveness of an organizational structure, fact gathering by interview is an
accepted methodology and was necessary in this case. Our interviews were
not to test employee morale, although evidence of poor morale was so great as
to require reporting. Our interviews were to assess integration and operational
problems and their causes. Isolation of a causal element was key in this
process, and the interviews sought to filter out independent variables, e.g.,
problems that existed within INS or USCS long before there was a DHS, and
problems related to ICE’s budget shortfalls, which must be fixed irrespective
of whether or not ICE is merged with CBP or stands alone. Lastly, our
interviews sought concrete examples rather than general impressions so that
we could illustrate for the reader how the problems played out. There are
challenges in this methodology, which is why we clearly described our
approach for the reader to assess. But when we refer to the results as
“anecdotal,” we do not intend to suggest a lack of rigor in the approach or lack
of confidence in the results.

Our confidence in the rigor of this review is based on the extensive effort to
obtain the experiences of the full spectrum of DHS employees involved in the
ICE, CBP, and BTS organizations. It is also based on the objectivity of the
OIG personnel who conducted the review and extracted from it the premises
and observations that went into our report. They had no vested interest in the
outcome. Their assignment was to answer the question, “should ICE and CBP
be merged?” and to explain why. The assignment did not permit equivocation
and anything less than a direct answer would have been a disservice, in our
view. Finally, even if one differs regarding the conclusion, we would hope
that our report would nonetheless provide useful and insightful information as
DHS moves forward.

DHS complains that the report is “deficient in its discussion of the positive
steps that ICE, CBP, and BTS have undertaken over the past several years.”
There are several responses. First, our report did discuss some of these
initiatives: for example, we strongly support the principles behind the One
Face at the Border initiative and cited it in the report as an effort to attack
stovepiping. Second, while the Department counted as initiatives some of the
policies and procedures it has installed, there were deficiencies in their
implementation and our focus was on the incompleteness of integration rather

          An Assessment of the Proposal to Merge CBP and ICE

                               Page 87
          than the good intentions of the initiative. Similarly, the Department cites
          MOUs as coordinative initiatives, which they are. However, we reported on
          the evidence we heard suggesting that they are imperfect solutions to the
          integration problems we studied, and believe that was the more important
          perspective to convey here. Lastly, the Department discussed a number of
          initiatives in its response that did not exist or were unimplemented initiatives
          at the time of our fieldwork. Not surprisingly, we did not discuss them.

          In the following pages, we address DHS management’s comments on this
          report in detail. We have divided our discussion of DHS comments along
          thematic lines, evaluating the Department’s comments on the following topics
          discussed in the report:

             •   Customs and Immigration Continuums

             •   Coordination of Apprehension and Detention & Removal Operations

             •   Coordination of Investigative Operations

             •   Coordination of Intelligence Activities

             •   The Role of the Border and Transportation Security Directorate

             •   Federal Protective Service

             •   Forensic Document Laboratory


Detailed Analysis of Management Comments
          Customs and Immigration Continuums

          DHS asserts that our depictions of the customs and immigration continuums
          are inaccurate. DHS does not to understand what our depictions represent.
          That is, prior to the establishment of DHS, one agency was responsible for
          enforcing all customs laws. Another agency was responsible for enforcing all
          immigration laws. When DHS was established, responsibility for the
          enforcement of customs and immigration laws was split between two
          organizations. The split created an artificial barrier to coordination,
          cooperation, and communication, which we describe throughout our report.




                     An Assessment of the Proposal to Merge CBP and ICE

                                          Page 88
We agree with DHS’ assertion that the HSA was intended to remove barriers.
However, it was the subsequent management decisions leading to the creation
of CBP and ICE that forged the barriers we discuss.

Coordination of Apprehension and Detention and Removal Operations

In its comments on this aspect of our report, DHS management concedes that
“improvements must be made in this area,” but suggests that we have
overstated related concerns and underreported the level of coordination that
has taken place between CBP and DRO. We made few changes to our report
in response to DHS comments in this area.

In its comments, DHS management suggests that increases in the numbers of
illegal aliens DRO detained and removed in FY 2003 and FY 2004 are
reflective of improved coordination between ICE and CBP. On the contrary,
the growth in the number of aliens detained and removed during these years is
attributable to changes that were not tied to the relationship of ICE and CBP.
In particular, DRO’s increased use of detention space above funded levels and
shortened detention stays over the period better account for the growth in
these figures. Although it received no additional funding to add detention
space, DRO increased its average daily population by 1,280 in FY 2003, and
896 in FY 2004. Meanwhile, average and median lengths of stay for detained
aliens declined between FY 2002 and FY 2003. As a result, DRO detained
29,577 more aliens in FY 2003 than in FY 2002; and 3,817 more aliens in FY
2004 than in FY 2003. These two factors coupled with improvements in
EOIR’s removal case processing contributed to a rise in the number of
removals because, as we discuss in the body of the report, detained aliens are
much more likely to be removed than non-detained aliens. This view is also
supported by the fact that when DRO reined in its use of bed space at the start
of FY 2005 to align with available funds, removals dropped significantly.

Furthermore, DHS management’s comments omit less favorable data from
FY 2005. Fiscal Year 2005 removal numbers are down significantly from
their FY 2004 levels. Through the first 11 months of the fiscal year, total
removals were down 19 percent from the same period in FY 2004. Non-
criminal removals, a disproportionately large share of which stem from CBP
apprehensions, fell even more markedly over the period. Through August
2005, DRO had removed 30 percent fewer non-criminal aliens than it had in
FY 2004 through August 2004.

More importantly, it was never our contention that detention and removal
numbers declined after CBP and ICE were created. Instead, this report asserts
that DRO had not received adequate resources to address burgeoning

          An Assessment of the Proposal to Merge CBP and ICE

                               Page 89
apprehensions on the part of CBP; that due in part to poor coordination,
demand for detention space has increasingly outstripped supply. This is
plainly apparent to those who have studied trends in DRO’s absconder
backlog. The absconder population is chiefly composed of aliens who, after
they are apprehended initially, are released pending a removal hearing but fail
to appear for the hearing. Because the bulk of aliens apprehended by CBP are
not mandatory detainees, they are frequently released pending their removal
hearing. Many of these, in turn, abscond. Because CBP experienced a rapid
rise in the number of OTMs it apprehended, and because a parallel number of
additional DRO detention beds were not available to accommodate them, the
absconder backlog has ballooned. In other words, due to resource constraints,
DRO has not been able to keep pace with CBP apprehensions. As shown
below, the already imposing number of absconders rose dramatically in the
first nine months of FY 2005.



                     Estimated Absconder Backlog
                               Total Number         Change Over
                Date           of Absconders          Period
           Sept. 30, 2001          331,734                     -
           Sept. 30, 2002          376,003               44,269
           Sept. 30, 2003          418,753               42,750
           Sept. 30, 2004          465,353               46,600
           June 30, 2005           536,644               71,291


It is also worth emphasizing that we do not contend that the imbalance
between CBP’s front-end apprehension capabilities and ICE’s downstream
detention and removal capability is solely the product of poor coordination.
Indeed, resource imbalances in this area pre-date DHS. Our assertion is
simply that, coupled with ICE’s funding and accounting difficulties,
shortcomings in the interagency planning and budgeting processes contributed
to imbalances, leaving CBP less able to accomplish its mission objectives.

With respect to the question of rectifying the resource imbalance between
CBP and DRO, DHS management states that “in working to fix ICE financial
challenges this year, DHS implemented plans … to ensure that ICE has the
capacity to adequately detain and process illegal aliens apprehended by CBP.”
When we conducted our fieldwork, however, effective planning and
budgeting processes were not in place to ensure that resource needs were met


          An Assessment of the Proposal to Merge CBP and ICE

                               Page 90
                         across the border enforcement continuum or that resources were allocated
                         appropriately. Moreover, through our work on another review focusing on the
                         detention and removal of illegal aliens, we have determined that DRO is still
                         not resourced adequately to meet its future detention obligations and support
                         planned alien apprehension and removal initiatives.

                         In its detailed comments, DHS management asserts that this report neglects to
                         mention coordinative efforts between CBP and DRO. On the contrary, our
                         report notes that CBP and DRO communicate through interagency liaison
                         staff and participate in joint working groups at the agency level.91 We also
                         stated that “productive operational coordination between DRO and CBP
                         occurs in several localities,” and specifically mentioned that cooperative
                         efforts have arisen in Arizona. In addition, we said that overall coordination
                         between the two organizations on the Border Patrol’s use of Expedited
                         Removal has been described as positive.

                         A number of other coordinative efforts the Department would have liked us to
                         highlight are either still in the planning stages or occurred after we completed
                         our fieldwork. Operation Texas Hold ‘Em, a notable coordinative effort to
                         target the removal of a “rising tide” of Brazilian illegal immigrants along one
                         stretch of the border, did not go into effect until July 2005, after we completed
                         our fieldwork for this review and was not raised in discussions with DRO
                         representatives in the area when we spoke with them a little more than a
                         month earlier. DRO’s capacity planning program, which is to incorporate
                         CBP, is described in the future tense. Meanwhile, plans to form local working
                         groups at all of DRO’s 23 Field Offices to address coordination issues only
                         materialized in July 2005 and, as of September, had not been associated with a
                         formal structure or timeline for implementation. The establishment of a
                         working group for every Field Office would appear to confirm our
                         observation that the present organization has not accomplished the integration
                         needed. Working groups can achieve some change, but in general they are
                         often transitory, dependent on consensus, and lacking in implementation
                         authority.

                         Finally, the Department’s laudable efforts to develop a resource plan that
                         identifies the coordinated capabilities, operational workflow, and resource
                         needs of both components, have only just been initiated, according to its
                         comments on this report.



91
 As the Department’s comments suggest, since we concluded our fieldwork, an OIG representative has participated in a
working group to examine ways of enhancing the alien removal process.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                           Page 91
DHS also takes issue with our text that read, “According to CBP, the level and
quality of support [it received from DRO] declined.” DHS management
asserts that this is not the position of CBP, but rather that of a CBP employee.
We have amended our report to reflect CBP’s declared position to the
contrary. It is worth noting, however, that the reported position was that of a
number of senior CBP staff, including one who has frequently represented the
organization before Congress.

In addition, DHS commented that “DRO was never ‘subordinate’ to
inspections (CBP OFO) or Border Patrol.” Under the INS’ regional and
district management structure, however, DRO resources were often redirected
to support the missions of inspections and Border Patrol units. We have
adjusted our language to better comport with this intended meaning.

We are heartened by the Secretary’s attentiveness to the fact that the
immigration enforcement efforts of ICE and CBP represent parts of a shared
continuum and DHS’ awareness that “planning to increase apprehensions
necessarily must include planning to increase detention capacity and removal
resources.” We trust that this recognition will translate into more effective
border enforcement planning. We are also pleased with the Department’s
statement that it “is actively thinking through ways to enhance coordination”
in this area and encourage the Department to follow through on related plans.
We are likewise encouraged by DRO’s planned coordination efforts at the
field level and would like to see these plans implemented.

Coordination of Investigative Operations

In its comments, the Department disputes many of the report’s assertions
regarding the lack of coordination between CBP inspectors, Border Patrol
agents, and ICE investigators. Department management claims that the new
organizational structure did not change the interdependency between
inspectors, Border Patrol agents, and investigators or the case referral process.
Additionally, DHS’ comments dispute our findings that ICE no longer accepts
and that CBP no longer makes as many referrals, citing DHS’ variant
interpretation of the data. That CBP would create its own investigative
services to fill a perceived void or would more frequently refer cases to other
investigative agencies is also denied. DHS management relies on a strikingly
different interpretation of data to rebut our assertions. In addition, DHS
supports its denial of degradation in coordination by maintaining that the
former policy between investigators and inspectors has not changed, or that
reported incidents of poor cooperation do not comply with the organizations’
policies. It argues that the anecdotal opinions of some employees do not
indicate a downward trend. Any problems that do exist will be resolved by

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 92
                         working groups and the Secretary’s reorganization of the Department.
                         Finally, the Department is critical of this report for not commemorating
                         successful, coordinated efforts between the two groups.

                         The Department’s rejection of the problems in investigative coordination that
                         we described is ill founded. We feel confident in our findings of poor
                         coordination between inspectors and investigators in that we not only
                         encountered a notable consistency in our interviews with CBP and ICE
                         employees, but during the course of our review, senior CBP and ICE
                         management dedicated three days to addressing the same problems.

                         In March 2005, as we were conducting the fieldwork in our review, ICE and
                         CBP senior managers convened a three-day working group to address issues
                         in coordination of field activities and intelligence and information sharing. A
                         slide show presentation to the group included as the working group’s purpose
                         to “improve coordination mechanisms for our most common interactions;
                         develop plans for more effective communication and enhance cooperation.”92
                         “Primary Issues” to discuss included criminal violations at the POEs,
                         Information and Intelligence Sharing, Coordination Efforts, and Deconfliction
                         of Investigations. Some of the “Secondary Issues” were “CBP-ICE Major
                         Policy Changes,” and “Federal Inspection Site Access.” According to a senior
                         ICE manager’s summary of the meeting’s discussions, comments regarding
                         the issues included:

                              •   CBP’s referral of leads to other agencies, such as local law
                                  enforcement and the FBI when ICE refused CBP referrals, which
                                  could result in duplicative investigations.

                              •   CBP’s expanded investigative duties in the JTTFs, which ICE
                                  complained resulted in compartmentalization of information and lack
                                  of coordination.

                              •   CBP’s removal of personnel from the ICE ICATS and creating other
                                  intelligence/information programs, which are not coordinated or
                                  shared with ICATS, and would lead to a potential for duplication of
                                  efforts and separation of the groups.

                              •   ICE’s concerns with the extent to which CBP did not share other
                                  information that would assist ICE investigations.

92
  U.S. Customs and Border Protection Office of Field Operations/Immigration and Customs Enforcement, Office of
Investigations, Working Group Meeting, March 22-24, 2005, received from the Department in response to our request
for documents pertaining to ICE’s involvement in the working group on CBP enforcement officers.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                           Page 93
                             •   CBP’s hesitance to allow controlled deliveries of counterfeit
                                 merchandise due to fear of liability should ICE lose the load.

                             •   ICE’s concerns over CBP’s handling of TECS lookouts, which could
                                 negatively affect ICE’s ability to conduct surveillance on its target,
                                 thus hampering ICE criminal investigations.

                             •   CBP Enforcement Officer expansion of duties would deny ICE their
                                 “bread and butter” cases that can eventually lead to larger and more
                                 complex investigations, hindering ICE’s effectiveness.

                             •   ICE’s concerns over more restrictive access to Federal Inspection
                                 Sites, the areas where CBP inspectors review people and goods
                                 entering the country. 93

                         As to the Department’s insistence that the situation has not degraded, that the
                         situation is the same as it was in legacy organizations, the working group
                         meeting summary showed that the among reasons CBP gave for the cited
                         problems in coordination was a change in dynamics from the INS and USCS.
                         That the relationship between inspectors and investigators has changed was a
                         theme we heard throughout our interview process.

                         The working group resolved to issue additional policy and joint memoranda to
                         the field to improve these problems in coordination.94 The working group was
                         unable to find common ground on one issue, but determined it would raise the
                         issue again at a later date. While we applaud DHS’ efforts to address
                         problems and resolve them through working groups, we are not confident that
                         more policies and procedures will effectively align and coordinate the efforts
                         of these groups. The MOU between the Border Patrol and ICE investigators
                         has not aligned these organizations into an efficient continuum of enforcement
                         activity. Many of the examples of poor coordination that we cite in this
                         section of the report occurred under the auspices of the MOU. In addition, the
                         meeting highlights the difficulty of coordinating enforcement operations when
                         they are split between two independent organizations, an observation made by
                         many that we spoke with during our fieldwork.



93
   Draft Notes on CBP-ICE Working Group Discussion received from the Department in response to our request for
documents pertaining to ICE’s involvement in the working group on CBP enforcement officers.
94
   CBP/OFO Working Group, March 24, 2005, received from the Department in response to our request for documents
pertaining to ICE’s involvement in the working group on CBP enforcement officers.

                                     An Assessment of the Proposal to Merge CBP and ICE

                                                          Page 94
                            The Department relies primarily on its interpretation of the investigations-
                            related data to contest our observations. We dispute DHS management’s
                            assertions regarding the data we present in this section of the report and have
                            major concerns about the data it has published in its comments. In its
                            comments, DHS management states that we fail “to account for a primary
                            mission” of CBP and ICE by citing “customs-related data without including
                            immigration data.” It would have been our clear preference to use both
                            customs and immigration data in our analysis. As we state in the report,
                            however, we were unable to present immigration data because this data is not
                            complete for the first several quarters following ICE’s formation. ICE OI
                            staff have repeatedly said that FY 2003 immigration case data is incomplete.
                            DHS’ Office of Immigration Statistics has also corroborated this
                            understanding.

                            Furthermore, our examination of FY 2003 immigration case data revealed
                            disturbing anomalies leading us to question the reliability of information in
                            some important data fields.95 In addition, during the course of our review, we
                            were told of complications associated with former INS investigators’ FY 2004
                            transition to TECS for entering case information on investigations into
                            immigration matters, a practice that had not been in place in previous years.
                            We communicated this information to ICE OI staff. Notwithstanding these
                            substantial concerns, ICE OI staff have used the incomplete case data for FY
                            2003 and data of suspect reliability for the first few quarters of FY 2004,
                            without any indication that they considered their own reservations about the
                            data or our questions about it. By so doing, they skew the picture of ICE OI’s
                            level of engagement in cases referred by CBP. Because ICE OI’s immigration
                            case statistics are incomplete for FY 2003, combined figures for the number
                            of customs and immigration cases opened in response to a CBP referral are
                            artificially low for this period. Predictably, ICE OI’s combined customs and
                            immigration case figures for FY 2004 and FY 2005 appear in a deceptively
                            positive light when compared against incomplete figures for FY 2003.

                            DHS’ figures do not substantiate the claim that OI cases initiated in response
                            to CBP referrals have increased. Instead, they reflect a noteworthy data
                            shortcoming and disturbing disregard for an unpleasant reality.

95
  For one, ICE OI immigration case figures for FY 2003 contain a number of apparent duplicates. In ICE OI’s FY 2003
case initiation data, the number of immigration cases initiated is identical for several case categories for several quarters.
For example, all 814 recorded alien absconder investigations in FY 2003 were reportedly initiated in response to ICE OI
referrals in the first quarter. According to OI data, exactly the same number (814) of investigations were opened during
the first quarter of FY 2003 in response to an ICE OI referral in all of the following other immigration case categories:
human trafficking, worksite enforcement, EWI/status violation, compliance enforcement, JTTF, and alien asset forfeiture
investigations. It is almost a mathematical certainty that duplication among these case initiation figures reflects a
shortcoming in the data rather than operational happenstance.

                                         An Assessment of the Proposal to Merge CBP and ICE

                                                                Page 95
In addition to our concerns about the immigration data’s reliability, however,
we reiterate that our conclusion about decreased ICE case activity in response
to CBP referrals was supported by numerous accounts by ICE and CBP
employees, including senior officials in the organizations. Further, as we
discuss below, many of the related issues we discuss have been raised to ICE
and CBP leadership and were even the focus of an interagency working group.

DHS management also writes that,

   with respect to the customs-related cases, … there was a gradual
   decrease in customs-related CBP referrals to ICE OI during the period
   from the 2nd Qtr of FY2003 through the 1st Qtr of FY2005 of 7%, the
   total number of customs-related referrals from all source types
   indicates a gradual decrease during the same period of time of 10%.
   Given that all customs-related referrals decreased, it is not at all
   surprising that there was a proportionate decrease in CBP referrals to
   OI.

Unfortunately, these statements reveal a misunderstanding of the data. The
customs-case data we present on page 45 of the report shows that in the
1st quarter of FY 2005 ICE opened 798 fewer customs cases in response to
CBP referrals than it did during the 2nd quarter of FY 2003. This represents a
28 percent decline in cases, not seven percent. Overall, ICE opened 12
percent, not 10 percent, fewer customs cases in the 1st quarter of FY 2005 than
it did during the 2nd quarter of FY 2003. OI customs cases opened in response
to CBP referrals thus declined at a rate that was more than two times that of all
customs cases (28 percent versus 12 percent). Rather than reflecting an
overall decline in OI customs cases, the decline in OI cases opened in
response to a CBP referral appears to have been the central driving force in
the decline in total OI customs cases. This is evidenced by the fact that the
decline in the total number of customs cases opened between the 2nd quarter of
FY 2003 and 1st quarter of FY 2005 (798 cases) exactly matches the decline in
the number of OI customs cases opened in response to a CBP referral.

In addition to citing discrepant data analysis to find fault with our conclusions,
the Department contends that the split between inspectors and investigators
did not change the referral process or the interdependency between the
groups; that the relationships remain as they were before the organizational
split. However, the March 2005 working group meeting summary addressed
many of the issues we described in our report that have resulted from the
division of inspectors from investigators. In two sections of the summary
about problems with CBP participation in the JTTFs and problems with

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 96
referrals the summary reads, “[t]he dynamics have changed from the former
agencies.” The summary confirms what we heard in overwhelming unison
from the field and from management: there is a new dynamic at work in the
relationship between inspectors, Border Patrol agents, and investigators.

In its comments, the Department disputes our finding that ICE investigators’
refusal to respond to referrals has led CBP inspectors and Border Patrol agents
to refer cases to other law enforcement agencies, which is new to the agencies.
Yet the March 2005 meeting summary indicates that ICE discussed its
concern that cases arising from the POEs were being referred to other
agencies, such as FBI and local law enforcement. It mentioned that
duplication of efforts and conflicts of interest could arise as a result. CBP’s
response, according to the summary, was that in the changed dynamics of the
new organization CBP is more involved with cases at the POEs. It also stated
that if ICE declines a case, CBP would call other agencies to pursue it. Given
this, the data, and the consistent complaints we heard in the field, we cannot
credit the Department’s position that problems do not exist between ICE and
CBP regarding investigative referrals.

Having disputed our finding that the coordination between inspectors, Border
Patrol agents, and investigators has declined, the Department concludes that
the reasons for such decline, as outlined in the report, are erroneous, as well.
With regard to our suggestion that the two-week cross-training course may
have left investigators inadequately prepared to accept referrals of cases
relatively unfamiliar to them, the Department argues that 97 percent of the
investigative staff have received cross-training. Our contention is that the
training is inadequate, not that inadequate numbers of investigators have been
trained. That the legacy INS and USCS investigators have been teamed
together in different investigative groups, we acknowledge, but we conclude
that the new groupings have not been effective. The Department also states
that we did not acknowledge the development of additional training programs,
adding that ICE has been “aggressive” in taking steps to ensure effective
enforcement in that regard. Our concern, as stated in the body of the report is
that more than two years have elapsed since ICE determined to bolster its
investigators’ two-week cross training course. That lapse undermines their
characterization of their approach as “aggressive.”

The Department disputes our examples of reasons why inspectors and Border
Patrol agents do not refer cases to ICE. The Department contends that the
examples of competition for credit and a lack of trust in the ability of ICE’s
investigators to conduct thorough investigations are not fair because they do
not reflect CBP policy and represent the opinions of only a few. While policy
may not support the actions of the field, that policy may not be adhered to

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 97
unless management enforces it. The data, our field interviews and the March
2005 working group meeting all indicate that CBP referrals to ICE or ICE’s
acceptance of CBP referrals has declined. The Department also asserts that
ICE must receive all of Border Patrol’s human smuggling referrals because
FBI and DEA do not have jurisdiction over those cases. The logic of that
argument fails however, because the Border Patrol agents have their own units
that are conducting human smuggling investigations.

The Department denies that the problems in coordination between inspectors,
Border Patrol agents, and investigators may have lead CBP to instigate the
expansion of its internal investigative capability. If so, we stand corrected,
despite having heard the contrary from the field. However, the problems that
occur with dueling investigative units remain, such as deconfliction,
segregation of information, and failure to detect and uncover more complex
criminal enterprises. The Department assures us it will prevent CBP and ICE
from pursuing duplicative functions, but we have not received any
documentation of programs or functions that persuade us that the problems
will be resolved.

The Department is critical of our report for failing to acknowledge the
presence of a working group to plan effective implementation of the senior
inspector expansion program. Again, while jointly conceived policies are
commendable, management does not or cannot always enforce adherence to
the resultant agreements. A prime example is the inability of the OBP and OI
MOU to coordinate the activities of Border Patrol agents and ICE
investigators. Before the creation of the Department, the Border Patrol had
“disrupt units” that conducted low-level investigations. The disrupt units
would refer more complex investigations to Border Patrol’s ASUs. After the
ASUs were transferred to ICE with the creation of DHS, Border Patrol units
had little incentive to refer those more complex cases to the ASUs in ICE.
Despite the notification and coordination measures outlined in the MOU,
duplicative cases have arisen when Border Patrol has not referred some cases
to ICE, according to senior Border Patrol and ICE management, as well as
field-level investigators. Our report cites some of the instances in which the
duplicative investigations or independent investigations by CBP senior
inspectors and Border Patrol agents have compromised cases.

On a related note, the Department is critical of our use of the phrase,
“reformed ASUs.” We use that phrase to indicate what we learned during our
fieldwork, that Border Patrol has bolstered its ability to investigate cases by
allowing its disrupt units to investigate more cases, instead of referring them
to ICE ASU investigators. In essence, the Border Patrol has re-established the
ASU capability in its disrupt units.

          An Assessment of the Proposal to Merge CBP and ICE

                               Page 98
In our report we note that ICE arrests, indictments, convictions, and seizures
for drug smuggling cases have declined, which may result from the decline in
CBP referrals. We present the drug smuggling data instead of other customs
cases that ICE investigates because CBP referrals represent approximately
two thirds of the drug smuggling cases. For other customs cases, CBP
referrals represent a much smaller proportion. Accordingly, a drop in CBP
referrals will be noticed most acutely in the drug smuggling cases. Arrests,
indictment, convictions, and seizures in those cases would be expected to
decline as a result of a decrease in referrals. We do not find the total number
of ICE arrests, indictments, convictions, and seizures that the Department has
put forward to be a persuasive rejection of our findings. Many of the cases
that ICE investigates are not pursued as a result of CBP referrals. As such, the
numbers of total arrests and other enforcement achievements are not
indicative of the quality of the coordination and cooperation between CBP and
ICE. Moreover, the data underlying the numbers put forward by the
Department has not been provided to us, and we cannot independently assess
its reliability.

Our report provides a case study in the breakdown of coordination between
ICE OI and Border Patrol. In its comments, the Department implies that the
case study must not be credible because established procedures and protocols
would ensure that ICE could not lose a controlled delivery. Yet, the March
2005 working group summary describes a discussion in which ICE
complained that its requests to conduct controlled deliveries are being denied
and, as a result, investigations are being hindered. According to the summary,
CBP indicated that it had concerns that ICE might not intercept the delivery.
While there may be procedures in place to ensure delivery, as of March 2005,
CBP was clearly concerned about ICE’s ability to intercept the deliveries.
The report we got from the field that we cited is credible in light of concerns
raised at the March 2005 meeting.

The Department claims that our characterization of the MOU’s dispute
resolution mechanism as ineffective is incorrect. Often ICE learns of
impending deliveries of illegal goods or people shortly before the deliveries
are to occur. Because the facts of each delivery will vary and involve
differing issues, disputes arise that field-level personnel are unable to resolve,
as in the case study example. The problem with using the MOU’s dispute
resolution mechanism is that elevating issues to headquarters for resolution
takes time, and may not settle the problem quickly enough to allow for a
controlled delivery of illegal goods. Accordingly, we find that the mechanism
is ineffective at resolving controlled delivery disputes in that it may not do so
in a timely manner.

           An Assessment of the Proposal to Merge CBP and ICE

                                Page 99
                          As to our failure to acknowledge successful coordination efforts, the one put
                          forward by the Department is ABCI, which had mixed reviews.96 In addition,
                          ABCI is the exception, not the rule. As such, while it may have been
                          successful, the success of one specially and very heavily coordinated program
                          does not overcome the day-to-day instances of ineffectiveness that were
                          reported from the field.


                          Coordination of Intelligence Activities

                          DHS makes the point that the legacy agencies did not share their databases.
                          We recognize this and also that this was one of the reasons DHS was created –
                          to improve information sharing. However, the practice of not sharing
                          databases continued after DHS was established. CBP and ICE have created
                          their own information stovepipes.

                          In our report, we concluded that information and intelligence sharing between
                          CBP and ICE was ineffective. In response, DHS provided us with a list of the
                          organizations that it uses to share information and intelligence between CBP
                          and ICE. While this list is impressive, the descriptions of the organizations
                          seem to depict operational activities and not intelligence activities. Our point
                          is that intelligence collaboration is the element missing from the CBP and ICE
                          intelligence activities. While DHS touts the list as evidence of collaboration,
                          we have seen and been provided with very little evidence of intelligence
                          products co-authored by CBP and ICE that were the result of extensive
                          collaboration.

                          DHS’ listing of organizations that facilitate intelligence sharing and its
                          statement “that these examples represent actual collaboration that did not
                          previously exist” highlights what we believe is wrong with the current
                          organizational structure. If CBP and ICE were merged, this extensive collage
                          of organizations needed to facilitate intelligence coordination between CBP
                          and ICE may not be necessary.

                          When we visited some of these organizations during our fieldwork, CBP and
                          ICE intelligence field staffs characterized their respective intelligence
                          activities as uncoordinated and not integrated with one another. They further
                          reported that effective collaboration was not occurring on a systematic basis.

96
   In our earlier draft, we were critical of ABCI because of the considerable burden borne by BTS to coordinate the
effort. The Department’s decision to eliminate BTS rendered this issue moot and we removed its discussion from our
final report.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 100
The Secretary’s 2SR intelligence committee report referred to DHS
intelligence activities as “multiple points of collection and gathering but
without any unified coordination and intelligence/information standards and
processes.” The 2SR report further supports our conclusions with: “DHS
components disseminate numerous reports and finished products…but lack
true integration and coordination across DHS components.” Where effective
collaboration was occurring, it was usually due to strong personal
relationships between individuals that were formed in the legacy agencies.
We acknowledge that there are likely exceptions to this general conclusion.

In its response, DHS suggested that we advocated that all CBP and ICE
employees should have unrestricted access to databases. We never advocated
this in our report. Rather, we stated in our report, as we restate here, that we
agree that access restrictions are necessary. Our report documents concerns
expressed by CBP employees in the field that the current database access
policies were hampering their ability to perform their mission. Given the
nuances of the counterterrorism mission introduced into the border
environment since September 11, we would suggest that CBP and ICE
reexamine database access policies to ensure that they support current mission
requirements.

DHS correctly states that we did not examine the data mining platforms
mentioned in its response. Therefore, we cannot provide an evaluation on
their effectiveness or usefulness. We do note that none of the intelligence
analysts that we interviewed mentioned these platforms and only discussed
with us the shortcomings of TECS as an intelligence sharing platform.

In its response, DHS finds fault with the fact that we did not conduct a
comparative analysis of TECS and ACS. In our report, we discuss TECS and
ACS together only in the context that they were systems that were not
designed for intelligence sharing. We compared TECS and ACS to describe a
situation where information became “lost” in the FBI’s ACS. DHS’ response
misses this point, which is the potential danger of using a system for a purpose
for which it was not intended.

Finally, DHS’ response consistently refers to the Secretary’s 2SR concepts for
improving the department’s intelligence activities. We need to point out that
these concepts were announced almost six weeks after we completed our
fieldwork and approximately two weeks after we provided the Secretary with
an advance copy of our draft report. Because these concepts have not yet
been implemented, we cannot evaluate whether the proposed 2SR changes
will adequately address the issues we identified in our report.


           An Assessment of the Proposal to Merge CBP and ICE

                               Page 101
The Role of the Border and Transportation Security Directorate

DHS’ response takes umbrage for reporting opinions expressed by some CBP
managers that they believed that making the US-VISIT Program an
independent entity apart from CBP was not an optimal decision. The opinions
expressed to us suggested that BTS did not consult with CBP before this
decision was made, or coordinate implementation thereafter. US-VISIT was
cited by us as an example of broader complaints about BTS policy decisions.

Federal Protective Service

While DHS’ response stated that we made a recommendation to realign FPS,
we never made this recommendation. We provided “suggested options” that
would more closely align FPS’ mission with similar missions of other
organizations. Our assumption was that organizations with similar missions
would be better able to lead and support FPS’ mission. The quote from the
HSA that the Department includes in its comments is noteworthy in that it
highlights the fact that the HSA was silent on where FPS should be located
within DHS.

Forensic Document Laboratory

DHS’ response stated that we “lack an understanding of the primary mission
of the FDL.” DHS goes on to state that the FDL’s mission “is to provide
forensic examination of seized travel and identify documents.” In our report,
we stated that the FDL “serviced INS inspectors and investigators with
forensic examination of travel documents…” We fail to see how our
understanding of FDL’s mission differs from that of DHS.

In its response to our historical description of FDL under INS leadership,
DHS has chosen to take our statements out of context. In the opening
paragraph of this section, we describe former activities of FDL and the
composition of its workforce under INS. DHS has misconstrued this opening
paragraph as a depiction of the current situation, which it is not.

We acknowledge our error in describing ISRS as a database of fraudulent
travel documents and have amended our report accordingly. However, DHS
continues to misconstrue our statements by stating that we have incorrectly
associated forensic examination with ISRS queries. We never made that
association. We stated that by considering only the number of forensic
examinations, the full level “of daily support FDL provides to the CBP
inspectors is understated.” The ISRS queries are part of the support package
FDL provides to CBP inspectors.

          An Assessment of the Proposal to Merge CBP and ICE

                              Page 102
DHS stated that ICE recently approved the hiring of five FDL positions and
that they were not investigators or intelligence officers. DHS does not
describe the background of the new employees but they must not have been
former inspectors as DHS would have been quick to point this out to us. We
welcome ICE’s stated commitment to the recruitment and hiring of capable
inspectors, but note that this was not the policy in force when we finished our
fieldwork in June 2005 and was not the policy when we conducted a follow-
up meeting with FDL officials in August 2005.

DHS contends that FDL and FDAU operations are not complementary. We
contend that FDL’s forensic examination and training capabilities and
FDAU’s trend analysis capability are very much complementary operations.
The operations of both organizations could have a positive synergistic impact
on DHS’ border enforcement capabilities if they were merged.




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 103
                          Appendix A
                          Organizational Overview of the Immigration and Naturalization Service


                          Establishment of INS

                          The Immigration and Naturalization Service (INS) has a long history
                          characterized by name changes and transfers between federal departments.
                          INS arose from the Immigration Act of 1891, which created the Office of
                          Superintendent of Immigration in the Department of the Treasury. In 1895,
                          the office changed to the Bureau of Immigration. The Bureau was transferred
                          to the Department of Commerce and Labor in 1903, and in 1906 it was
                          renamed the Bureau of Immigration and Naturalization to reflect its new
                          authority to administer the naturalization process. In 1924, Congress created
                          the Border Patrol within the Immigration Service to control illegal entry along
                          the U.S. border. The Bureau’s name changed to INS in 1933. In 1940, INS
                          was transferred to the Department of Justice, where it remained until it was re-
                          organized and transferred to DHS.97

                          INS Mission and Authorities

                          The mission of the INS was to administer and enforce the nation’s
                          immigration laws, which appear in Title 8 of the U.S. Code. Title 8 regulates
                          the admission of foreign visitors, business travelers, and other aliens to the
                          United States. Its provisions fall into two basic functions, first to provide
                          services, such as naturalization and permission for residency, to certain aliens;
                          and, second to publish and enforce rules for entrance into the United States.
                          To fulfill its service and enforcement missions, the INS performed the
                          following:

                              •   Processed and granted immigration-related benefits such as work
                                  authorization, employment-based visas, adjustments of status, and
                                  naturalization.

                              •   Determined the admissibility of aliens seeking to enter the United
                                  States.

                              •   Patrolled the U.S. borders.

                              •   Investigated illegal employment and provided information to
                                  employers and benefit providers to prevent illicit employment or
                                  benefit receipt.


97
  U.S. Immigration and Naturalization Service – Populating a Nation: A History of Immigration and Naturalization.
http://www.customs.gov./xp/cgiv/toolbox/about/history/ins_history.xml.

                                      An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 104
                          Appendix A
                          Organizational Overview of the Immigration and Naturalization Service



                              •    Disrupted and dismantled organizations that engaged in document and
                                   benefit fraud and alien smuggling.

                              •    Apprehended, detained, and removed aliens present in the United
                                   States who were in violation of immigration or criminal laws.98

                          Operational Elements

                          INS maintained its headquarters office in Washington, DC. There were 36
                          district offices in the United States and abroad that oversaw both the service
                          and enforcement activities within their geographic jurisdiction.99 A District
                          Director led each district office; District Directors reported to one of three
                          Regional Office Directors, who in turn reported to the Executive Associate
                          Commissioner for Field Operations. In FY 2002, the INS budget was $6.2
                          million, and the organization maintained 37,698 positions.100

                              Enforcement Components

                              Border Patrol

                          The Border Patrol was responsible for patrolling the U.S. borders between the
                          POEs to deter illegal entry into the United States and to interdict illegal aliens
                          and other criminals. Border Patrol’s anti-smuggling units worked closely with
                          Border Patrol agents to investigate and prepare cases for prosecution. In FY
                          2002, the Border Patrol made 955,310 apprehensions of undocumented
                          immigrants attempting to enter the United States.101

                              Investigations

                          The investigations organization was responsible for enforcing immigration
                          law within the United States. Its activities encompassed four areas of interest:

                              •    Investigation of immigration law violations and preparation of cases
                                   for prosecution by the United States Attorneys office and for hearings


98
   U.S. Department of Justice, Office of Inspector General, Audit Division, “Immigration and Naturalization Financial
Statement Fiscal Year 2002,” Audit Report 03-22, May 2003; U.S. Department of Justice Statement, INS Seeks to Hire
8,000 New Employees, April 22, 2002. http://www.rapidimmigration.com/www/latest_ins/April_22_2002.html.
99
   DHS, 2002 Yearbook of Immigration Statistics, Office of Immigration Statistics, October 2003.
100
    Immigration and Naturalization Service Budget 1975-2003,
http://www.usdoj.gov/jmd/budgetsummary/btd/1975_2002/2002/html/page104-108.htm.
101
    Ibid.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 105
            Appendix A
            Organizational Overview of the Immigration and Naturalization Service


                    before Executive Office for Immigration Review judges, who
                    determined the outcome of administrative immigration law cases.

                •   Participation in multi-agency task forces against terrorism, violent
                    crime, document fraud, narcotic trafficking, and organized crime.

                •   Identification of incarcerated aliens who were deportable as a result of
                    their criminal convictions for removal.

                •   Inspection of workplaces that employed illegal aliens and
                    apprehension of the illegal alien workers and imposition of sanctions
                    against employers that knowingly hired them.102

            In 2002, the investigations organization completed: 78,841 criminal
            investigations, with 2,309 prosecutions; 2,061 employer investigations, with
            485 arrests; 2,527 fraud investigations, with 253 prosecutions; 2,395
            smuggling investigations, with 2,106 prosecutions; and 23,067
            inspection/status violators investigations, with 10,538 aliens arrested.103

                Inspections

            Inspectors screened for admissibility aliens seeking entry into the United
            States at the approximately 300 POEs. INS inspectors had the authority to
            permit most inadmissible aliens the opportunity to withdraw their application
            for admission. In some cases, inspectors referred an alien to an immigration
            judge for removal proceedings. In 1997, inspectors gained authority to order
            certain aliens removed under expedited removal proceedings without further
            hearings or review by an immigration judge.104 In FY 2002, INS conducted
            444,687,315 inspections at the POEs. Of those, inspectors determined that
            542,000 arriving aliens were inadmissible.105

            INS senior inspectors prepared cases that arose from the POEs for criminal
            prosecution by United States Attorneys, including cases involving alien
            smuggling, document fraud, and attempted illegal entry for criminal


102
    Ibid.
103
    Ibid.
104
    Ibid.
105
    Ibid.




                        An Assessment of the Proposal to Merge CBP and ICE

                                             Page 106
              Appendix A
              Organizational Overview of the Immigration and Naturalization Service


              prosecution by United States Attorneys offices. In FY 2002, inspections
              reported 1,620 convictions for immigration violations.106




106
      Ibid.

                          An Assessment of the Proposal to Merge CBP and ICE

                                               Page 107
              Appendix A
              Organizational Overview of the Immigration and Naturalization Service




                  Detention and Deportation

              The Detention and Deportation Office determined release conditions for aliens
              pending their immigration hearings, assumed custody of alien detainees, and
              ensured that final removal orders were executed by making travel
              arrangements and providing escort out of the United States when necessary.
              In 2002, the Detention and Deportation Office detained 202,000 aliens and
              removed 150,084.107

              The Detention and Deportation Office placed detainees awaiting deportation
              or other immigration actions in its Service Processing Centers and other
              detention facilities contracted by INS. In addition, INS contracted with other
              detention facilities to house detained aliens.




107
      Ibid.

                          An Assessment of the Proposal to Merge CBP and ICE

                                               Page 108
                           Appendix A
                           Organizational Overview of the Immigration and Naturalization Service


INS Organizational Chart
                                                  General                                                              Congr.
                                                  Counsel                                                             Relations
                                                                                    Commissioner
                                                                                      Deputy
                                                                                    Commissioner
                                                  Public                                                               Internal
                                                  Affairs                                                               Audit




                                                                        Field                        Policy &
                                 Programs                                                                                            Management
                                                                      Operations                     Plannning


                Enforcement                 Examinations                                                                                          Finance

          Border Patrol               Adjudications                                                                                               Security

          Investigations               Inspections
                                                                                    Detention &                           Immigr.             HR & Admin.
                                                                                                     Enforcement
           Intelligence              Admin. Appeals                                  Removal                              Services
                                                                                                                                              Info. Resources
         Asset Forfeiture               Records                                                                           Service
                                                                                                                          Centers
          Detention &                                                                                                                              EEO
          Deportatoin                                         Eastern              Central         Western
                                                                                                                   International
                                                              Region               Region          Region                                     Files & Forms

                                                            Districts          Districts            Districts          Districts              Administrative
                                                            Sectors            Sectors               Sectors                                  Service Centers



                                                       An Assessment of the Proposal to Merge CBP and ICE

                                                                                    Page 109
                          Appendix B
                          Organizational Overview of the United States Customs Service


                          Establishment of the United States Customs Service

                          In 1789 Congress established customs districts and positions within the
                          Department of the Treasury dedicated to collecting customs revenue.108
                          Congress established the Bureau of Customs in the Department of the
                          Treasury in 1927.109 The Bureau was renamed the U.S. Customs Service
                          (USCS) in 1973.110

                          USCS Mission and Authority

                          USCS was responsible for ensuring that all goods and persons entering and
                          exiting the United States did so in compliance with Title 19 (Customs Duties),
                          and Title 18 (Crimes and Criminal Procedure), of the United States Code.111
                          It assessed customs duties, taxes, and fees, and imposed fines and penalties for
                          trade and import law violations. It worked with the international trade
                          community to promote compliance with the laws and endeavored to promote
                          efficient movement of people and goods in and out of the United States. To
                          ensure compliance with these statutes, USCS screened travelers and
                          conveyances, such as boats, vehicles, and aircraft, that attempted to enter or
                          exit at more than 300 U.S. POEs.112 In addition, USCS was authorized to
                          enforce hundreds of provisions contained in over 130 other laws.113 The
                          USCS mission grew to include many enforcement activities, such as
                          preventing import and export of narcotics, stolen goods, products infringing
                          on intellectual property and trademark laws, weapons, and currency in excess
                          of statutory limits. In addition, USCS enforced money laundering statutes to
                          seize the proceeds of illegal smuggling, trade fraud, and export activities.114

108
    Remarks of U.S. Customs Commissioner Robert C. Bonner, Treasury Day Ceremonies,
www.customs.gov/xp/cgov/newsroom/commissioner/speeches_statements/archives;
U.S. Customs Service – Over 200 Years of History, http://www.cbp.gov/xp/cgov/toolbox/about/history/history.xml.
109
    19 U.S.C. § 2071.
110
    Treasury Dept. Order 165-23, Apr. 4, 1973.
111
    U.S. Customs Service Strategic Plan, Fiscal Years 1997-2002.
112
    U.S. Customs Service Accountability Report, Fiscal Year 2000.
113
    Department of the Treasury, Office of Inspector General, CFO Audit of the U.S. Customs Service, Entry Processing
Cycle Memorandum, September 1995. U.S. Customs Service Strategic Plan, supra.
114
    U.S. Customs Service Accountability Report, supra.




                                      An Assessment of the Proposal to Merge CBP and ICE

                                                           Page 110
                          Appendix B
                          Organizational Overview of the United States Customs Service


                          USCS Operational Elements

                          In FY 2000, USCS had approximately 20,000 employees and a budget of $3.6
                          million.115 USCS was led by its Commissioner, who reported to the Secretary
                          of the Department of the Treasury.

                          There were three major operational elements: Office of Investigations (OI),
                          Customs Management Centers (CMC), and Strategic Trade Centers (STC).
                          They were charged with managing four major program areas: 1) enforcement
                          systems, which worked to disrupt individuals and organizations from violating
                          the laws that the USCS enforced; 2) passenger processing, which consisted of
                          inspectors and canine enforcement handlers who screened travelers for
                          customs laws violations while permitting travelers to move expeditiously
                          through the POEs; 3) trade compliance, which focused on improving
                          compliance with import trade laws through cooperation and coordination with
                          the trade community; and 4) the outbound program, which sought better
                          enforcement of and compliance with export laws and regulations.116

                                   Office of Investigations

                          The Office of Investigations (OI) maintained field offices that were
                          responsible for the enforcement systems activities within the office’s
                          geographic jurisdiction. Field offices were led by Special Agents-in-Charge
                          who developed and executed enforcement strategies to ensure compliance
                          with national policies and procedures. The Special Agents-in-Charge
                          coordinated with the Customs Management Centers (CMCs) to conduct joint
                          operations with the inspectors at the POEs.117 Major areas of investigation the
                          OI field offices pursued, included narcotics, money laundering, trade fraud,
                          and cyber smuggling. The OI staff included investigative agents, pilots, and
                          intelligence research specialists. In FY 2000, the investigative field offices
                          reported a total of 13,923 arrests and 11,001 convictions.118




115
    Ibid.
116
    U.S. Customs Service Accountability Report, supra.
117
    Ibid.
118
    Ibid.



                                       An Assessment of the Proposal to Merge CBP and ICE

                                                           Page 111
                          Appendix B
                          Organizational Overview of the United States Customs Service


                                   Customs Management Centers

                          In addition to cooperating with OI on enforcement matters, the 20 Customs
                          Management Centers (CMCs) oversaw the implementation of the passenger
                          processing, trade compliance, and outbound program efforts within their
                          geographic area. The programs targeted high-risk passengers and
                          conveyances in advance of arrival at the POEs. The inspectors and canine
                          enforcement officers at the POEs conducted in-depth screening of high-risk
                          travelers and conveyances, while expediting the screening of those who
                          represented a low risk. In FY 2000, the CMCs oversaw a staff of 7,467
                          inspectors and 631 canine enforcement officers, who processed 489 million
                          passengers and 140 million trucks, cars, aircraft, and boats. Of those, USCS
                          staff arrested 23,670 people and seized 22,956 pounds of cocaine, 1,960
                          pounds of heroin, 533,887 pounds of marijuana, $17,449,057 in currency, and
                          $138,243,384 in illegal merchandise.119

                                   Strategic Trade Centers

                          The five Strategic Trade Centers (STCs) were staffed with auditors and other
                          personnel to monitor trade compliance and analyze compliance trends. The
                          Strategic Trade Centers worked with inspectors and investigators to target
                          likely violators of the laws. In FY 2000, the STCs measured an 83 percent
                          compliance rate with import laws, which was an increase from the preceding
                          four years.120




119
    U.S. Customs Service Accountability Report, supra.
120
    The measured rate is for compliance with all laws, known as the “letter of the law” compliance rate, which measures
all discrepancies regardless of severity. U.S. Customs Service Accountability Report, Fiscal Year 2002.


                                       An Assessment of the Proposal to Merge CBP and ICE

                                                             Page 112
                               Appendix B
                               Organizational Overview of the United States Customs Service


USCS Organizational Chart
                                               Border
                     Anti-Terrorism                                                                                           Planning
                                             Coordination
                                                                                  Commissioner

                                                                              Deputy Commissioner
                     Trade Relations         EEO Office                                                                   Chief Counsel




                                                                                                                     Human
 Regulations                                                Congressional                   Public                                            Training &
                                 Finance                                                                            Resources
 and Rulings                                                   Affairs                      Affairs                                          Development
                                                                                                                   Management



                   Strategic                     Field                      International               Office of                Information &               Internal
                    Trade                      Operations                      Affairs                Investigations              Technology                 Affairs



    Regulatory             Strategic Trade                                                  Air & Marine
                                                             CMCs                                                      SACs                                Field Offices
   Field Offices               Centers                                                       Operations


                                                                                                                    Resident
                                                          Ports of Entry                    Intelligence           Agents-in-
                                                                                                                    Charge




                                                             An Assessment of the Proposal to Merge CBP and ICE

                                                                                      Page 113
Appendix C
Organizational Overview of the Border and Transportation Security Directorate



Establishment of BTS

The Border and Transportation Security (BTS) Directorate was created
by the Homeland Security Act of 2002 and established on January 24,
2003.

BTS’ Mission and Authorities

Effective enforcement of United States customs and immigration laws
means that BTS personnel must prevent the entry of terrorists or
instruments of terror from entering the country and ensure the speedy,
orderly, and efficient flow of lawful traffic and commerce.
Additionally, BTS personnel conduct agriculture inspections and
coordinate border and transportation security elements of the National
Strategy for Homeland Security.

BTS acquired specific authorities and personnel from USCS, INS,
TSA, FPS, ODP, FLETC, and USDA. Elements of USCS and INS
were broken up and regrouped into CBP and ICE within BTS, and
USCIS. CBP merged together agriculture, customs, and immigration
inspectors at POEs and Border Patrol agents between the POEs into
“One Face at the Border.” Customs and immigration investigators, in
addition to detention and removal resources, moved to ICE. More
detailed descriptions of CBP and ICE functions can be found in other
appendices of this report.

BTS components must secure approximately 8,000 miles of land
border with Canada and Mexico, 95,000 miles of shoreline, and 3.4
million square miles of free trade economic zones. Of the estimated
500 million people who enter the United States annually, more than
half are not American citizens. In addition, roughly 11.2 million
trucks and 2.2 million rail cars cross the border into the United States
every year. Approximately 7,500 foreign flagships annually make
51,000 calls to American ports. Each year, 730 million people travel
on commercial aircraft on international and domestic flights, with 700
million pieces of luggage screened.




    An Assessment of the Proposal to Merge CBP and ICE

                           Page 114
Appendix C
Organizational Overview of the Border and Transportation Security Directorate



BTS Components

    BTS Headquarters Component

The BTS headquarters component oversees all the agencies and
programs within the directorate and houses the Office of the Under
Secretary. It contains staff in the following areas: policy, operations,
international affairs, strategic planning, screening coordination,
information technology, and resource management. Some of these
personnel are assigned to BTS on a permanent basis, while others are
temporarily assigned.

The budget for the BTS headquarters component covers basic
operating costs and salaries. The table below depicts the budget and
staff for FYs 2004 – 2006 for the BTS headquarters component.


BTS Budget Allocations and Full-Time Equivalent Staff

      Border and Transportation Security (BTS)
      Fiscal Year                 Budget                     FTEs
           2004                  $8,058,000                    58
           2005                  $9,617,000                    67
           2006                 $10,617,000                    59

    Transportation Security Administration

TSA was transferred to DHS from the Department of Transportation
and has several missions. TSA protects U.S. transportation systems
and ensures freedom of movement for people and commerce. TSA has
statutory responsibility for security over all modes of transportation,
with special authority over airport security and other law enforcement
personnel, which include canine units and armed airline crew
members.

    Federal Law Enforcement Training Center

FLETC was transferred to DHS from the Department of the Treasury.
FLETC provides law enforcement training to federal law enforcement
officers to prepare them to fulfill their responsibilities. FLETC


    An Assessment of the Proposal to Merge CBP and ICE

                           Page 115
Appendix C
Organizational Overview of the Border and Transportation Security Directorate



provides professional development services to over eighty federal
agencies. Additionally, it offers courses to state, local, and
international law enforcement agencies. BTS supervises FLETC’s
administrative and financial activities. FLETC’s main training facility
is located in Glynco, Georgia, with several other satellite facilities
located elsewhere.

    United States Visitor and Immigrant Status Indicator Technology

The US-VISIT Program Office was created within the BTS directorate
in July 2003. The Program Office is positioned organizationally at a
level comparable to CBP and ICE. The purpose of US-VISIT is to
identify visitors who may pose a threat to the security of the United
States, who may have violated the terms of their admission to the
United States, or who may be wanted for the commission of a crime in
the United States or elsewhere. The US-VISIT Program Office is
responsible for designing and implementing the automated, electronic
entry-exit control system as required by Congress.

The US-VISIT program collects biographic and biometric information
concerning foreign nationals traveling to the United States through
designated POEs. The information collected is used to determine
whether visitors should be denied entry into the United States;
apprehended or detained for law enforcement action; allowed to
receive, extend, or otherwise change immigration status; or provided
special protection or attention. The US-VISIT program establishes the
capability and capacity to electronically record the entry and exit of
such visitors by reconciling entry and exit records so that
determinations may be made on whether visitors overstay the period of
their admission to the United States.

On January 5, 2004, DHS began enrolling foreign nationals’
information in US-VISIT. As of January 3, 2005, 16.9 million foreign
visitors had registered with the system. US-VISIT has led to the arrest
or denied admission of 372 criminals or immigration violators.
Federal penitentiary escapees, convicted rapists and drug traffickers
have been intercepted because of US-VISIT, in addition to other
individuals who had been convicted of armed robbery, manslaughter,
credit card fraud, and visa fraud.




    An Assessment of the Proposal to Merge CBP and ICE

                           Page 116
                     Appendix C
                     Organizational Overview of the Border and Transportation Security Directorate



BTS Organizational Chart

                                                                    Office of the
                                                                   Under Secretary


                                                                                             Chief of Staff



                 Office of                    Office of                  Office of                 Office of            Office of
                 Resource                    Operations                  Policy &                International         Screening
                Management                                               Planning                Enforcement          Coordination




        Customs &                   Immigration &                      Transportation
         Border                       Customs                             Security                            FLETC                  US-VISIT
        Protection                   Enforcement                       Administration



               Operating Headquarters Elements




                                                 An Assessment of the Proposal to Merge CBP and ICE

                                                                         Page 117
                     Appendix C
                     Organizational Overview of the Border and Transportation Security Directorate



BTS Personnel Schedule
                                              Border and Transportation Security (BTS) - Headquarters Elements
                                                               On-Board Full-Time Positions
                                                                                      Beginning FY 2004                              Mid 2nd Qtr FY 2005
                           BTS Headquarters Elements
                                                                              Permanent    Detailed     Total                  Permanent   Detailed      Total
               Office of the Under Secretary
                     Subtotal                                                       4                7              11               11              5       16
               Office of Resource Management
                     Management1                                                    …                1               1               1              1         2
                     Resource Analyst/GS-152                                        …                2               2               4              …         4
                     Planning Specialist/GS-14                                      …                2               2               …              3         3
                     Administrative Support/GS-14                                   …                1               1               3              2         5
                     Subtotal                                                       …                6               6               8              6        14
               Office of Operations
                     Management                                                     1                4               5                4             …         4
                     Special Assistant/GS-15                                        …                6               6                5              2        7
                     Liaison Representative/GS-15                                   …               …               …                …              14       14
                     Field Operations Program Manager/GS-15                         …                1               1                4             …         4
                     Administrative Support/GS-12                                   1                1               2                2              1        3
                     Subtotal                                                       2               12              14               15             17       32
               Office of Policy and Planning
                     Management                                                     2               …               2                 4             …         4
                     Policy Advisor/GS-15                                           …               3               3                 9             8        17
                     Administrative Support/GS-12                                   …               …               …                 3             …         3
                     Subtotal                                                       2               3               5                16             8        24
               Office of International Enforcement
                     Management                                                     …               …               …                2              …        2
                     Liaison Representative/GS-15                                   …               …               …                1              …        1
                     Subtotal                                                       …               …               …                3              …        3

               BTS Headquarters Total                                               8               28              36               53             36       89
               1.)   Management positions include those of presidential appointees and those of staff in the senior executive service.
               2.)   All General Service (GS) designations are intended only to show the journeyman grade level for the positions contained in this table.




                                                         An Assessment of the Proposal to Merge CBP and ICE

                                                                                        Page 118
Appendix D
Organizational Overview of Customs and Border Protection



Establishment of CBP

CBP operates within the “One Face at the Border” concept. It serves
as a consolidated border enforcement organization comprised of
former inspectors and Border Patrol agents from the Department of
Justice’s INS, the Department of Agriculture’s Animal and Plant
Health Inspection Service, and Department of Treasury’s Customs
Service. CBP was established in March 2003.

CBP’s Mission and Authorities

CBP’s mission is to enforce immigration, customs, and agricultural
inspection laws. Border enforcement responsibilities include
preventing the flow of illegal aliens and illegal narcotics, securing and
facilitating legitimate global trade and travel, and protecting the
nation’s food supply. CBP employs inspectors who inspect and
Border Patrol agents who detect, deter, and interdict people and goods
entering the United States at and between POEs along the border.
CBP places a priority on keeping terrorists and terrorist weapons from
gaining entry into the United States.

Additionally, CBP conducts operations and activities away from the
border, such as the Container Security Initiative, which increases
security for containerized cargo shipped to the United States from
around the world; and the International Narcotics Control and
Counterproliferation Training Programs, which support the
modernization of foreign customs administrations, combat terrorism,
narcotics trafficking, and transnational crime. CBP also promotes
international trade standards and trade standards compliance through
agreements with foreign governments and international organizations
such as the World Customs Organization, which develops guidelines,
benchmarks, and best practices for the security and efficiency of the
international supply chain, and through agreements with the
commercial sector such as the Americas Counter Smuggling Initiative
and the Business Anti-Smuggling Coalition, which counter the
smuggling of narcotics and contraband, as well as the introduction of
possible terrorist implements in commercial cargo and conveyances.

CBP has five primary strategic goals: 1) preventing terrorism at and
between POEs along the border by denying entry of terrorists, terrorist
weapons, contraband, and illegal aliens; 2) unifying as one border
agency by consolidating all border enforcement components; 3)

    An Assessment of the Proposal to Merge CBP and ICE

                          Page 119
Appendix D
Organizational Overview of Customs and Border Protection



balancing legitimate trade and travel with security by facilitating
efficient transport of legitimate cargo and people while safeguarding
and securing the borders; 4) protecting America and its citizens by
prohibiting the introduction of illegal contraband and other illicit
materials; and 5) modernizing and managing by building a strong
modern management infrastructure.

CBP Operational Elements

CBP is headed by a Commissioner who reports to the Under Secretary
for Border and Transportation Security. CBP has three primary
operational elements: Office of Field Operations, Office of Border
Patrol, and Office of Air and Marine Operations. CBP has 40,000
employees and a budget of approximately $6 billion. The table below
depicts CBP budget and staff during FYs 2004 - 2006.


CBP Budget Allocations and Full-Time Equivalent Staff

         Customs and Border Protection (CBP)
     Fiscal Year                Budget                     FTEs
          2004              $5,987,807,000                 38,692
          2005              $6,408,285,000                 40,616
          2006              $6,716,897,000                 40,872

    Office of Field Operations

OFO enforces customs, immigration, and agricultural laws and
regulations at POEs. It also ensures the safe and efficient flow of
people and goods through POEs via four programs: 1) Border Security
and Facilitation, which involves interdiction and security, passenger
operations, and canine enforcement; 2) Trade Compliance and
Facilitation, which includes summary operations, trade risk
management, account management, enforcement, seizures, and
penalties; 3) Operations, which includes logistics, human resources,
field programs, and field liaison; and 4) National Targeting and
Security, which includes the National Targeting Center charged with
providing tactical and analytical research in support of customs
enforcement and anti-terrorism operations.




    An Assessment of the Proposal to Merge CBP and ICE

                          Page 120
Appendix D
Organizational Overview of Customs and Border Protection



OFO has over 25,000 employees, including more than 19,000 CBP
officers and agricultural specialists. It maintains programs at 20 field
offices, 317 POEs, and 14 pre-clearance stations in Canada and the
Caribbean.

    Office of Border Patrol

The Border Patrol is the primary federal law enforcement organization
responsible for preventing the entry of terrorists and terrorist weapons
into the United States between land POEs. The Border Patrol utilizes
and exploits resources such as electronic surveillance, detection, and
communications technology to interdict and deter terrorists and their
instruments, illegal immigrants, and contraband at the border.

The Border Patrol is divided into 20 sectors along the borders. It has
more than 12,700 personnel, including approximately 10,800 Border
Patrol agents. During FY 2004, Border Patrol agents arrested over
1.16 million illegal aliens.

    Office of Air and Marine Operations

AMO supports CBP’s detection and interdiction mission. It does this
by providing air and marine law enforcement support to the Border
Patrol. AMO also provides airspace security for cities, and provides
transportation and surveillance support to other federal, state, and local
law enforcement agencies during anti-money laundering, counter-
terrorism, anti-weapons smuggling, and intelligence operations.

To execute its mission, AMO utilizes 12 air and marine branches, two
surveillance support branches, 11 air units, and 16 marine units located
throughout the continental United States and along the southern tier of
the United States and Puerto Rico. AMO possesses operational assets
of over 1,000 employees, 130 aircraft, and 60 marine vessels.




    An Assessment of the Proposal to Merge CBP and ICE

                          Page 121
                     Appendix D
                     Organizational Overview of Customs and Border Protection



CBP Organizational Chart
                                               Office of
                                                                                                            Chief Counsel
                                              Intelligence

                         Office of                                                                                                   Office of Public
                           Drug                                                                                                          Affairs
                        Interdiction
                                              Office of
                                                                            Commissioner                      Office of
                                             Anti-terrorism                                                 Congressional

                         Office of
                                                                              Deputy                           Affairs

                      Air and Marine                                                                                                      EEO
                        Operations
                                                Office of                                                   Office of Policy
                                              International                                                  and Planning
                                                 Affairs


                                                                                                            Office of Trade
                                                                                                               Relations




                                                                                Office of                   Office of                           Office of
             Office of Field                   Office of
                                                                              International               Regulations &                         Strategic
              Operations                     Border Patrol
                                                                                 Affairs                     Rulings                             Trade



                                 Office of                                                    Office of                         Office of
                                                                Office of
                                Training &                                                     Human                           Information
                                                                Finance
                               Development                                                    Resources                        Technology



                   Operational/Core Elements




                                                      An Assessment of the Proposal to Merge CBP and ICE

                                                                             Page 122
                            Appendix D
                            Organizational Overview of Customs and Border Protection



CBP Personnel Schedule
                   Customs and Border Protection (CBP)
                  On-Board Full-Time Permanent Positions
                                        Beginning    Mid 2nd Qtr
           CBP Components                                                                                 Change
                                         FY 2004       FY 2005
Office of Border Patrol
      Border Patrol Agent (Series 1896)/GS-11                       10,571               10,684              1%
      Other Occupations                                              1,595                1,328             -20%
      Subtotal                                                      12,166               12,012             -1%
Office of Field Operations (OFO)
      Agriculture Specialist/GS-121                                 1,470                 1,493                 2%
      CBP Officer (Series 1884)/GS-12                               17,383               17,593                 1%
      Other Occupations2                                            4,354                 4,416                 1%
      Subtotal                                                      23,207               23,502                 1%
Air and Marine Operations (AMO) 3
      Pilot/GS-13                                                     …                    468              100%
      Agent (Series 1811)/GS-13                                       …                     12              100%
      Aviation Enforcement Officer/GS-13                              …                     37              100%
      Marine Enforcement Officer/GS-13                                …                     91              100%
      Detection Specialist/GS-12                                      …                    129              100%
      Intelligence Research Specialist/GS-14                          …                     14              100%
      Other Occupations                                               …                    287              100%
      Subtotal                                                        …                   1,038             100%
                   4
All Other CBP
      Subtotal                                                       3,313                4,365             24%

CBP TOTAL                                                          38,686                40,917                 5%
1.)   All General Service (GS) designations are intended to show the journeyman grade level for the positions
      contained in this table.
2.)   The category "Other Occupations" contains administrative and programmatic positions not included among
      those that are highlighted as directly supporting operations.
3.)   AMO started FY 2004 in ICE and was later moved to Customs and Border Protection. Thus, beginning in
      FY 2004 personnel statistics for AMO are reported in the ICE personnel schedule.
4.)   The "All Other CBP" category is composed mainly of personnel from CBP Headquarters in Washington, DC.
      These personnel come from such headquarters elements as the Office of Policy and Planning,
      Office of Strategic Trade, Office of Finance, Human Resources, and Information Technology.




                            An Assessment of the Proposal to Merge CBP and ICE

                                                    Page 123
Appendix E
Organization Overview of Immigration and Customs Enforcement



Establishment of ICE

ICE is DHS’ largest investigative agency. It was established in March 2003
and is comprised of investigators, detention and deportation officers,
immigration enforcement agents, and other federal law enforcement and
administrative support personnel from the USCS, INS, and GSA. The Federal
Air Marshal Service was transferred to ICE from TSA in December 2003.

ICE’s Mission and Authorities

ICE’s mission is to prevent acts of terrorism by targeting people, money, and
materials that support terrorist and criminal activities. ICE is responsible for
identifying and eliminating vulnerabilities in the nation’s border, economic,
transportation, and infrastructure security. ICE serves functions relating to
investigation, detection of vulnerabilities, facility and flight security, and alien
detention and removal. ICE combines customs and immigration law
enforcement authorities, which allow it to combat terrorists and criminals at
their points of origin and potential points of attack both within and outside the
United States.

ICE has four primary strategic goals: 1) prevent the unlawful cross-border
movement of people, money, and materials; 2) use unique access to customs
and immigrations information to address threats and vulnerabilities to
homeland security; 3) secure the nation and communities by expeditiously
removing terrorists and other threats to public safety; and 4) secure federal
properties, key assets, the aviation domain, and events of national interest
from terrorist and criminal attacks.

ICE Operational Elements

ICE is led by an Assistant Secretary who reports directly to the Under
Secretary for BTS. ICE has five primary operational elements: Federal
Protective Service, Federal Air Marshal Service, Office of Detention and
Removal, Office of Investigations, and Office of Intelligence. ICE has more
than 14,000 personnel and a budget of $3.5 billion. The table below depicts
ICE budget and staff during FYs 2004 - 2006.




             An Assessment of the Proposal to Merge CBP and ICE

                                   Page 124
Appendix E
Organization Overview of Immigration and Customs Enforcement



ICE Budget Allocations and Full-Time Equivalent Staff

   Immigration and Customs Enforcement (ICE)
     Fiscal Year                Budget                  FTEs*
          2004              $3,623,715,000               14,688
          2005              $3,845,178,000               14,486
          2006              $4,364,270,000               15,440
*Numbers do not include FAMS

    Federal Protective Service

FPS is responsible for policing, securing, and ensuring a safe environment for
GSA-administered federal facilities. It is comprised of over 1,300 security
officers and investigators. FPS also conducts investigations and provides
emergency response to incidents that occur on federal properties that it is
responsible for securing.

    Federal Air Marshal Service

FAMS was transferred from TSA to ICE in December 2003. It is responsible
for ensuring confidence in the civil aviation system through the deployment of
federal air marshals to detect, deter, and defeat hostile acts targeting
commercial airlines, airports, passengers, and crews. The number of federal
air marshals is sensitive security information.

    Office of Detention and Removal

DRO enforces immigration laws and seeks to ensure the departure of all
removable aliens from the United States. Its operations include detaining,
processing, and removing removable aliens, as well as apprehending
absconding and fugitive aliens. With over 3,400 employees, DRO also
manages and inspects detention facilities throughout the country that house
illegal aliens as they are processed through removal proceedings, until they
are repatriated.




             An Assessment of the Proposal to Merge CBP and ICE

                                   Page 125
Appendix E
Organization Overview of Immigration and Customs Enforcement



    Office of Investigations

OI conducts both domestic and international investigative activities. It
focuses on a broad array of national security, financial and smuggling
violations including illegal arms exports, financial crimes, commercial fraud,
human trafficking, narcotics smuggling, child pornography and exploitation,
and immigration fraud. It also conducts investigations aimed at protecting
critical infrastructures. OI has four divisions: 1) National Security
Investigations, 2) Financial Investigations, 3) Smuggling/Public Safety, and 4)
Investigative Services.

    Office of Intelligence

ICE-Intel collects, analyzes, and shares information on critical homeland
security vulnerabilities. It is responsible for the collection, analysis, and
dissemination of strategic and tactical intelligence data for use by operational
components of ICE and DHS. It compiles and analyzes data and information
related to the movement of people, money, and materials into and out of the
United States with the goal of providing accurate and timely information to
ICE leadership and field agents in support of law enforcement operations.
ICE-Intel has four headquarters divisions: 1) Intelligence Operations, 2) Field
Intelligence, 3) Intelligence Support, and 4) Mission Support. It has six FIUs
located in Chicago, New York City, Los Angles, Tucson, Houston, and
Miami. FIUs provide strategic level intelligence as well as case support on
large, complex cases for ICE.




             An Assessment of the Proposal to Merge CBP and ICE

                                   Page 126
                       Appendix E
                       Organization Overview of Immigration and Customs Enforcement



ICE Organizational Chart
                                             Chief of Staff                                             Policy &
                                                                                                        Planning


                                                                   Assistant Secretary              Office of
                                              Principal                                             Resource
                                            Legal Advisor                                          Management
                                                                          Deputy
                                              Office of
                                                                                                    Director of
                                             Professional
                                                                                                    Operations
                                            Responsibility




                                                                         Office of                                                            Office of
           Federal Protective              Federal Air                                               Office of
                                                                       Detention and                                                         Intelligence
                Service                   Marshal Service                                          Investigations
                                                                         Removal


                                                                                                                   International Affairs


                                          Special Agents in              Field Office            Special Agents in                            Field Unit
            Regional Directors
                                              Charge                      Directors                  Charge                                   Directors


             Facility Security                                                                   Resident Agents in                        Resident Agents in
                                           Field Offices               Removal Units                  Charge                                    Charge
                Managers

            Security Officers              Air Marshals               Removal Officers            Special Agents                           Resident Agents



                    Operational/Core Elements



                                                   An Assessment of the Proposal to Merge CBP and ICE

                                                                        Page 127
                             Appendix E
                             Organization Overview of Immigration and Customs Enforcement



ICE Personnel Schedule
                             Immigration and Customs Enforcement (ICE)
                               On-Board Full-Time Permanent Positions
                                                                      Beginning          Mid 2nd Qtr
                       ICE Components                                                                          Change
                                                                       FY 2004            FY 2005
     Detention and Removal Operations (DRO)
           Deportation Officer (Series 1801)/GS-12                         841                  889                   5%
           Immigration Enforcement Agent (Series 1801)/GS-9               1,752                1,945                 10%
           General Investigation (Series 1801 & 02)/GS-11                  421                  417                  -1%
           Intelligence Research Specialist/GS-14                           1                    1                    …
           Other Occupations                                               430                  416                  -3%
           Subtotal                                                       3,445                3,668                 6%
     Federal Air Marshal Service (FAMS)4
           Subtotal                                                       N/R                   N/R                  N/R
     Federal Protective Service (FPS)5
           Subtotal                                                       1,372                1,385                 1%
     Office of Intelligence (ICE-Intel)
           Agents (Series 1811)/GS-13                                      36                   30                   -20%
           General Investigation (Series 1801 & 02)/GS-11                  25                   17                   -47%
           Intelligence Research Specialist/GS-14                          215                  211                   -2%
           Other Occupations                                                38                   37                   -3%
           Subtotal                                                        314                  295                   -6%
     Office of Investigations (OI)
           Deportation Officer (Series 1801)/GS-12                          2                    4                   50%
           Immigration Enforcement Agent (Series 1801)/GS-9                131                  141                   7%
           Agents (Series 1811)/GS-13                                     5,387                5,624                  4%
           General Investigation (Series 1801 & 02)/GS-11                  668                  692                   3%
           Intelligence Research Specialist/GS-14                          237                  237                   …
           Other Occupations                                               487                  540                  10%
           Subtotal                                                       6,912                7,238                 5%
     Air and Marine Operations (AMO)1
           Pilot/GS-13                                                     462                   …               -100%
           Agent (Series 1811)/GS-132                                       15                   …               -100%
           Aviation Enforcement Officer/GS-13                               40                   …               -100%
           Marine Enforcement Officer/GS-13                                 84                   …               -100%
           Detection Specialist/GS-12                                      122                   …               -100%
           Intelligence Research Specialist/GS-14                           16                   …               -100%
           Other Occupations3                                              276                   …               -100%
           Subtotal                                                       1,015                  …               -100%
     All Other ICE 6
           Subtotal                                                       2,309                1,770             -30%

     ICE Total                                                           15,367               14,356                 -7%
     1.)   AMO started the year in ICE and was later moved to CBP. Thus, middle of 2nd Quarter FY 2005 personnel
           statistics for AMO are reported in the CBP personnel schedule.
     2.)   All General Service (GS) designations are intended to show the journeyman grade level for the position.
     3.)   The "Other Occupations" category contains management and administrative positions not included among
           those that are highlighted as directly supporting operations.
     4.)   Personnel statistics for FAMS are sensitive security information. FAMS transferred from TSA on 12/01/2003.
     5.)   FY 2004 data for FPS do not begin on 10/18/2004 like the FY 2004 data for other ICE subcomponents.
           FY 2004 statistics for FPS begin on 08/22/2004 because FPS was administratively supported by
           GSA prior to this date.
     6.)   The "All Other ICE" category is composed mainly of personnel from ICE Headquarters in Washington, DC.
           These personnel come from a number of offices including the Office of Policy and Planning,
           Office of Chief Counsel, and the Office of Professional Responsibility.




                             An Assessment of the Proposal to Merge CBP and ICE

                                                          Page 128
                           Appendix F
                           Operational Scenarios Illustrating Interconnectedness of CBP and ICE



Operational Scenarios Illustrating Interconnectedness
                           CBP and ICE customs and immigration enforcement efforts are intertwined to
                           a large extent. The operational interconnectedness of CBP and ICE in these
                           areas is best illustrated by two common enforcement scenarios these
                           organizations face. The first scenario tracks the processing and removal of an
                           illegal alien seeking entry into the United States between POEs. The second
                           scenario involves contraband transiting a land POE and the execution of a
                           controlled delivery, an investigative technique used to expand the impact of
                           enforcement efforts by permitting criminal schemes to develop and implicate
                           more criminal associates. In both cases, operational control over the process
                           may shift from one agency to the other agency and back again. These
                           scenarios are not intended to reflect all possible process outcomes, but are
                           intended to demonstrate common operational linkages between CBP and ICE.


        Scenario One: Illegal Entry Between Ports of Entry

   U.S. Border


                           ICE                                                             DRO Determination

                                                                                           Detain      Release
                                                          Removal


                                        Transport to                         Detention          Detention                             Prep for
                                                                                                                 Prosecution
                                          Mexico                           In-Processing       Management                             Removal


                                  Initial               Basic        Temp.          Transport to
                                 Transport            Processing     Holding         Detention

            Apprehension
                                                      BP Determination

                  Transport to
Alien                                        Return        Release       Detain
                    Mexico



                           CBP

                                                                                              ICE Actions               CBP Actions




                                              An Assessment of the Proposal to Merge CBP and ICE

                                                                         Page 129
                          Appendix F
                          Operational Scenarios Illustrating Interconnectedness of CBP and ICE



                          CBP arrests illegal aliens at POEs, as well as between POEs. CBP’s Border
                          Patrol apprehends aliens between POEs. To illustrate the processing of aliens
                          apprehended by CBP, we describe the process as it is played out between
                          POEs along the Southwestern border.

                          Apprehension. Illegal aliens crossing into the United States between POEs
                          come to the attention of CBP’s Border Patrol by a number of possible means.
                          Aliens may activate a Border Patrol sensor or be observed on camera, through
                          aerial surveillance, through Border Patrol agents patrolling the area, or by a
                          concerned citizen who may call the Border Patrol to report an illegal crossing.
                          In response to such alerts, Border Patrol agents are dispatched to apprehend
                          the alien.

                          Initial Transport. After apprehending an alien and making a preliminary
                          determination as to the alien’s immigration status, the Border Patrol agent(s)
                          may personally transport the alien to a Border Patrol station or call for
                          transportation support. This initial transportation from the site of
                          apprehension to the nearest Border Patrol station is performed by ICE’s DRO
                          in some instances and the Border Patrol in others.

                          Basic Processing. Upon arrival at a Border Patrol station, adult aliens are
                          fingerprinted121 and biographic and personal history information is recorded.
                          Their fingerprints are then checked against records in the Automated
                          Biometric Identification System (IDENT), a system with records of past
                          immigration law violators. Also, the alien’s prints are searched against the
                          FBI’s Integrated Automated Fingerprint Identification System (IAFIS), which
                          captures fingerprints from individuals with criminal records in the state,
                          federal, and military justice systems.122 Meanwhile, the alien’s demographic
                          and personal history information is checked against a number of other
                          systems, including:

                              •    CBP’s TECS/IBIS to determine whether the alien has been determined
                                   inadmissible to the United States in the past.

                              •    ICE’s Enforcement Case Tracking System (ENFORCE) to determine
                                   whether the Border Patrol has apprehended the alien in the past.




121
   Apprehended minors under the age of 14 are not fingerprinted.
122
   The IDENT system uses two fingerprints, whereas the IAFIS system checks for records using fingerprints from ten
digits.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 130
Appendix F
Operational Scenarios Illustrating Interconnectedness of CBP and ICE



    •    ICE’s DACS to determine whether the alien was previously removed
         from the United States.

    •    USCIS’ Central Index System to determine whether the alien has
         active or expired immigration benefits or whether he or she has been
         denied such benefits in the past.

    •    DOJ’s National Crime Information Center (NCIC) to determine
         whether the alien has a criminal record.

The results from these system checks are used in determining the subsequent
disposition of the alien. These initial processing efforts usually are performed
by the Border Patrol, but may be performed by DRO staff at some Border
Patrol stations.

Temporary Holding. While awaiting results from initial processing and a
judgment from the Border Patrol on their disposition, aliens are typically
placed in a temporary holding facility. Usually located at a Border Patrol
station, these facilities are not designed to accommodate aliens for long
periods of time. Aliens are held in these facilities for a matter of hours or
days. Limits on the maximum amount of time an alien may be held at these
facilities varies by location and situation, ranging from 12 to 72 hours.
Management and support for these facilities and the aliens housed in them are
often provided by the Border Patrol, but, in some cases, are provided by DRO.

Border Patrol’s Immigration Status Determination. Before making a
determination on the future disposition of the alien, the Border Patrol
evaluates the results of the system checks described earlier, the circumstances
in which the alien was apprehended, and other information it has gathered
from the alien.

Criminal aliens, whether apprehended during the commission of a criminal act
or sought for a previously committed crime, are turned over to the appropriate
authority. For federal crimes, custody of the criminal alien reverts to the U.S.
Marshals Service.

If the alien is not a known criminal and is a Mexican national, the Border
Patrol may give the alien the opportunity to acknowledge his or her illegal
status and voluntarily return to Mexico under escort. Alternatively, the
Border Patrol may seek to remove the alien through an administrative process.
Administrative removal options available to the Border Patrol include:
expedited removal, administrative removal, stipulated removal, or

             An Assessment of the Proposal to Merge CBP and ICE

                                     Page 131
                          Appendix F
                          Operational Scenarios Illustrating Interconnectedness of CBP and ICE



                          reinstatement of a past removal order. In some cases, the alien’s removal
                          requires a hearing before an immigration judge.

                          For removal proceedings that require more than a few days, the Border Patrol
                          must determine whether to seek the further detention of the alien or release
                          them into the United States pending immigration action.123 The Border Patrol
                          may release aliens into the community in exchange for a bond payment or on
                          their own recognizance.

                              •    Return. The escort of aliens voluntarily returning to Mexico is
                                   currently performed by both the Border Patrol and DRO.
                                   (Transport to Mexico)

                              •    Release. In all cases in which an alien is released from Border Patrol
                                   custody prior to removal from the United States, the Border Patrol
                                   issues a Notice to Appear (NTA) to the alien indicating the date and
                                   time of the alien’s required appearance for a subsequent immigration
                                   proceeding. The Border Patrol routes all NTA case files to DRO.
                                   DRO is then responsible for the case management of the alien’s
                                   immigration proceeding and the enforcement of any pursuant EOIR
                                   judgment.

                              •    Detain. Before determining that an alien should be detained pending
                                   immigration proceedings, the Border Patrol must consult with DRO to
                                   determine whether DRO has available detention space. Before
                                   preparing the alien for transport to a DRO facility, the Border Patrol
                                   provides applicable paperwork to DRO, including the alien’s
                                   biographic information and a photograph. Advance coordination with
                                   DRO also involves the selection of an appropriate detention facility for
                                   the alien.

                          Transport to Detention. DRO or the Border Patrol transports the alien to the
                          designated DRO detention facility. DRO houses aliens in a range of detention
                          facilities. DRO operates eight Service Processing Centers of its own and
                          maintains contracts and service agreements with private, county, and local
                          facilities to fill its remaining detention space needs.

                          Detention In-Processing. Upon arrival at the designated detention facility,
                          DRO staff process the alien into the facility. This in-processing ensures that

123
   The detention of aliens is mandatory in some cases. With few exceptions, for example, aliens in expedited removal
proceedings must be detained prior to removal.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 132
                          Appendix F
                          Operational Scenarios Illustrating Interconnectedness of CBP and ICE



                          the alien is accompanied by all his or her belongings, identification, and
                          required paperwork. DRO staff complete additional paperwork, log-in and
                          secure the alien’s personal belongings, and establish a detention category for
                          the alien based on criminal history, gender, and other information. Aliens in
                          different detention categories are typically detained in separate units within
                          DRO detention facilities.124

                          DRO’s Detain or Release Determination. Much like the Border Patrol, DRO
                          has the authority to release aliens on their own recognizance or on bond.
                          DRO may elect to release an alien, for example, if in so doing they are able to
                          detain another alien who represents a greater danger to the community. While
                          DRO may choose to continue to detain an alien, it also may choose to
                          supervise the alien by alternative means. DRO alternatives to detention
                          include electronic monitoring, telephonic reporting, and home and worksite
                          visitation.

                          Detention Management. DRO is responsible for the welfare of aliens detained
                          in its facilities. Consistent with this obligation, DRO provides meals, health
                          care, supervision, and security services for detained aliens. In addition, to
                          ensure that aliens detained in these facilities are safe and secure, and receive
                          humane treatment, DRO monitors detention conditions and routinely inspects
                          facilities for compliance with approved detention standards.

                          Prosecution. Alien removal hearings are conducted before an immigration
                          judge with the DOJ’s EOIR. Such hearings are conducted for aliens released
                          into the community, as well as those detained by DRO. During these
                          proceedings, DHS’s position that the alien should be removed is presented by
                          an attorney from ICE’s OPLA. Before prosecuting the case, OPLA attorneys
                          receive relevant case information from DRO.

                          Immigration judges weigh the evidence presented by OPLA against
                          information from the alien and then render a judgment.125 Immigration judges
                          usually determine that the alien is inadmissible and issue a final order of
                          removal from the United States.126

                          Criminal cases against illegal aliens are tried before criminal courts at the state
                          or federal level. DOJ’s U.S. Attorneys typically prosecute federal criminal
124
    DOJ INS, Detention Operations Manual, Detainee Classification System, February 11, 2002.
125
    Immigration judges’ decisions in these cases are reviewable by DOJ’s Board of Immigration Appeals upon appeal.
126
    Aliens may be judged inadmissible on a number of grounds articulated in the Immigration and Nationality Act.
Inadmissibility may be determined on the basis of health conditions, criminal history, economic welfare, or national
security concerns, among others.

                                       An Assessment of the Proposal to Merge CBP and ICE

                                                               Page 133
           Appendix F
           Operational Scenarios Illustrating Interconnectedness of CBP and ICE



           cases involving illegal aliens, although OPLA sometimes assumes the role of
           prosecutor in these cases.

           Preparation for Removal. After an immigration judge issues a final order of
           removal, it is DRO’s responsibility to ensure that the order is executed. In
           many cases, aliens with final orders of removal are not in DRO custody and
           must be located and apprehended. When in custody, DRO actively
           coordinates the logistics and transportation necessary to remove the alien.
           Removal preparations often involve substantial coordination with foreign
           governments. Foreign consulates and embassies are notified when DRO plans
           to repatriate one of their citizens. DRO also works with foreign governments
           to obtain travel documents for the alien. Finally, DRO notifies other nations
           when travel arrangements call for a deportee to travel through an airport in
           their country.

           Removal. DRO transports the alien to the point of embarkation, usually an
           airport. Airline transportation costs are borne by DRO. In some cases, DRO
           charters flights to remove a large number of aliens to a particular country.
           When necessary, as is often the case with criminal aliens, DRO also escorts
           the alien back to his or her country of record.


Scenario Two: Contraband Transiting Ports of Entry
           CBP’s inspection activities follow a similar process and trigger similar
           engagements with ICE regardless of whether the inspection occurs at a
           seaport, airport, land POE, or international mail processing facility. To
           illustrate the relationship between CBP and ICE in these cases, we have
           chosen to illustrate the inspection and investigative process surrounding
           contraband shipments arriving by tractor trailer at a land POE.




                        An Assessment of the Proposal to Merge CBP and ICE

                                                Page 134
                                 Appendix F
                                 Operational Scenarios Illustrating Interconnectedness of CBP and ICE



                                         Scenario Two: Contraband Transiting Ports of Entry

               U.S. Border

                                                                                                Arrest
                                          OI Determination                                     Associates
                               ICE
                                              Pursue               Monitor
                                                                                              Seize Items          Prepare Case
                                               CD                  Delivery

                                                End                                              Arrest
                         Intelligence                                                           Operator




                          Conduct                             Arrest                                                 Manage
                                             Notify OI                        Seize Items
                         Inspection                          Operator                                              Seized Items
  Contraband

                                             Discover                                              Prepare
                             Targeting
                                            Contraband                                             Report


                               CBP                                             ICE Actions                CBP Actions
                                                                                   CD = Controlled Delivery




                                 Intelligence & Targeting. To maximize the impact of its inspection efforts,
                                 CBP’s OFO uses intelligence and targeting information to help determine
                                 which conveyances, in this case tractor trailers, it should subject to more
                                 intensive scrutiny. Targeting performed at the national level by CBP’s NTC
                                 relies heavily on advance electronic filings from importers. Importers or
                                 brokers acting on their behalf can submit entry documents to CBP through its
                                 Automated Broker Interface system before their goods arrive at the POE for
                                 inspection.127 NTC analyzes the electronic filings submitted through the
                                 Automated Broker Interface system and determines which conveyances to
                                 target for a more extensive inspection process. NTC determinations are based
                                 on intelligence trends and information, some of which comes from ICE. CBP
                                 also uses other automated systems to select conveyances for intensive
                                 inspection.128 In addition to tracking trends and responding to related
                                 anomalies, these systems add an element of randomness to their selection
                                 process. Further targeting efforts occur at the local level, where OFO staff
                                 may collaborate with ICE investigators to identify high-risk conveyances.

127
    Entry documents include bills of lading, completed entry forms, invoices, and documentation that the goods and
driver have the right to enter the United States.
128
    In the case of cross-border trucking, CBP uses its Border Release Advanced Screening and Selectivity (BRASS)
program and Pre-Arrivals Processing System (PAPS) to perform advance targeting and selection functions.

                                               An Assessment of the Proposal to Merge CBP and ICE

                                                                        Page 135
Appendix F
Operational Scenarios Illustrating Interconnectedness of CBP and ICE




Inspection. The CBP customs inspection process has twin objectives. It aims
to facilitate the flow of legitimate cross-border commerce while
simultaneously barring the entry of illegitimate goods. The inspection process
consists of a primary and secondary inspection process. During primary
inspection, vehicle operators arriving at a land POE present inspectors with
paper copies of their entry documents. Inspectors then review the documents,
confirm that the documents are in order and consistent with advance
electronic submissions, and question the driver. Inspectors may determine
that the conveyance is admissible, collect applicable duties and fees, and
release the truck into the United States. Alternatively, primary inspectors can
refer a vehicle to secondary inspection if it has been targeted or if the
inspector is not satisfied with the information he or she received from the
vehicle operator.

Secondary inspection efforts may include closer examination of entry
documents, the unloading and examination of truck cargo, inspection of the
cargo by canine teams, or the use of non-intrusive inspection (NII)
technologies. CBP uses a range of x-ray, gamma ray, and radiation detection
devices to perform non-intrusive inspections. NII results may, in turn, trigger
a physical examination of the cargo.

Discovery of Contraband. Many kinds of contraband illegally cross the
United States border every year. Illegal contraband may consist of a wide
variety of items, including: counterfeit goods, incorrectly manifested cargo,
child pornography, and illegal narcotics.

Notification of OI. After discovering contraband, CBP’s inspectors are to
notify ICE’s OI at the earliest possible opportunity. The timeliness of this
notification is critical and can directly impact the range of enforcement
options available to OI.

OI Determination. After receiving notification from OFO inspectors that
contraband has been detected, ICE’s OI chooses from among several possible
enforcement options.

    •    Pursue a Controlled Delivery (CD). A controlled delivery is an
         investigative technique used to expand the impact of enforcement
         efforts by permitting criminal schemes to develop and implicate more
         criminal associates. During a controlled delivery, OFO inspectors
         permit known contraband shipment to continue across the border to its
         final destination while under ICE surveillance and control. The

             An Assessment of the Proposal to Merge CBP and ICE

                                     Page 136
Appendix F
Operational Scenarios Illustrating Interconnectedness of CBP and ICE



         effective execution of a controlled delivery can reveal a larger criminal
         organization and result in the arrest of the vehicle operator and his or
         her criminal associates, as well as the seizure of additional contraband
         and assets. Controlled deliveries, therefore, are preferred enforcement
         options for OI. OI’s enforcement preferences notwithstanding, the
         potential for conducting a controlled delivery often hinges on the work
         of OFO’s inspectors.

    •    Conclude Enforcement Effort (End). After weighing the options
         above, OI may opt to draw a close to the enforcement effort and
         request that OFO arrest the vehicle operator and seize the contraband.
         OI may then interrogate the conveyance operator. In these cases, OI
         bears responsibility for subsequent investigative and case preparation
         work.

Prepare Inspection Report. Reports and evidence from the conveyance
inspection process are often necessary to effectively prosecute cases involving
cross-border contraband shipments. The CBP inspectors who discovered the
contraband sometimes are required to prepare reports with detailed
information on their inspection activities leading up to the discovery of the
contraband, as well as information about the type of contraband they
discovered and where they encountered it. Inspectors’ photographs of the
conveyance and contraband often are included in these reports.

Manage Seized Items. After either ICE OI or CBP inspectors seize
contraband or related assets (e.g., the vehicle used for smuggling the
contraband), custody of much of the property is remanded to the Fines,
Penalties and Forfeitures (FP&F) unit of CBP OFO. This OFO unit stores and
manages seized property and assets. FP&F enforces strict observance of rules
of evidence and documents and safeguards chain of custody. FP&F liquidates
or destroys seized property that is no longer required for investigative or
prosecutorial purposes.

During the course of its investigation and case preparation efforts, OI often
requires access to seized property held by FP&F. In order to conduct a
thorough investigation, OI is thus dependent on a good working relationship
with FP&F. OI is also reliant on FP&F’s effective handling of case evidence
for successful prosecution of OI cases, as damaging or tampering with
evidence can result in an acquittal. FP&F is, in turn, dependent on
cooperation from OI investigators to ensure that evidence is properly handled
and treated in compliance with applicable regulations.


             An Assessment of the Proposal to Merge CBP and ICE

                                     Page 137
Appendix F
Operational Scenarios Illustrating Interconnectedness of CBP and ICE



Prepare Case for Prosecution. After completing their investigation into the
contraband smuggling operation, OI investigators assemble and prepare case
information and investigative materials for the prosecution of individuals
linked to contraband smuggling operations. Investigators assemble and
prepare statements from the defendant, reports on witness interviews, crime
scene photos, and records of seized items. OI case preparation work, which
may be performed in coordination with OPLA attorneys, often depends on
significant coordination with OFO’s FP&F to access seized items that may be
entered into evidence. In addition, OI’s case preparation efforts often rely on
satisfactory reporting from the CBP inspectors who initially discovered the
contraband.




             An Assessment of the Proposal to Merge CBP and ICE

                                     Page 138
Appendix G
Purpose, Scope, and Methodology


We conducted this review of BTS and its components, CBP and ICE, at the
request of the Chairman of the Senate Committee on Homeland Security and
Governmental Affairs. The objective of our review was to answer the
following questions:

        Should CBP and ICE be merged into one organization? What makes a
        merger attractive or unattractive?

        What are the current organizational, operational, and relational
        problems that must be corrected and will a merger achieve the
        correction?

        What is the role of the Border and Transportation Security (BTS)
        headquarters element?

Our fieldwork was conducted from February 2005 to June 2005. During this
four-month period, we conducted over 300 interview sessions and spoke to
over 600 individuals. Among these individuals were BTS, CBP, and ICE
personnel in the field, as well as senior leadership and program managers at
headquarters in Washington, DC. Our interviewers traveled to Buffalo,
Chicago, El Paso, Miami, New Jersey, New York, Phoenix, San Diego, San
Francisco, and Tucson in order to observe air, land, and seaport border
security operations. We visited more than 63 different CBP and ICE field
locations. At those locations, we interviewed legacy INS, legacy USCS, and
newly hired employees of CBP and ICE. Additionally, we interviewed
congressional staff; personnel from other federal agencies including the
Executive Office for the United States Attorneys as well as some United
States Attorneys; knowledgeable individuals from the Brookings Institute,
Council on Foreign Relations, Heritage Foundation, and the Rand
Corporation; and, leaders of the unions representing employees in CBP and
ICE: American Federation of Government Employees, National Treasury
Employees Union, and National Border Patrol Council.

We reviewed documents and statistics on the legacy INS and USCS and
examined materials related to the formation of BTS, CBP, and ICE. We
examined standard operating procedures and other procedure manuals, budget
plans, and performance statistics from FY 2000 through FY 2005. This
included analysis of statistics on arrests, apprehensions, detentions, and




           An Assessment of the Proposal to Merge CBP and ICE

                                  Page 139
                          Appendix G
                          Purpose, Scope, and Methodology


                          deportations during these fiscal years.129 Lastly, we examined reports from
                          the Government Accountability Office, Internet websites, and news articles.

                          This review was conducted under the authority of the Inspector General Act of
                          1978, as amended, and according to the Quality Standards for Inspections
                          issued by the President’s Council on Integrity and Efficiency.




129
   Due to technical and organizational changes in CBP and ICE, requisite data were not always available. In many other
cases, we could not identify clear performance trends because CBP and ICE have been in operation for only a short
period.


                                      An Assessment of the Proposal to Merge CBP and ICE

                                                            Page 140
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 141
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 142
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 143
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 144
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 145
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 146
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 147
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 148
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 149
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 150
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 151
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 152
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 153
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 154
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 155
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 156
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 157
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 158
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 159
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 160
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 161
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 162
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 163
Appendix H
Management Response to the Draft Report




           An Assessment of the Proposal to Merge CBP and ICE

                               Page 164
Appendix I
Major Contributors to This Report


Office of Inspections

David Hiles, Chief Inspector (Project Manager)
Melissa Howard, Chief Inspector
Brad Harp, Senior Inspector (Team Leader)
Vivian Dupuy, Inspector
Elizabeth Kingma, Inspector (Team Leader)
Douglas Ellice, Inspector
Kirsten Murray, Inspector
Justin Brown, Inspector (Team Leader)
Jennifer Lindsey, Inspector
Levar Cole, Inspector
Jacob Farias, Inspector
Sarah Hewitt, Inspector
Hia Quach, Inspector

Office of Audits

    Boston Field Office

Brian Lynch, Auditor

    Chicago Field Office

Cheryl Jones, Audit Manager
Bradley Mosher, Audit Manager
Aldon Hedman, Auditor
Larry Fugate, Auditor
Paul Streit, Auditor

    Dallas Field Office

Daniel Benbow, Supervisory Auditor
Charles Riley, Senior Auditor
Cheri Kennedy, Senior Auditor
Douglas Denson, Auditor
Rita Dear, Auditor
Rebecca Rodriguez, Auditor
Jerry Meeker, Auditor
Jerry Prem, Auditor



            An Assessment of the Proposal to Merge CBP and ICE

                                    Page 165
Appendix I
Major Contributors to This Report


    Indianapolis Field Office

Bernard Kavanagh, Auditor
Robert Long, Auditor

    Miami Field Office

Denny Kallusingh, Senior Auditor
Ann Kopreski, Senior Auditor
Patti Alcaniz, Senior Auditor
Gary Cox, Senior Auditor
Maryann Pereira, Auditor
Denny Helton, Auditor




            An Assessment of the Proposal to Merge CBP and ICE

                                    Page 166
Appendix J
Report Distribution


Department of Homeland Security

DHS Secretary
DHS Deputy Secretary
DHS General Counsel
DHS Chief of Staff
DHS Public Affairs
DHS Chief of Security
BTS Under Secretary
CBP Commissioner
ICE Assistant Secretary
DHS Audit Liaison
BTS Audit Liaison
CBP Audit Liaison
ICE Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS Program Examiner

Congress

Senate Committee on Homeland Security and Governmental Affairs




            An Assessment of the Proposal to Merge CBP and ICE

                                Page 167
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
